<html>
<title> - FIXING NO CHILD LEFT BEHIND: INNOVATION TO BETTER MEET THE NEEDS OF STUDENTS</title>
<body><pre>[Senate Hearing 114-544]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-544

  FIXING NO CHILD LEFT BEHIND: INNOVATION TO BETTER MEET THE NEEDS OF 
                                STUDENTS

=======================================================================

                                 HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING NO CHILD LEFT BEHIND, FOCUSING ON INNOVATION TO BETTER MEET 
                         THE NEEDS OF STUDENTS

                               __________

                            FEBRUARY 3, 2015

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                       U.S. GOVERNMENT PUBLISHING OFFICE
93-235 PDF                  WASHINGTON : 2017                       
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d4c3dcf3d0c6c0c7dbd6dfc39dd0dcde9d">[email&#160;protected]</a>  





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
RICHARD BURR, North Carolina		BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia			BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky			ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine			AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska			MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois			SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina		TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah			CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas			ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

                                       

               David P. Cleary, Republican Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)

  
                             C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, FEBRUARY 3, 2015

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     3
Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana...     5
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    41
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    44
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................    45
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    48
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    52
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    55
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    58

                               Witnesses

McIntyre, James M., Jr., B.A., M.S., Ph.D., Superintendent, Knox 
  County Schools, Knoxville, TN..................................     6
    Prepared statement...........................................     7
Duffy, Katie, CEO, Democracy Prep Public Schools, New York, NY...    12
    Prepared statement...........................................    13
Ken Bradford, Assistant Superintendent, Louisiana Department of 
  Education, Baton Rouge, LA.....................................    17
    Prepared statement...........................................    17
Susan Kessler, Executive Principal, Hunter Lane High School, 
  Nashville, TN..................................................    21
    Prepared statement...........................................    22
Henriette Taylor, MSW, LGSW, Community School Coordinator, The 
  Historic Samuel Coleridge-Taylor Elementary School, Baltimore, 
  MD.............................................................    28
    Prepared statement...........................................    29
Josh Davis, Vice President, External Affairs, Delta Health 
  Alliance, Stoneville, MS.......................................    33
    Prepared statement...........................................    33
Robert Balfanz, Ph.D., Research Professor, Center for Social 
  Organization of Schools, Johns Hopkins University School of 
  Education, Baltimore MD........................................    36
    Prepared statement...........................................    36

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response by James M. McIntyre, Jr., B.A., M.S., Ph.D. to 
      questions of:
        Senator Hatch............................................    67
        Senator Murkowski........................................    67
    Response to questions of Senator Murkowski by:
        Katie Duffy..............................................    68
        Ken Bradford.............................................    68
    Response by Susan Kessler to questions of:
        Senator Hatch............................................    69
        Senator Murkowski........................................    69

                                 (iii)
    Response to questions of Senator Murkowski by:
        Henriette Taylor.........................................    69
        Josh Davis...............................................    70
        Robert Balfanz, Ph.D.....................................    71
  

 
  FIXING NO CHILD LEFT BEHIND: INNOVATION TO BETTER MEET THE NEEDS OF 
                                STUDENTS

                              ----------                              


                       TUESDAY, FEBRUARY 3, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The Roundtable met, pursuant to notice, at 10:05 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Burr, Hatch, Cassidy, Murray, 
Mikulski, Casey, Franken, Bennet, Whitehouse, and Murphy.

                 Opening Statement of Senator Alexander

    The Chairman. Good morning. The Senate Committee on Health, 
Education, Labor, and Pensions will please come to order. This 
is the 27th hearing in the last 6 years on fixing No Child Left 
Behind or related elementary and secondary education issues. I 
hope we're not far from a conclusion about how to fix No Child 
Left Behind. We're 8 years overdue, which even by Senate 
standards is a long time, and I hope we're coming close to 
marking up a bill.
    From the beginning of our work to try to look at the No 
Child Left Behind law, which was enacted in 2001, we tried to 
follow Representative George Miller's advice. He said, ``Let's 
just fix the problems with it. Let's don't start from scratch 
and rewrite the whole law.'' That seemed like it made a lot of 
sense.
    We tried to see if we could identify the problems, and 
there are really only a limited number. We identified eight or 
nine at that time. From my vantage point, generally speaking, 
we're not far from reaching a consensus on the problems where 
we haven't had a consensus.
    Basically, the problem areas, the areas where we haven't 
got a consensus--or at least I don't see one at the moment--you 
might put under the umbrella of accountability. By 
accountability, I mean goals, standards, annual tests, 
disaggregated reporting of test results, and defining success 
or failure for teachers and schools as well as the consequences 
of that success or failure. Thanks to each of the seven 
witnesses here. You've addressed that in your comments.
    Some of the things I just mentioned, we pretty much agree, 
like the need for a new goal. On other things, we still have 
some work to do, like on whether or not to keep the 17 annual 
Federal standardized tests.
    This morning, we're holding a roundtable. Our aim is to 
make this a little different than a hearing. We have seven 
witnesses. We'll have several Senators coming and going, 
because there are other hearings going on. Our hope was that 
this would be more of a conversation than just a back and 
forth.
    I'll conclude this short statement. I'll ask Senator Murray 
to make a statement, and then I'll begin the conversation. I'll 
ask Senator Murray to go next, and after that, Senator Burr, 
and we'll see how we do. If I were to suggest one word to the 
Senators and witnesses, it would be succinctness. If you'll try 
not to tell us every single thing you're doing the first time 
you speak, we'll have a chance to have a conversation about a 
variety of issues.
    You're here at a very important time, because if I'm 
correct that we're not too far from a conclusion, you're coming 
at a time when you can actually help us figure out what to do.
    The questions that Senator Murray and I asked you to 
address, which you did in your testimony, are: What is your 
State, district, or school doing to implement innovative 
approaches to improve academic outcomes for students, 
particularly low-income and at-risk students?
    And, second, how can we improve the Federal law to 
encourage more States, districts, and schools to innovate?
    When I say law, I should also draw attention to the 
regulations that have followed the law. For example, every 
State has to submit a plan to the Federal Government to receive 
its share of the $14.5 billion title I program distributed to 
States for low-income children. That's about $1,300 for every 
child who lives at or below the poverty line--11 million 
children. That's a lot of children and a lot of money.
    These title I applications are reviewed by the Department 
of Education as well as by outside experts before you can spend 
a dime of that money. This is Tennessee's application for title 
I. I can barely lift it. It's got a lot of direction in it.
    In addition to that, 42 States, the District of Columbia, 
and Puerto Rico are operating under waivers from the out-of-
date and unworkable regulations in No Child Left Behind. To 
receive those waivers, States have to submit waiver 
applications. This is Tennessee's waiver application. This is 
an application for a waiver from this. That waiver application 
was 91 pages long with more than 170 pages of attachments. 
Since 2012, the State has had to submit eight different updates 
or amendments to its plan.
    Tennessee happens to be a State whose goals are about the 
same as the U.S. Department of Education. In other words, 
they're doing about what the department wants them to do. Yet 
they still have this, waiver from this, and eight updates. In 
the case of Washington State, they have this revoked--this 
waiver. They're back operating under the No Child Left Behind 
rules.
    In addition to all this, the U.S. Department of Education 
spends another $9 billion to $10 billion or so on about 90 
different programs that are either authorized or funded under 
No Child Left Behind, with separate application and program 
requirements for those 90 different programs. These include 
Promise Neighborhoods and Investing in Innovation, which we'll 
hear about today.
    The question we ask you is: Are we spending this money in a 
way that makes it easier or harder for you to innovate and 
achieve better academic outcomes? My own view is that the 
government ought to be more of an enabler and an encourager of 
innovation, not a mandater. The Federal Government has proved 
it can do a good job of being an enabler and an encourager.
    For example, just this last year, we all supported the 
Child Care and Development Block Grant program that gives 
grants to States that allow parents to receive a voucher for 
the child care of the parents' choice so the children can 
attend school and the parent--well, so the parent can go to 
school or work.
    Seven decades ago, the G.I. bill enabled World War II 
veterans to attend a college of their choice, helping them to 
become the greatest generation. Today, half our college 
students have Federal grants or loans that follow them to the 
colleges of their choice, enabling them to buy the surest 
ticket to a better job or life.
    About 98 percent of the Federal dollars that go to higher 
education follow students to the school they attend--98 
percent. K through 12 funding is very different. The only money 
that follows students to the school they attend that I can find 
is the school lunch program.
    I'll now turn to Senator Murray for her comments, and then 
we'll begin our conversation.

                  Opening Statement of Senator Murray

    Senator Murray. Well, thank you very much, Mr. Chairman, 
for holding this roundtable today. The topic today is 
innovation, and true to that, we're doing things a little bit 
differently with the seating and the format. I think that's 
good. I do want to thank all of our members and all of our 
participants today in this roundtable discussion. We really 
appreciate it.
    You know, in our country, every student should have access 
to a quality public education regardless of where they're from 
or how they learn or how much money their parents make. If 
we're serious about making progress on that goal, we can't get 
stuck doing the same things we've done in the past. It's going 
to take some new approaches and increased investments to make 
sure students are ready to take on the jobs of the 21st 
century.
    Across the country, teachers and school leaders and 
community partners and entrepreneurs are designing new ways to 
ensure that every student can graduate from high school, 
college and career ready. They're designing new literacy 
programs to reach our youngest learners. They're leveraging 
community resources to provide wraparound services to address 
the unique challenges that students and families face. They're 
giving students real life experience working in the STEM 
fields.
    Supporting innovation in education is a national priority, 
and we have a responsibility at the Federal level to make sure 
our States and our districts and our schools feel empowered to 
design and implement and scale up innovative solutions, because 
we do have some very major challenges we need to overcome. We 
still see significant achievement gaps between groups of 
students. According to NAEP, 30 percent fewer students from 
low-income backgrounds reach proficiency or higher on 
assessments compared with their peers from affluent 
backgrounds.
    We know we're not training enough students with the skills 
they need for the jobs of the 21st century, particularly in the 
STEM fields. My home State of Washington boasts the highest 
concentration of STEM jobs in the country. I hear from 
employers who are having trouble filling jobs in those fields. 
By 2017, unless we act, employers in my State will not be able 
to find workers with the right kinds of skills to fill an 
estimated 45,000 jobs.
    We also know that too many children across this country 
live in poverty today. Students from low-income backgrounds 
don't have access often to high-quality early learning 
opportunities or the healthcare or the nutrition that they 
need.
    In the face of these challenges, teachers and schools along 
with districts and States across the country are designing 
solutions every day to meet students' needs and help them 
succeed. For example, in 2012, 12 school districts in 
Washington State teamed up and won a Federal grant to improve 
education from cradle to career. That project is now opening 
doors for more kids to attend preschool so they can start 
kindergarten ready to learn, no matter how much money their 
parents make.
    Another program in my home State called STEM-LIT is aimed 
at increasing students' interest and achievement in STEM 
subjects. I know that our participants today will be able to 
share more details on projects they're working on to help our 
highest need students succeed. I really look forward to this 
conversation.
    It's important to note that the Federal Government has an 
important and unique role to play in encouraging innovation by 
helping our schools and our districts and our States identify 
challenges, building partnerships between schools and community 
groups and developing and scaling up solutions to meet the 
needs of students and communities.
    For example, the Federal Government can help invest in 
innovation that simply would not be possible at the State or 
local level. In many places, States and districts are already 
feeling a lot of tight budget constraints. Without dedicated 
funding for innovations in STEM or in literacy or arts or 
physical education or other priorities, there is no guarantee 
that States would invest in solutions that can help close 
achievement and opportunity gaps.
    Another important Federal role is helping to scale up the 
innovative solutions that can work. The Federal Government can 
and should help schools and districts and States learn about 
innovations across the country and help them adopt successful 
ideas to meet their own communities' unique needs.
    As we look for ways to fix No Child Left Behind, I'll be 
looking for better ways to spur innovation and give our States 
and our districts and schools the resources they need at the 
Federal level. I'm really proud that my State and our country 
have a history of leadership in innovation, and we need to find 
ways to continue bringing that leadership into our classrooms.
    For this reason and for many others, Mr. Chairman, I hope 
that we can have conversations about a truly bipartisan 
approach in the HELP Committee to fixing this broken law.
    Thank you.
    The Chairman. Thank you, Senator Murray. A good start on 
our bipartisanship has been the witness list. All of our 
witnesses in our K through 12 hearings this year have been 
selected jointly, and that's given us a better variety of views 
and made them more useful.
    Let me introduce the witnesses.
    Senator Cassidy, would you like to introduce the witness 
from Louisiana?

                      Statement of Senator Cassidy

    Senator Cassidy. As I was listening to Senator Murray's 
definition of the problem, poor access for low-income students 
to good teachers, lack of career training, et cetera, I said, 
``My gosh, Ken Bradford could be the only person who speaks 
today.''
    It is my pleasure to represent my fellow Louisianan, Ken, 
who brings immense expertise to this discussion. He began his 
career as a teacher in East Baton Rouge Parish in an inner city 
school--I happened to have been doing school-based clinic work 
there at the time--and a tough school with a high dropout rates 
and a lot of poverty.
    At the school, he was a Sallie Mae New Teacher of the Year 
and a Teacher of the Year finalist. He has been on the front 
lines. Currently, he serves as the Assistant Superintendent in 
the Louisiana Department of Education's Office of School 
Opportunities, part of a team coordinating the implementation 
of college and career education initiatives, the Louisiana 
Course Choice program, and high school student planning.
    The programs he oversees has helped Louisiana lead the 
Nation in advanced placement growth the past 2 years. Ken has 
led the implementation of Jump Start, Louisiana's new career 
education program, and expanded Louisiana's Course Access 
program to more than 20,000 student enrollments.
    Ken is from Paulina, LA, which is in rural Saint James 
Parish, a graduate of LSU, a great Tiger, and served our 
country for 3 years in the U.S. Army, 5 years with the 
Louisiana National Guard.
    Ken, thank you for your service. Thank you for being here 
today.
    Mr. Bradford. Thank you, Senator.
    The Chairman. I'll introduce the other witnesses.
    Dr. Jim McIntyre has been Superintendent of Knox County 
Schools since 2008 in Tennessee. He has over 25 years of 
experience in education.
    Thanks for coming, Dr. McIntyre.
    Dr. Susan Kessler is the executive principal of Hunters 
Lane High School in Nashville. She is an award winning 
educator.
    Dr. Kessler, thank you for coming.
    Dr. Robert Balfanz is a research professor at the Johns 
Hopkins University School of Education Center for the Social 
Organization of Schools.
    Ms. Henriette Taylor is the Community School Coordinator 
for the Promise Heights Program at the historic Samuel 
Coleridge-Taylor Elementary School in Baltimore.
    Ms. Katie Duffy, chief executive officer of Democracy Prep 
Public Schools in New York, NY.
    And Josh Davis, who is vice president of external affairs 
for the Delta Health Alliance.
    Former Senator John Warner once told a new Senator that 
being a Senator was not difficult at all. All you had to do was 
stand up, start talking, and eventually you'd think of 
something to say. Some of the Senators weren't here when I said 
this. Senator Murray and I hope this will be a roundtable, more 
of a conversation, and I think the key word is succinctness.
    What I'd like to suggest--I'm going to call on Senator 
Murray to make--well, let's see. I guess I'll ask a question, 
and then I'll call on Senator Murray. After that, I'll go to 
Senator Burr and Senator Franken. I hope what you do is 
initiate a conversation. If a Senator would like to interrupt 
and ask a question or make a comment--and I hope you'll do that 
succinctly--and if a witness would like to interrupt or ask a 
question, I hope you'll do that.
    We know you all have wonderful programs in your 
communities. We've read about them and want to hear more about 
them. If we can focus in on the question and have more of a 
conversation, we'll continue that until about noon, and we'll 
see how that goes.
    Let me try to begin. The testimony is excellent here. Let 
me ask a question from what you've said. I mentioned earlier 
that I believe that most of what we have yet to decide in 
fixing No Child Left Behind focuses around accountability and 
how we deal with that and what the proper balance is between 
the Federal and State governments.
    Dr. McIntyre, you say--in answer to our question about how 
we can improve the Federal law to enhance innovation--fewer 
constraints, greater autonomy, a Federal role ensuring high 
standards but not dictating what the standards should be, a 
Federal role in ensuring an accountability system but not 
dictating what the accountability system should be--maintaining 
the annual assessment requirement, you say.
    In reading Ms. Duffy's comments, she says maintain an 
annual testing requirement, but States and districts need to 
hold principals and superintendents accountable.
    Ms. Taylor, you say preserve the annual assessments, but 
the Federal parameters should call both for State 
accountability systems.
    Let me ask the three of you if you could succinctly say--if 
you were writing the law, what do you mean by that? How would 
you create the balance between Federal and State 
responsibilities in terms of accountability?
    Dr. McIntyre, what don't you start.

    STATEMENT OF JAMES M. McINTYRE, JR., B.A., M.S., Ph.D., 
       SUPERINTENDENT, KNOX COUNTY SCHOOLS, KNOXVILLE, TN

    Mr. McIntyre. Thank you, Mr. Chairman, and let me also 
thank you on behalf of Tennesseans for your extraordinary 
lifelong service to the great State of Tennessee and to the 
United States of America.
    I'm delighted to be here with you today, and I guess as I 
think about the No Child Left Behind Act and the Elementary and 
Secondary Education Act, it occurs to me that we sort of had it 
a little bit backward, in that what we were very tight on and 
had clear mandates on were the structures and mechanisms of 
accountability, and what we were really loose on was the rigor 
of academic standards in the individual States.
    I feel like we sort of need to flip that so that we are 
very rigorous--we make sure that there are rigorous academic 
standards in each and every State, and I'm not saying the 
Federal Government should dictate or suggest what those 
standards are, but simply that they ensure that there's a level 
of rigor and high expectations for all students in every one of 
our States, and then allow the individual States some 
flexibility and autonomy around how they develop accountability 
systems and the structures to ensure that they meet those 
rigorous standards and expectations.
    Senator, just in general--I think the concept that I would 
like to emphasize again and again--and I'm sure some of the 
other panelists will as well--is to maximize flexibility, to 
allow States, districts, schools, especially those who have 
proven success and a track record of great learning for 
students--to give them the flexibility to innovate and to do 
great work for our kids.
    [The prepared statement of Mr. McIntyre follows:]
    Prepared Statement of James M. McIntyre, Jr., B.A., M.S., Ph.D.
                                summary
    What are we doing to implement innovative approaches to improve 
academic outcomes for students?

    Several instructional and educational innovations have been 
embraced by the Knox County Schools in seeking to achieve the goal of 
Excellence for Every Child articulated in our 5-year strategic plan. 
These strategies have included:

    <bullet> Embracing the concept of ``multiple pathways to success'' 
for students by developing academic options for students beyond the 
traditional comprehensive high school;
    <bullet> Pursuing innovative practices in teacher professional 
development and support, such as those that have emerged from the TAP 
System;
    <bullet> Developing a new Personalized Learning Environment (PLE) 
initiative that puts comprehensive instructional technology in the 
hands of our teachers and students at 13 schools to transform teaching 
and learning;
    <bullet> Investing in our Community Schools effort that extends 
learning opportunities for students and addresses non-academic needs so 
that students can be prepared for success in the classroom; and
    <bullet> Partnering with higher education to purposefully train and 
grow the next generation of effective school leaders through an 
intensive principal fellowship program.

    These innovative practices have led to strong academic progress in 
the Knox County Schools, including a 10 percentage point increase in 
high school graduation rate since 2008.

    How can we improve the Federal law to enhance innovation?

    The Federal role in public education should be limited, but 
effectual. Recommendations as reauthorization of the Elementary and 
Secondary Education Act (ESEA) is considered include:

    <bullet> Fewer constraints and greater autonomy for States and 
districts in spending Federal dollars;
    <bullet> A Federal role in ensuring high standards and rigorous 
academic expectations in each State, but NOT dictating what those 
standards should be;
    <bullet> A Federal role in ensuring a reasonable accountability 
system in each State that is rationally related to the State's goals 
and academic standards, but NOT dictating what that accountability 
system should be;
    <bullet> Maintaining the annual assessment requirement, but 
allowing a small number of successful States and school districts pilot 
potentially innovative practices in assessment; and
    <bullet> Continuing to invest in innovation through Federal ``R&D'' 
grant opportunities.

    In short, the Federal Government should set high-level expectations 
and limited requirements for States around public education, but enable 
innovation, and allow broad flexibility in spending as well as absolute 
autonomy in educational strategy.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, members of the Committee 
on Health, Education, Labor, and Pensions, and distinguished guests, my 
name is Jim McIntyre and for the past 7 years, I have had the privilege 
of serving as the superintendent of the Knox County Schools in 
Knoxville, TN. The Knox County Schools serves nearly 60,000 students in 
90 schools and is a uniquely metropolitan school system, as we serve an 
urban, suburban and rural population all within a single school 
district. The Knox County Schools enjoys a long, proud tradition of 
educational innovation and student academic success. Prior to my 
appointment in Knoxville, I served as the budget director and later the 
chief operating officer of the Boston Public Schools in Massachusetts 
for 11 years.
    I am truly honored to be invited to testify because of the 
importance of this dialog and the impact that it can potentially have 
on the learning and future success of the children of our great nation.
    Before I begin my formal testimony, please allow me a moment of 
personal privilege to acknowledge and thank Chairman Lamar Alexander 
for his exceptional life-long service to the great State of Tennessee 
and to the United States of America. Senator Alexander has been a 
strong advocate for high quality public education for literally 
decades, and his efforts are deeply appreciated by the Tennesseans he 
represents.
    What are we doing to implement innovative approaches to improve 
                    academic outcomes for students?
    We are here to talk about innovation, and I believe the remarkable 
work being done by our teachers, students, staff and principals in the 
Knox County Schools is a model of innovation that is working. Let me 
first say that we are blessed to reside in the State of Tennessee where 
the policy environment for public education is as flexible and 
advantageous as any in the country. Building a flexible statutory and 
regulatory landscape has been quite purposeful in the Volunteer State, 
and I believe this type of freedom allows for innovation to flourish.
    What are we doing that we feel may be innovative? First, our 
visionary School Board has adopted a 5-year strategic plan, entitled, 
Excellence for Every Child, that articulates and embraces the concept 
of ``multiple pathways to success.'' We believe that every student can, 
and must, find academic success, but that it might take different 
options and pathways for individual students to get there. Therefore we 
have actively created alternatives to the traditional comprehensive 
high school.
    For example, 4 years ago we opened (with the assistance of some 
Race to the Top seed funding) a new Science, Technology, Engineering 
and Mathematics (STEM) magnet high school. With rigorous curriculum, a 
non-traditional setting, expert faculty, strong leadership, a wonderful 
school culture, and pervasive technology, the L&N STEM Academy has 
already been recognized as one of the top performing schools in the 
State of Tennessee.
    In addition, this past fall, we opened a new Career and Technical 
Education (CTE) magnet school, called the Career Magnet Academy, on the 
campus of a local community college. The school focuses on four 
exciting potential career clusters, around which student learning is 
organized:

    <bullet> Advanced Manufacturing
    <bullet> Sustainable Living
    <bullet> Teacher Preparation
    <bullet> Homeland Security

    With significant dual-credit and dual-enrollment opportunities 
built into the design of the school, we expect that most students will 
graduate from the Career Magnet Academy high school with an industry 
certification, significant college course work and/or an associate's 
degree. This extraordinary partnership between a public school 
district, a community college, and leaders in industry has led to a 
school where students will make a seamless transition from high school 
to post-secondary education, to a meaningful and fulfilling career.
    We have also put in place a variety of other engaging high-quality 
options, from magnet schools that offer unique learning opportunities 
organized around communications, the arts, and the International 
Baccalaureate program, to a very non-traditional school in a shopping 
mall storefront that caters to students who need additional flexibility 
and support. These ``multiple pathways to success'' have helped the 
Knox County Schools to increase our 4-year high school graduation rate 
from 79.3 percent in 2008 to 88.7 percent for the class of 2014.
    Of course, high quality options are only available if high quality 
instruction is happening in our classrooms. Therefore, the Knox County 
Schools has also embraced innovative practices in teacher professional 
development and support. Several years ago our school system became 
acquainted with the TAP System (formerly the Teacher Advancement 
Program) which is a very successful teacher development and school 
improvement model. We began this exciting initiative with four TAP 
schools, and were able (with resources made available through the 
Federal Teacher Incentive Fund grant) to expand the formal TAP program 
to 18 schools in our district. The schools that we invited to 
participate in the TAP System were typically among our highest poverty 
and most academically struggling schools. The results have been very 
positive, and we have seen strong academic gains as a result of this 
productive engagement.
    The expansion of the TAP System to 18 schools has been extremely 
beneficial, but our willingness to learn from this model and 
disseminate its best practices to all our schools has been truly 
transformational. In 18 schools we are implementing the formal TAP 
System, but now in all 90 of our schools, we have embraced the key 
strategies that make TAP successful, specifically:

    <bullet> Teacher Leadership (Mentor, Master, Lead Teachers & 
Instructional Coaches);
    <bullet> Teacher Collaboration (Professional Learning Communities, 
Teacher-Led Professional Development, Teacher Peer Excellence Groups, 
etc.);
    <bullet> A Developmental Teacher Evaluation and Accountability 
System; and
    <bullet> Strategic Compensation.

    The implementation of these key tenets has led to a systematic 
approach to continuous improvement of instruction across our school 
system, and to high levels of student learning, engagement, and 
success. Some of these instructional strategies have been applied to 
support early literacy in our school system, and leading indicators are 
showing enhanced success in reading outcomes in the earliest grades. We 
are fortunate in the Knox County Schools to have extremely talented 
teachers who are willing to embrace any reasonable strategy that might 
help them better prepare our students for a bright future.
    We also recognize that in order to truly meet our goal of 
Excellence for Every Child, we will need to better meet the individual 
learning needs of every one of our more than 58,000 students. We will 
need to support students who are struggling, continue to challenge 
students who are excelling, close achievement gaps, and help every one 
of our students achieve their full potential. It can sometimes be 
difficult to accomplish that level of differentiation in a traditional 
classroom of 25-30 students or more. Therefore, we have started an 
exciting new Personalized Learning Environment (PLE) initiative, which 
has begun to transform teaching and learning in several of our schools 
with the support of comprehensive instructional technology.
    Because we always grapple with limited resources in public 
education, we began our PLE initiative with a very small pool of 
dollars for technology, and so we conducted an internal competition 
called the School Technology Challenge (STC). Interested schools were 
asked to apply for the resources that would provide pervasive 
technology in their classrooms, and tell us how they would utilize that 
technology to significantly enhance teaching and learning. Teachers 
literally had to sign off on the school's application, signing a 
statement that they would agree to additional training, and that they 
would work to learn and integrate the technology into the classroom. 
Eleven schools were initially chosen from about 30 that applied.
    Today, 18 months later, we have expanded to 13 schools where the 
instructional technology has been deployed as a 1:1 initiative (one 
computer for each student and one for each teacher) in grades 4-12 and 
a blended learning model in K-3. Surprisingly, this ``technology 
initiative'' really isn't about the technology at all: it is about what 
our teachers and kids can do when they have these teaching and learning 
tools available to them inside and outside of the classroom.
    Just this past week, we hosted our first ever PLE showcase, and the 
instructional work that is happening in our PLE schools is truly 
remarkable. Teachers are able to be more creative, innovative and 
interactive with their instruction, and students are more engaged and 
their world and their learning resources have been greatly expanded. 
While we are still very early in this effort, leading indicators point 
to enhanced student learning and academic growth.
    While these instructional efforts have been incredibly beneficial, 
we recognize that in some of our schools and for some of our children, 
there are distractions outside of the classroom that impact student 
learning inside the classroom.
    Students who have health issues, family challenges, dental 
problems, or unmet social-emotional needs, for example, are typically 
not going to be as ready for success in school as their peers. We are 
concerned that some of these dynamics may contribute to pernicious gaps 
in achievement that are defined by income, race, disability and/or 
language.
    To attempt to address these needs, we have begun what we call our 
Community Schools effort. This structure recognizes that the school 
truly is the center of the community, and that if we can extend 
learning opportunities for children, while also meeting the non-
academic needs of our students and their families, our children will 
come to the classroom ready to learn and ready to succeed.
    This innovative public-private partnership has been helped along by 
funding from the Federal 21st Century Schools grant. We have now 
implemented our Community Schools concept in eight of our schools. The 
program leverages community partners and local universities to support 
extended student learning opportunities, to offer fun and engaging 
educational activities, to ensure student health and dental needs are 
addressed, and to serve an evening meal to the entire family. The 
preliminary results are very promising, with some positive increases in 
attendance, some downward trends in disciplinary referrals, enhanced 
parent involvement, and encouraging academic progress.
    Finally, none of these innovations will be effective without great 
school leadership. The role of the school principal has become 
increasingly challenging and complex, and at the same time increasingly 
important, as the principal has become the lynchpin in ensuring 
continuous improvement in our schools. Therefore in the Knox County 
Schools, we have been very intentional about how to identify and grow 
the next generation of great school principals. One of our most 
important strategies has been to partner with the University of 
Tennessee (Go Vols, Senator Alexander!) to create our Principal 
Leadership Academy.
    This highly selective, intensive 15-month principal preparation 
fellowship takes high potential aspiring principals, and pairs them 
with an outstanding and successful mentor principal with whom they work 
side-by-side 4 days a week. On the fifth day, the fellows attend 
classes and seminars at the University of Tennessee taught by both 
professors and practitioners, learning the theory and research behind 
effective school leadership.
    At the end of this Leadership Academy experience, the fellows 
emerge from the program with a master's degree and/or a Tennessee 
principal license, the knowledge and skills needed to be an effective 
school leader, and the network and support to work though the tough 
challenges they will inevitably face. As school leadership has become 
one of the key levers of success in public education, this investment 
in future leaders is one of the most important strategies we have put 
in place.
    All of these innovative strategies have been developed and 
implemented by the outstanding teachers, staff, principals and district 
leaders in the Knox County Schools, and supported by our student-
centered School Board and our engaged community. While we still have 
much work to do, we have seen extraordinary academic results, including 
a nearly 10-point increase in our high school graduation rate, gains on 
annual State assessments, increases in the number of students taking 
and passing Advanced Placement (AP) exams, overall district value-added 
academic growth scores that are at the highest attainable level, and 
``straight A's'' in achievement on our State report card for 2 years in 
a row.
       How can we improve the Federal law to enhance innovation?
    I believe that the Federal role in public education should be 
limited but effectual. The reauthorized Elementary and Secondary 
Education Act (ESEA) should set some important high level expectations 
and requirements, and then allow broad flexibility to support and 
foster educational innovation in our States, districts, and schools.
    Perhaps first and foremost that means greater autonomy for States 
and school districts in spending Federal dollars. In particular, 
States, districts, and schools that have demonstrated success should 
have very few constraints and requirements. This autonomy should apply 
not only to alleviating restrictions in how money is spent, but also to 
providing relief with regard to paperwork, reporting, and compliance 
monitoring.
    One extreme example of the kind of bureaucratic minutiae that 
sometimes drives Federal spending requirements, was the summary exit 
meeting of a title I district monitoring visit that I attended in 
recent years. This is when monitors visit the district to audit your 
compliance with Federal law and regulations. The bulk of the hour-long 
meeting to report the findings of the visit was literally spent 
discussing the need to improve our district's procedures for inventory 
tags on computers bought by title I monies. Not a word was mentioned 
about how to improve teaching and learning with those resources.
    I feel the type of flexibility needed is analogous to when I have 
an extraordinary school principal in place who is leading a school 
toward impressive success for all students. In those cases, really I 
feel that my job is to support that great leader and get out of her 
way.
    Former U.S. Secretary of Education Dr. Rod Paige recently told me a 
story about how as a college football coach he had a defensive back on 
his team who later went on the Football Hall of Fame. I asked what 
Coach Paige had done to support his success. Dr. Paige said the young 
man was so talented that his ``coaching'' was actually holding him 
back, so the best thing Dr. Paige ever did for him was to stop coaching 
him and let him do his thing! Given some latitude, the player continued 
to learn, tried new strategies, and sometimes failed. In general, as a 
result of this freedom, this gifted athlete obviously excelled.
    Similarly, there are schools, districts and States that are making 
such tremendous strides in student learning and success that they 
should be given the broad latitude to spend funds and innovate as they 
see fit. That's not to say they should not be held accountable, but 
let's let them take their innovation and success for a spin and see 
what kind of superlative results they can achieve for kids!
    Simply put there are too many strings attached to Federal dollars. 
States, districts and schools should be allowed to spend Federal 
dollars in any way that clearly aligns with and supports their 
instructional strategies and academic goals. Then they should be held 
accountable to make progress toward meeting those goals.
    In the Knox County Schools, we recently ran into a challenge where 
we couldn't co-locate an innovative and successful afterschool program 
with one of our community partners because of regulations associated 
with the 21st century school grant that said two programs that utilized 
those dollars could not be located in the same building. Talk about a 
detriment to collaboration and community engagement.
    More flexibility on how Federal dollars can be spent would be very 
helpful. (. . . and more Federal dollars to be flexible with wouldn't 
hurt either!)
    Second, I believe there should be a Federal role in ensuring that 
all States have both high standards and appropriate accountability 
systems. Now please hear me on this: I unequivocally believe the 
Federal Government should NOT be in the academic standards business, 
and should NOT suggest or require any particular set of standards. But, 
I do believe that children in Mississippi and Tennessee have the 
absolute right to high expectations and rigorous standards every bit as 
much as their counterparts in Minnesota and Massachusetts. This to me 
is an important civil rights issue and a fundamental question of 
fairness and opportunity.
    Therefore, while the standards themselves should not be dictated, 
States having to demonstrate that they have adopted rigorous, college 
and career-ready standards is a reasonable requirement under the law. 
States should have absolute autonomy and discretion as to the content, 
substance, structure and requirements of those standards.
    Further, I believe that States should have broad flexibility in 
developing accountability systems that help them to meet their 
educational goals. In fact, I think the Federal Government has gone too 
far in dictating the structures and requirements of State 
accountability systems. However, I do believe that there is a Federal 
role in ensuring that each State adopts an appropriate accountability 
system that is reasonably related to meeting its individual State 
educational objectives and achieving its academic standards.
    I would like to see the Federal law allow more flexible and less 
punitive accountability systems. I would also like to see a mechanism 
to ensure that every State has created an accountability system which 
will lead to continuous improvement, developmental teacher evaluation 
and support, and a focus on ensuring high quality education for all 
students. The particulars of the accountability system should be left 
up to the individual States, but having a reasonable accountability 
system in every State should not be left up to chance.
    We reach perhaps the thorniest issue: assessment. I believe the 
Federal requirement for annual statewide assessment of students has 
been a necessary pre-requisite to educational improvement, and should 
be continued.
    If there had not been the annual assessment requirement, and 
particularly the information it provides, the remarkable story of the 
transformation of Tennessee schools simply would not have happened. 
Tennesseans saw a grave disparity between their State assessment scores 
and results on the National Assessment of Educational Progress (NAEP), 
and decided to make our schools better. We have done so . . . the rigor 
of our standards has been radically raised; we have put in place an 
annual developmental teacher evaluation system; and we have seen the 
effectiveness of instruction and therefore student learning improve 
markedly.
    Annual statewide assessments have allowed Tennessee to develop 
measures that give a more nuanced picture of student academic progress. 
Rather than focusing exclusively on academic achievement at a 
particular point in time, having annual summative assessments has 
allowed our State to also consider student academic growth over time. 
Further, having annual testing enables statewide comparisons and 
benchmarking, and allows teachers, principals, superintendents and 
State officials to have a true picture of how ALL students are 
progressing academically, which can inform instructional and 
educational decisions.
    I don't believe that some of the concern and push back regarding 
perceived over-testing is a function of the Federal requirement. I 
believe it is more a function of the combination of Federal, State and 
local mandates and decisions that together may sometimes feel 
overwhelming. This is certainly a concern that we need to carefully 
examine and work to address at the State, local, and even school level, 
but I do not believe the Federal requirement needs to be discarded.
    However, I do appreciate the concept of innovation that Senator 
Alexander has introduced, recognizing that perhaps there might be a 
small number of successful, high capacity States and districts that 
could potentially be given some ability to pilot innovative practices 
in assessment. There are lots of interesting ideas out there--some that 
I'm not sure I'm completely sold on yet--that deserve a chance to be 
tried on a limited basis so we can see if they work. From competency-
based models, and grade-span assessments, to cohort analysis, and even 
statistical sampling, these concepts seem worthy of narrow, controlled 
experiments in student assessment.
    I don't think the Federal Government should abandon the annual 
assessment requirement and leave assessment completely at the whim of 
States and districts. I believe the default should be annual summative 
statewide standardized assessments, but let's perhaps allow a very 
limited number of successful States and districts to try out some of 
these intriguing practices and determine if they are beneficial. It 
seems to me that this type of narrow ``earned autonomy'' strategy would 
be consistent with the spirit of innovation that we are discussing 
today.
    Finally, in addition to removing barriers to innovation as 
discussed above, I believe there is an important role for the Federal 
Government in incenting, catalyzing and investing in innovation. While 
not universally acclaimed, competitive grant funding programs such as 
Race to the Top and the Invest in Innovation (I3) grants have fostered 
important conversations about how best to serve our children in public 
schools across America. Several of the innovations in our school system 
noted earlier, were initiated, funded or encouraged by Federal 
competitive grant opportunities. While in general I would ask for more 
flexibility for the ``formula'' grant funds that are sent to States and 
districts (the vast majority of Federal spending on education), I do 
believe that a continued modest Federal investment in ``R&D'' grant 
opportunities is appropriate and beneficial to fostering innovation in 
America's schools.
    In summary, I believe the Federal role in public education should 
be very limited: setting high-level expectations for States and 
districts but allowing broad flexibility in spending and absolute 
autonomy in educational strategy. The reauthorization of ESEA should 
enable innovation and be focused on the general principles of fairness, 
opportunity, investment, support, flexibility, and local autonomy.
    I conclude by thanking the Chairman, the Ranking Member and the 
committee for the opportunity to be a part of this critically important 
discussion about the future success of the United States of America. I 
am very proud of the innovative and successful educational work that we 
have been doing in the Knox County Schools, and believe that there is 
an opportunity in this reauthorization to structure the landmark 
Elementary and Secondary Education Act to allow for clear expectations 
and greater flexibility in order to facilitate innovation and 
excellence in public education across this great Nation.

    The Chairman. Thank you. That was reasonably succinct. Let 
me go to Ms. Duffy and Mr. Bradford, and then I'll go to 
Senator Murray.

 STATEMENT OF KATIE DUFFY, CEO, DEMOCRACY PREP PUBLIC SCHOOLS, 
                          NEW YORK, NY

    Ms. Duffy. Good morning. Thank you so much for having me 
here. This is a great honor. I will do my best to be succinct.
    At Democracy Prep, what we have done is ensure that all of 
our principals at the school level have very clear goals about 
what our expectations are for kids. Then we empower our 
principals to get there by any means that they deem appropriate 
and best suited for the kids that they are educating.
    The Chairman. Let me ask you: How much of that does 
Washington need to tell you to do?
    Ms. Duffy. Indeed. I was going to share that I thought the 
same level of thinking would be appropriate for the 
reauthorization of ESEA, so setting clear mandates about what 
rigor looks like in standards and accountability and empowering 
schools and States to figure out the best way to get there 
through a proposal or some sort of approved mechanism that 
meets the rigor bar that the Federal Government would mandate.
    [The prepared statement of Ms. Duffy follows:]
                   Prepared Statement of Katie Duffy
                                summary
    Democracy Prep Public Schools is a growing network of free, open-
enrollment, high-performing, no excuses public charter schools that 
share a goal of ensuring that all scholars ``Work Hard, Go to College, 
and Change the World.'' Democracy team of teachers and staff currently 
educates nearly 5,000 students in pre-kindergarten through the 12th 
grade across 14 campuses in Harlem and the South Bronx in New York, 
Camden, NJ and Ward 8 in Washington, DC. A pioneer in authentic civic 
education and charter school turnaround, DPPS achieves remarkable 
academic growth for all students, especially those with special needs. 
By proving that all students, regardless of where they are born or 
their initial academic performance, can achieve at extremely high 
academic levels, Democracy Prep seeks to transform not only the lives 
of our students, but also raise the expectations for public schools 
across the Nation and beyond.
    The animating objective of the reauthorization of ESEA should be to 
hold a high bar of accountability in exchange for autonomy--the 
fundamental theory of education reform. Decisions about what works best 
for students should be made at the school level by caring adults who 
best know the students and the community. However, and this is an 
important caveat, this relinquishment to the most local level of 
control can only work with massive amounts of transparency, data 
reporting clarity, and necessary accountability for adults who fail to 
perform for students. To that end, I humbly suggest that the 
reauthorization of ESEA include: (1) expanding the Charter Schools 
Program; (2) ensuring a portable funding model; (3) eliminating the 
Federal Highly Qualified Teacher definition; and (4) maintaining an 
annualized testing requirement while insisting on local implementation.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, and esteemed members of 
the committee, thank you for inviting me here today to speak with you 
about the reauthorization of the Elementary and Secondary Education 
Act. In my role as chief executive officer of Democracy Prep Public 
Schools, I have seen how many of the previous changes in the ESEA 
created the conditions under which thousands of children have gained 
access to high-quality public school seats in traditionally underserved 
communities. Nevertheless, Democracy Prep's growth reflects the urgency 
of the challenges facing these children and we understand that broader 
systemic change within our Nation's public education system is needed 
in order to produce this response at scale. This ESEA reauthorization 
presents an opportunity to strengthen the reform aspects of this 
essential law for our most vulnerable children while recalibrating the 
balance between Federal oversight and local decisionmaking to foster 
innovation and accelerate the expansion of effective schools.
                           executive summary
    The animating objective of the reauthorization of ESEA should be to 
hold a high bar of accountability in exchange for autonomy--the 
fundamental theory of education reform. Decisions about what works best 
for students should be made at the school level by caring adults who 
best know the students and the community. However, and this is an 
important caveat, this relinquishment to the most local level of 
control can only work with massive amounts of transparency, data 
reporting clarity, and necessary accountability for adults who fail to 
perform for students. To that end, I humbly suggest that the 
reauthorization of ESEA include (1) expanding the Charter Schools 
Program; (2) ensuring a portable funding model; (3) eliminating the 
Federal Highly Qualified Teacher definition; and (4) maintaining an 
annualized testing requirement while insisting on local implementation.
                 history and mission of democracy prep
    The mission of Democracy Prep Public Schools is to educate 
responsible citizen-scholars for success in the college of their choice 
and a life of active citizenship. Now in our ninth year, we have grown 
from a handful of classrooms on the third floor of a public school in 
Harlem, NY, to 14 schools serving 4,400 students across Harlem, the 
South Bronx, Camden, NJ, and southeast Washington, DC. Despite the 
challenges attendant to such a rapid expansion, we have refused to 
compromise quality. In 2010, our flagship school was the top-ranked 
middle school on the New York City Department of Education Progress 
Report; in 2014, having expanded our model in response to student 
demand, we operated four of the highest growth middle schools in New 
York City and one of the highest growth middle schools in the State of 
New Jersey. Our ability to grow at this pace, and with quality, would 
not have been possible without support from the Federal Charter Schools 
Program, and for that, all of our students are grateful.
    Democracy Prep's schools are uniformly composed of students who 
fall within one or more designated ESEA subgroup. By challenging 
students to do their best academically regardless of socioeconomic 
status, language proficiency, special education classification, or the 
academic level at which they enter the school, while providing support 
and accommodation for those who need it, we have continually strived to 
serve as a proof-point for what is possible in public education. Our 
students rise to the expectations we set for them--the higher our 
expectations, the higher the achievement of our students. Serving a 
student population of which only a single-digit percentage would be 
expected to earn a college degree, our flagship high school has now 
produced two classes of graduating seniors, 100 percent of whom were 
accepted to 4-year colleges. Democracy Prep graduates are enrolled in 
such schools as Brown University, Vanderbilt University, Brandeis, 
Boston College, Howard University, Lehigh University, Pitzer College, 
Fordham University and my alma mater, Mount Holyoke College, as well as 
the U.S. Naval Academy. This year's seniors have already received early 
acceptances to Princeton University, Wheaton College, Emory University, 
Smith College, Trinity College, and Dartmouth College.
                      two highlighted innovations
    Civic Engagement: Democracy Prep's mission of preparing active 
citizens is animated by the awareness that the founding purpose of 
public education was to prepare our Nation's youth for self-government. 
Democracy Prep places an explicit focus on preparing students to become 
civic leaders in their communities: creating articulate public speakers 
who are able to advocate effectively for themselves, their families, 
and their communities; developing avid, active, and aware adults who 
monitor current events; and empowering citizens who are able to 
navigate and influence complex social and political structures.
    To advance these aims, Democracy Prep cultivates civic knowledge, 
civic skills, and civic dispositions in our students. By infusing civic 
and historical content into all of our curriculum, we work to build 
civic knowledge cohesively and coherently in a manner that allows our 
students to become skilled negotiators of conflicting information, 
engaged community members, critical thinkers, and confident leaders. By 
incorporating Socratic seminars, oral presentations, and group 
discussions and by thoughtfully reducing the amount of teacher talk-
time in classrooms, we work to develop poised public speakers who not 
only can lobby their elected officials, delivery oral testimony on the 
record at public hearings, and participate in Get Out The Vote 
campaigns, but in fact must do so in order to receive a Democracy Prep 
diploma. Additionally, we have required each of our high school seniors 
to pass the civics portion of the U.S. Citizenship and Immigration 
Services Naturalization Test with a minimum score of 83 percent prior 
to graduation, and we were gratified last month to witness Arizona 
become the first State in the union to pass legislation requiring all 
high school students to demonstrate that baseline level of civic 
knowledge before being conferred a high school diploma.
    Turnaround: The accountability regime established by No Child Left 
Behind has exposed long-festering achievement gaps and laid bare the 
inarguable fact that many public schools serving low-income students of 
color are failing those children. Public charter schools rightfully 
have not been exempt from such scrutiny. As strong charter school 
authorizers have increasingly utilized this data to make high-stakes 
renewal decisions, some have sought innovative alternatives that place 
at-risk students in excellent schools by replacing failed management 
with those with a track record of success. Democracy Prep is proud to 
be such an option for schools that are failing, indeed pioneering the 
approach in 2011 with our first turnaround. At present, over 50 percent 
of the students enrolled at a Democracy Prep school in 2014-15 are 
attending a school that, in a prior incarnation, had been identified--
largely thanks to Federal accountability standards--as unlikely to 
provide them a reliable path to success in college, career, and 
citizenship.
    In 2011, Democracy Prep undertook New York State's first charter-
to-charter school turnaround at Harlem Day Charter School, a failing 
elementary school in east Harlem, that was ranked in the 3d percentile 
of all public schools in the city and the lowest performing school of 
any kind in Harlem. In 2012, the Progress Report ranked Harlem Prep in 
the 96th percentile of NYC schools and in the turnaround's first year, 
Harlem Prep's scholars exhibited the greatest growth in English 
Language Arts (ELA) test scores in New York State and the greatest 
combined growth in ELA and Math test scores in New York City.
    One year later, Democracy Prep was once again tapped to turnaround 
another failing charter school. In 2013, Freedom Academy Charter School 
in Camden, NJ, which had been placed on probation and slated for non-
renewal by its authorizer, placed in the 94th growth percentile 
statewide on its New Jersey School Performance Report during its first 
year as a Democracy Prep school. In the current school year, Democracy 
Prep-led charter-to-charter turnarounds are underway in the Bronx and 
here in Washington in Congress Heights.
    Turnarounds are painstaking efforts fraught with unique and often 
unforeseeable challenges. Overhauling a failing culture that has taken 
root within a particular building is profoundly difficult. Democracy 
Prep's approach to improving academic outcomes for the low-income, at-
risk students who had previously attended requires the flexibility to 
implement a program responsive to the specific needs of our students 
while continuing to serve all of them.
    In each of our turnarounds, we lengthen the school day and calendar 
year in order to provide extended literacy and math instructional 
blocks while building content-rich courses in music, speech, debate, 
art, physical education, design, and even Korean language into our 
regular academic program. We utilize student-level data (including 
nationally normed assessments, as well as individually administered 
reading inventories) to allow us to meet students where they actually 
are and to inform all decisions around instruction, staffing, and 
spending. We implement a rigorous, college-prep curriculum and offer 
targeted tutoring and individualized support after school and on 
Saturdays for students who need additional attention. We focus 
relentlessly on school culture and maintain high expectations, not just 
for our students, but also for the adults charged with creating and 
maintain high standards with consistency and fidelity.
                        recommendations for esea
    Democracy Prep's success is predicated on a model in which 
decisionmaking is localized and schools are held accountable for 
demonstrating that students are acquiring the knowledge and mastering 
the skills they need to be active and engaged citizens. This model 
should guide the ESEA reauthorization effort. To encourage innovation, 
schools and districts that use this flexibility to implement 
empirically sound programs that consistently improve academic outcomes 
for students--particularly low-income and at-risk students--should be 
incentivized to bring those programs to scale.
    Consequently, the overriding objective behind ESEA reauthorization 
must be preserving and strengthening accountability measures that 
enable policymakers to make informed decisions about the effectiveness 
of underperforming schools and the scalability of successful models, 
while eliminating or amending provisions that inhibit flexibility and 
innovation and that prioritize adult compliance inputs over student 
learning outcomes. The accountability and transparency measures 
embodied in NCLB have catalyzed desperately needed reform efforts over 
the past decade-and-a-half. High standards maintained at the Federal 
level have indeed had the desired effect of spotlighting schools, 
districts, and even States struggling to educate the future caretakers 
of our democracy.
    Expanding the Charter Schools Program: Democracy Prep has 
consistently and purposefully demonstrated that higher spending does 
not equate to better results. Inadequate resources are not the 
challenge; Democracy Prep operates its schools on public funding, and 
our turnarounds have yielded significantly better outcomes than have 
the district turnaround efforts funded by School Improvement Grants. As 
a charter network, Democracy Prep receives a significantly lower per-
pupil allocation than do the district-run schools that produce worse 
results for the same families, often--by virtue of New York's 
innovative approach to allocation of space in public school 
facilities--on the same floors of the same buildings.
    Democracy Prep's growth has depended on access to the Charter 
Schools Program funding. Nearly every school that Democracy Prep has 
opened has received the funding, whether via a State Education Agency 
or directly. In contrast, our turnarounds are not generally eligible 
for SIG funding, due to overly unwieldy definitions of ``failing.'' The 
CSP program has allowed Democracy Prep to grow from an idea to a 
national proof point, with nearly 5,000 students on the path to college 
and citizenship in 2015.
    Charter schools and charter management organizations should be 
eligible to apply for competitive Federal grant programs that are open 
to local educational agencies. This funding stream offers networks and 
schools like Democracy Prep an opportunity to equitable funding without 
private philanthropy.
    Ensuring a Portable Funding Model: Democracy Prep strongly believes 
in a funding framework tied directly to the school students attend. 
Charter schools should receive the same per-pupil allocation for each 
student they educate, including all title funding. Any opportunity to 
ensure that every State has an equitable funding model for charter 
schools is of paramount importance.
    Eliminating the Federal Highly Qualified Teacher Definition: Given 
the pace at which Democracy Prep has expanded, doubling in size as a 
network prior to the start of the 2014-15 school year, the need to 
identify, develop, and retain talented adults with the mettle to thrive 
in our demanding no excuses environment has become increasingly 
pressing. Such a challenge would be daunting enough were we simply 
assessing each applicant on his or her mission alignment, content 
knowledge, classroom management, lesson plan execution, team 
orientation, and ability to engage and inspire children. Layering on an 
additional bureaucratic consideration is unnecessary, as each State has 
its own licensing requirements that must also be met. This additional 
requirement does not enhance outcomes for students and is ultimately a 
compliance-based checkbox.
    Although grappling with HQT designations is not preclusive for an 
operator like Democracy Prep, it may indeed be so for others who 
understand the importance of the work but cannot reconcile doing what 
they believe to be best for kids with creeping compliance obligations 
that thwart those efforts.
    Maintaining an annualized testing requirement with local 
implementation: The students who have benefited most from having access 
to a seat in a Democracy Prep school would be the ones most ill-served 
by any dilution of Federal accountability measures, including any 
weakening of the annual testing mandate for grades 3 through 8. Testing 
drove demand for market-based reforms; parents who had previously 
lacked access to information about their children's schools started 
advocating more insistently for higher quality school choices. 
Reverting to the previous regime, loosening the reins on annual 
testing, and depriving parents of this information would harm the same 
students who have benefited from access to schools like those operated 
by Democracy Prep.
    The annual testing regime provides a mechanism to arm policymakers 
with the information they need to make high-stakes decisions about 
intervention, closure, and replication. In exchange for this meaningful 
and tough accountability for student outcomes, policymakers should 
relinquish decisionmaking authority around what to teach and what to 
test to the individual most intimately familiar with a specific 
environment. States and districts need to hold principals and 
superintendents accountable while empowering them to make curricular 
choices, structure their own internal assessment calendars, and 
determine who should be at the front of their classrooms.
    In closing, the reauthorization of ESEA offers us all a chance to 
recommit to the most important aspects of public education--our 
children. I encourage this committee to recommend legislation that 
preserves policies that promote high standards and accountability for 
student outcomes. I also recommend considering revisions to those 
policies that support local decisionmaking authority. In fact, this is 
what Democracy Prep attempts to do in every school we operate. 
Decisions about what works best for students should be made at the 
school level by caring adults who know the kids and the community the 
best, but only when there is necessary accountability for adults who 
fail to perform for children.
    Thank you for allowing me to join you today. It is most certainly 
an honor to speak with you today about the work of Democracy Prep and 
the work of ensuring that we have a bright future for every one of our 
children.

    The Chairman. Mr. Bradford, what we're really talking about 
here is if you keep the tests and you disaggregate the results, 
then somebody has to decide what is success, what is failure, 
and what are the consequences. Who ought to decide that?

        STATEMENT OF KEN BRADFORD, ASSISTANT SUPERINTEN-
    DENT, LOUISIANA DEPARTMENT OF EDUCATION, BATON ROUGE, LA

    Mr. Bradford. Senator, in Louisiana, we feel that we need 
to preserve the annual assessments, because it's the annual 
assessments that are helping us evaluate our innovative 
programs to determine those that are working. Our 
accountability system in Louisiana has evolved to a point now 
where it's not measuring just student grade level proficiency 
and high school graduation rates. In our accountability system, 
we are also measuring student attainment and advanced placement 
scores, student attainment of industry-based credentials.
    It's annual testing with accountability that's aligned with 
State level goals, not necessarily singular programmatic goals 
of a particular program. We're seeing the results in Louisiana 
as a result of this by including this in our accountability, 
because this is a Louisiana goal.
    We're closing the achievement gap. In the last 2 years, 
some of our most historically disadvantaged students are 
starting to see academic success in areas that they didn't 
previously do, and I'll give two examples.
    Advanced placement--in the last 2 years, we have seen a 137 
percent increase of African American students in Louisiana 
taking the advanced placement exam. We've seen an 89 percent 
increase in African American students attaining a 3 or higher. 
We've led the Nation 2 years in a row.
    Relative to the ACT exam, which is part of our 
accountability formula, we now offer the ACT to every junior in 
the State of Louisiana.
    [The prepared statement of Mr. Bradford follows:]
                   Prepared Statement of Ken Bradford
                                summary
Louisiana Course Access
    Louisiana's education legislative reform package in 2012 included 
student Course Access legislation. Course Access (called Course Choice 
in our State) enables Louisiana families and students to select from 
hundreds of online and face-to-face courses not traditionally offered 
by high schools and middle schools. Course Access makes sure that all 
students have access to the courses they need to succeed in college and 
career.
Louisiana's Jump Start Career Education Model
    Jump Start is Louisiana's new program for school districts, 
colleges, and businesses to collaborate in providing career courses and 
workplace experiences to high school students. Through Jump Start 
students can earn industry-valued credentials that qualify them for 
entry-level employment in high-wage career sectors. Course Access 
courses help Louisiana students attain these Jump Start industry 
credentials.
Appropriate Federal Role
    Looking ahead to the next iteration of the ESEA, many at the State 
and local level agree that the Federal role in a range of education 
policy decisions should be reduced. We would also agree that there are 
certain things that the Federal Government does well, including 
providing support for research and innovation.
Coherent Planning
    There is a need for a simpler Federal framework that provides a 
coherent plan for schools and clear direction for States. States need 
to be able to focus on achieving large statewide goals versus singular 
programmatic goals.
Funding Flexibility
    States need flexibility in managing the way Federal funds are 
allocated. States should be given the authority to combine and utilize 
Federal title funds to meet agreed-upon goals. Progress starts with 
allowing educators the independence to innovate subject to 
accountability standards. Congress should streamline grant 
requirements. ESEA should give States greater flexibility to use 
Federal funds through competitive grants that allow districts, charter 
schools and non-profits to scale their most innovative practices but 
allow States to define which innovations best serve their students.
Preserve Annual Assessments
    While innovation and testing may seem anathema to one another, in 
fact measurement is what allows us to determine which innovative 
programs work. Measurement also allows us to terminate low-performing 
Course Access course providers, while expanding the number of students 
with access to great teachers, great courses and great schools. Annual 
assessments enable us to track performance. Course access, school 
choice, and career education all rely on valid, regular measurement.
                                 ______
                                 
    Chairman Alexander, Senator Murray, and members of the committee, I 
thank you for the opportunity to be a panel member today and provide 
some thoughts on innovative approaches to improved academic outcomes 
for students. This is an extraordinary opportunity that Congress has in 
considering Elementary and Secondary Education Act (ESEA), re-
authorization.
    Our State has attempted innovative approaches to a number of its 
most significant problems. These include turning around low-performing 
schools and the Recovery School District in New Orleans, as well as 
early learning and our Early Childhood Networks.
    I am here to share two specific examples from within my area of 
work, College and Career Opportunities. In our State, only 20 percent 
of adults have a 4-year degree and only 8 percent have a 2-year degree. 
Incremental growth will not solve the problem. We need scalable 
solutions like the Louisiana Course Access program and the Jump Start 
Career Education Initiative.
             louisiana's jump start career education model
    For generations our country has perpetrated a stigma against career 
and technical education, fearing--in some cases rightly--that 
apprenticeships and courses taught in workplace settings were becoming 
cellars to which the most disadvantaged students were perpetually 
consigned.
    That stigma has had an unfortunate cost, perhaps nowhere more than 
in Louisiana, a State rich in natural resources, offering abundant job 
opportunity to its citizens. Too often a singular focus on the 4-year 
university degree as the lone path to prosperous work has steered 
Louisiana graduates away from lucrative job opportunities in technical 
fields requiring a 2-year associate degree or a workplace 
certification. In turn the economic gap has grown between those with a 
university degree (only 20 percent of Louisiana's population) and those 
with no degree or credential at all.
    Jump Start is our State's new and unprecedented career education 
program that calls for school districts, colleges, and businesses to 
collaborate in providing career courses and workplace experiences to 
high school students, certifying them for the career fields most likely 
to lead to high-wage jobs. Every district in the State has launched 
Jump Start allowing them to continue their education after high school, 
certifying them for the career fields most likely to lead to high-wage 
jobs.
    Jump Start will ensure Louisiana students have access to state-of-
the-art facilities, equipment, and professionals to prepare during 
their high school schedules for careers in Louisiana's high-growth job 
sectors. Regional Jump Start teams comprised of Schools, Business and 
Industry, Post-Secondary institutions, State Economic Development and 
Workforce Commission representatives will identify career opportunities 
important specifically to each region of the State, for which students 
may earn industry credentials. By offering credentials that give 
graduates a leg up in Louisiana's economy of today and tomorrow, Jump 
Start will prepare our high school graduates for a productive 
adulthood. Jump Start closes this opportunity gap by offering not just 
an alternate path to prosperity and employment, but a pathway for every 
young adult.
    First, Jump Start ends the longstanding practice of labeling 
students entering high school as ``career'' or ``college''. All 
students--from those with perfect ACTs to those with significant 
cognitive disabilities--can pursue a career pathway under Jump Start. 
These pathways, designed by teams of experts in every region of the 
State, involve courses taught in high schools, community colleges, and 
workplaces--no longer are the bureaucrats in Baton Rouge prescribing 
the course sequences and pathways. They culminate in credentials that 
will allow graduates to continue their professional training after high 
school, either in community colleges or within workforce training 
programs.
    Last year the State Legislature and Board of Elementary and 
Secondary Education (BESE) created a Career Development Fund to finance 
the expansion of technical courses in the high schools and a Course 
Access Allocation to finance course providers outside of high schools, 
including community colleges.
    Louisiana rewards high schools in their letter grade ratings when 
students achieve industry credentials. Advanced students earning 
construction trades certifications, for example, generate just as many 
points for their schools as do students passing challenging Advanced 
Placement tests.
    In an effort to increase our instructional capacity in the State we 
train career educators statewide at summer academies to receive the 
professional they need to help students achieve their industry 
certifications. Additionally, the State has implemented teacher 
certification policies to facilitate industry professionals' entry into 
teaching positions, giving greater credit to workplace experience and 
expertise while providing these workplace experts with essential 
training on instructional strategies.
                        louisiana course access
    Ensuring our students have access to the appropriate coursework is 
necessary to make Jump Start work. Louisiana's education legislative 
reform package in 2012 included student Course Access legislation. 
Course Access (called Course Choice in our State) enables Louisiana 
families and students to select from hundreds of online and face-to-
face courses not traditionally offered by high schools and middle 
schools. In this age of innovation in education, we can't accept these 
limitations on the growth of our children. If Louisiana and the rest of 
the Nation are to compete in the 21st century, we have to get beyond 
the limitations of the traditional schoolhouse and provide each student 
with an education that meets with their vision of life beyond 12th 
grade.
    Course Access is a critical component of Louisiana Believes, our 
State's plan to allow every student a pathway to college and a 
professional career. These Course Access courses offer students 
opportunities to pursue college coursework, Advanced Placement courses, 
and career training that prepare them for opportunities after high 
school. Louisiana high school students now have access to hundreds of 
dual enrollment courses at the State's 4-year universities. Course 
Access also allows middle and high school students the ability to earn 
course credits via the Internet. The State has over 20 online providers 
that offer an array of courses geared to preparing students for 2-year 
and 4-year college.
    Students are also gaining access to career courses leading to 
valuable Industry-Based Credentials through the Louisiana Community and 
Technical College System campuses. There are thousands of student 
enrollments through the LCTCS including Welding, Occupational 
Orientation and Safety, Oxyfuel Systems, NCCER Core Training 
(construction), General Electrical System Diagnosis, and Introduction 
to Industrial Instrumentation. Other course providers include LSU, 
districts, Florida Virtual School, Sparx Welding.
    Louisiana students now have access to:

    <bullet> Foreign language courses impossible to staff and offer in 
rural areas;
    <bullet> Career and technical education courses culminating in 
industry-valued certifications for high-paying jobs (e.g., welding);
    <bullet> AP and college courses to get a head start on a college 
degree (e.g., Bard College offers liberal arts seminars for high school 
kids in New Orleans);
    <bullet> ACT prep courses to increase chances of qualifying for a 
State scholarship; and
    <bullet> Math courses using Khan Academy.

    Louisiana's Course Access legislation passed with--and continues to 
enjoy--bipartisan support. We're seeing broad support for course access 
around the country, from Texas to Utah, Florida, Rhode Island and 
Minnesota.
    As a result of these programs Louisiana has seen nation leading 
results the past 3 years:

    <bullet> For the 2014-15 school year, students have enrolled in 
20,000 courses to date through Course Choice, an increase from 2,362 
course enrollments in the 2013-14 program pilot.
    <bullet> Thousands of students in Louisiana are currently pursuing 
a high school diploma through 1 of 34 approved Jump Start graduation 
pathways. Jump Start Regional Teams are currently developing 20 
additional pathways to submit for approval this spring.
    <bullet> Data from the College Board shows the number of Louisiana 
students scoring three or higher on Advanced Placement (AP) exams, 
earning college credit, has increased 24.6 percent, the highest in the 
Nation from 2013 to 2014. The rising number of students participating 
in AP is leading to dramatic increases for African American students, 
who have realized increases of more than 30 percent in tests scoring 
three or higher from 2013 to 2014, and 89 percent increase over the 
last 2 years. Likewise, the number of African American high school 
students taking AP tests increased 137 percent over the last 2 years.
    <bullet> Research from Columbia University shows that many students 
who otherwise had not planned to take the ACT, especially those from 
low-income backgrounds, score unexpectedly well when given access to 
the test. Since Louisiana began requiring all public high school 
students to take the ACT series in 2013, the State has seen a dramatic 
increase in the number of seniors earning qualifying scores for a State 
scholarship. The number of seniors earning a qualifying score has 
increased by more than 6,000 since 2012.
                        appropriate federal role
    Looking ahead to the next iteration of the ESEA, many of us at the 
State and local level would agree that the Federal role in a range of 
education policy decisions should be reduced. We would also agree that 
there are certain things that the Federal Government does well, 
including providing support for research and innovation.
    I know I speak for Superintendent White and the rest of my 
colleagues from Louisiana when I express my hope that a reauthorized 
ESEA will support States' ongoing work with 21st-century models of 
teaching and learning while also finding ways to stimulate new 
innovations that can ensure all of our students have access to the 
world-class education they deserve.
                           coherent planning
    There is a need for a simpler Federal framework that provides a 
coherent plan for schools and clear direction for States. States need 
to be able to focus on achieving large statewide goals versus singular 
programmatic goals.
    Louisiana State's plan ``Louisiana Believes,'' is built on the 
premise that all children can achieve high expectations for learning 
and that those closest to children--parents and teachers--know better 
than government how to help students achieve those expectations.
    Louisiana's plan has guided our State's efforts to strengthen the 
State accountability system, providing increased clarity for parents 
and educators in the form of an A-F school grading system. This 
accountability grading system promotes standards and assessments that 
align with our ultimate goal of preparing every student for success in 
college and career, including factoring in Advanced Placement results, 
dual enrollment credit, and career education Industry-Based 
Certificates aligned to high-wage high-demand jobs.
                          funding flexibility
    States need flexibility in managing the way Federal funds are 
allocated. States should be given the authority to combine and utilize 
Federal title funds to meet agreed-upon goals. Progress starts with 
allowing educators the independence to innovate subject to 
accountability standards. Congress should streamline grant 
requirements. States should propose how to distribute Federal dollars 
in ways that align with their own funding formulas. ESEA should give 
States greater flexibility to use Federal funds through competitive 
grants that allow States, districts, and non-profits to scale their 
most innovative practices but allow States to define what innovation 
truly is rather than restricting the applications.
                      preserve annual assessments
    While innovation and testing may seem anathema to one another, in 
fact measurement is what allows us to determine which innovative 
programs work. Measurement also allows us to terminate low-performing 
Course Access course providers, while expanding the number of students 
with access to great teachers, great courses and great schools. Annual 
assessments enable us to track performance. Course access, school 
choice, and career education all rely on valid, regular measurement.
    The Federal parameters should both call for State accountability 
systems that commit to results, especially among historically 
disadvantaged students, and allow States to innovate on measures 
themselves. States need flexibility in designing and implementing 
State-developed accountability systems that will remain committed to 
transparent reporting of data for all students and focus on supporting 
on the lowest-performing schools.
    In Louisiana, our accountability system has evolved to include not 
just grade level proficiency and graduation rates, but also real-world 
college and career attainment measures such as Advanced Placement 
results, dual enrollment credit, and Industry Based Credential 
attainment. Federal parameters should compel States to design systems 
in line with these principles, but States should have freedom to craft 
measures.

    The Chairman. You know, everybody's got great programs 
here. What we'd like to know is how do we write this law to 
have the programs. Let me go to Senator Murray.
    Senator Franken. I'm sorry. I just wanted to ask a 
question, which is you've led the Nation in AP--what did you 
lead the Nation in?
    Mr. Bradford. Advanced placement growth.
    Senator Franken. Growth.
    Mr. Bradford. Louisiana was 50th in the Nation in advanced 
placement participation and students attaining 3s or higher. 
Now Louisiana has moved up, and we have--two years in a row, we 
have increased the number of students attaining a 3 or higher 
on an advanced placement program--25 percent.
    Senator Franken. Where are you now?
    Mr. Bradford. We have moved to 38th in the most recent 
college board report.
    Senator Franken. Thirty-eighth.
    Mr. Bradford. I'll tie it back to what Senator Alexander 
was saying, that where we're going is we would like the States 
to have that flexibility to set programmatic goals, and then we 
need the annual assessments so we can see if what we are doing 
innovation-wise, we are seeing results with.
    Senator Franken. You've led the Nation in growth of 
minority students who have taken the AP and gotten a 3.
    Mr. Bradford. We have led the Nation in the number of 
students attaining a 3 or higher. We have increased by 25 
percent each of the last 2 years. The subset of demographics of 
students--with African American students over the last 2 years 
we've had an increase of 137 percent taking the exam and 89 
percent achieving a 3 or higher.
    Senator Franken. OK. I don't want to belabor this. So we'll 
stop.
    The Chairman. Thanks, Al. That's very helpful.
    Dr. Kessler has a comment before we go to Senator Murray.

 STATEMENT OF SUSAN KESSLER, EXECUTIVE PRINCIPAL, HUNTER LANE 
                   HIGH SCHOOL, NASHVILLE, TN

    Ms. Kessler. I support maintaining standardized assessments 
at some level. We must remember that what is the most important 
thing that we do with children is we teach children. Not the 
most important thing that we do is testing children.
    There really has to be an inverted pyramid, where the 
people who are closest to children are the most important voice 
in any kind of amendment to this legislation, because teachers 
and principals and district personnel--these are the people who 
stir the drink in education. We want to be able to test 
students to see where we are, but to use that only as one 
benchmark in a portfolio type approach.
    Kids are more than a test score, and how a student performs 
on 1 day, on one test, should not be used to determine whether 
or not that child is failing, the school is failing, the 
district or the State. We don't want to continue to have an 
over-emphasis on standardized testing. What our emphasis should 
be on is high-quality teaching.
    [The prepared statement of Ms. Kessler follows:]
               Prepared Statement of Susan Stone Kessler
                                Summary
    What is your school doing to implement innovative approaches to 
improve academic outcomes for students, particularly low-income and at-
risk students?

    <bullet> Focus on school climate, creating a welcoming environment 
for students and having organized structures for communicating with 
students, parents, staff members, and business/community partners.
    <bullet> Implementation of the Academies of Nashville, a career 
academy concept modeled after the 10 National Standards of Practice 
from the National Career Academy where every child selects an academy 
based on a career pathway that creates smaller learning communities 
within a large high school.
    <bullet> Structuring the school day to provide one lunch for 
students to participate in clubs, get tutoring, use computer labs, eat 
lunch, socialize and develop relationships with peers and adults.
    <bullet> Revolutionize learning by providing a Blended Learning 
model where all students are taught in a hybrid structure of both in 
person and online instruction using technology provided by the school 
and personal devices owned by students.
    <bullet> The combined innovations have produced higher student 
attendance rates, lower disciplinary incidents, and have made our 
school the most improved in students earning proficient and advanced 
status on standardized tests over the past 3 years when compared to the 
11 other zoned high schools within our district.

    How can we improve the Federal law (No Child Left Behind) to 
encourage more States, districts, and schools to innovate?

    1. Revise the Federal law to show a commitment to the whole child 
including a change in the use of testing to be developmentally 
appropriate and only one part of a child's, school's, and district's 
assessment.
    2. Incentivize States and communities to offer universal, free pre-
K to all communities.
    3. Include mental health support offered in schools during the 
school day, pre-K-12.
    4. Incentivize the community schools model.
    5. Invest in the professional development of educators.
    6. Incentivize States and communities to allocate funding for 
anytime internet access for all.
                                 ______
                                 
    As a career public school educator, I am honored to appear before 
you today to share my experiences implementing innovative approaches 
for students. I would like to thank Senator Alexander, Senator Murray 
and the members of the committee for the opportunity to participate in 
the panel and contribute to the roundtable discussion about innovative 
approaches to improving education. My suggestions about fostering 
innovation in schools is based on my experiences at Hunters Lane High 
School within Metropolitan Nashville Public Schools (Tennessee) over 
the past 7 years. By improving the school climate, focusing on 
communication with key groups and implementing innovations such as one 
lunch, the academy small learning community model, and blended 
learning, we have personalized our school to a place where student 
engagement is the central focus. This engagement has produced higher 
student achievement as measured by standardized tests, student 
attendance rates, reduction of disciplinary incidents and increased 
post-secondary education rates.

    What is your school doing to implement innovative approaches to 
improve academic outcomes for students, particularly low-income and at-
risk students?

    I became principal of Hunters Lane High School, an urban high 
school in Nashville, TN in July 2008. Our school was in ``corrective 
action'' status due to failing to meet benchmarks for several 
consecutive years under No Child Left Behind. As a title 1 school with 
over 80 percent of the student body receiving free or reduced lunch, 
our students come to us with many academic deficits caused by unstable 
housing, frequent changing of schools resulting from a high mobility 
rate, lack of parental engagement, and violence within the community. 
It has been our philosophy to approach education in a systemic way by 
providing supports to parents and families as well as students.
    Over the past 7 years, we have been able to make many improvements 
as we have worked to turnaround our school. Our efforts have fallen 
into the following categories.
                             school climate
Reduction of Student Disciplinary Incidents
    In 2008, disciplinary incidents were out of control and there was 
little faith in the school within the community. We immediately re-
instituted the ``fun'' things about high school that had been removed; 
pep rallies, dances, spirit weeks and informed the students that each 
one would be held accountable for his or her own actions, rather than a 
group penalty. What occurred was the ``ultimate paradox'' where we 
actually regained control of the school by giving more freedom to 
students. There was an immediate reduction in disciplinary incidents 
that has continued each year so in 2014 there were 57 percent fewer 
disciplinary incidents than in 2008.
Communication with Key Groups
    A principal has many groups of stakeholders. When I was appointed 
in 2008, I knew that I needed to invent a way to connect with 1,700 
students if I was to be successful in changing the school from a place 
where group fighting and gang problems were common place to a school 
where academic progress and being a community of learners was valued. I 
gave every student my personal cell phone number to ``text'' me. 
Students were intrigued by the novelty and tested me to see if I would, 
indeed, respond to every text as I promised. Students texted dress code 
questions and suggestions and would warn me if they ``heard'' there 
would be trouble at dismissal. Students immediately began to approach 
me in the hall and say, ``I am the one who texted you about x'' and by 
responding to each student, my credibility as a leader was established. 
Parents began texting me as well, as the banner with my phone number 
hangs prominently above the main office in the school lobby. One of the 
concepts I emphasize to principals when I talk about this method of 
communication is that this is not another thing for principals to do; 
it is simply a smarter thing.
    To increase parental involvement and input, we developed the Parent 
Academic Achievement Team (PAAT) which is designed to provide input and 
ideas from a parent's perspective about how our school is serving our 
students. While we use annual anonymous surveys as part of our formal 
assessment process, the opportunities to get parents and the principal 
around the same table to talk about the quality of education has 
provided valuable insight to me and a great opportunity to build a 
communication pipeline for parents.
    To communicate with school staff, we developed the HAWD? (How Are 
We Doing?) process that seeks to provide an avenue for honest dialog 
about the things happening within our school. I conduct the process 
four times a year. The HAWD? system has provided a structured method 
for collecting information and for fostering trust among professionals. 
It allows school staff to collaboratively solve our problems.
    In the spirit of gathering groups to meet to improve our school 
climate, we launched the G2BAW (Great to Be A Warrior) team. This group 
of students completed an application process designed to ensure a 
representative sample of students different from student government who 
would have a chance to weigh in about improvements to our school. 
Students have found these meetings that are scheduled twice per month 
to be a powerful example of how to be active within our democratic 
system.
Cultivating Business Partnerships
    Under the academy model that all zoned schools in Nashville use, we 
have a specific, aligned, authentic priority to develop meaningful 
business partnerships. These businesses do not simply donate supplies 
under the typical model; rather; they are genuinely invested in the 
academic programming within our schools. We have over 30 partners that 
are aligned with our academies to provide our students with real world 
professionals in the field who work alongside our teachers to teach 
about the industry they represent. They also lead field trips and 
conduct teacher externships and student internships.
                          innovative practice
Academy Concept
    Our district embraced the small learning community concept almost a 
decade ago, but the Academies of Nashville, a now, nationally 
recognized model for organizing large high schools began to thrive 6 
years ago. Hunters Lane is 1 of 12 high schools that are organized into 
career-based academies where teachers work in teams with one counselor 
and one assistant principal to personalize the learning environment, 
provide more intensive instruction, and connect real world business 
professionals to assist in teaching the curriculum through organized 
partnerships. Our academy concept follows the 10 National Standards of 
Practice from the National Career Academy Model\1\ with fidelity. Every 
student selects an academy based on his or her particular interests.
    Each of our academy teams has business partners who have signed a 
formal agreement to support our students in their career academies. I 
work alongside our academy coach to recruit and explain our school 
vision and focus to our larger business partners. One of the aspects of 
all of our academies that we are most proud of is their feeling of 
social responsibility and their great desire to give back to our school 
and community.
One Lunch
    Six years ago we restructured our schedule to allow the entire 
student body to go to lunch at the same time, just as college campuses 
do. Our students--all 1,700 of them, in grades 9-12 go to lunch. 
Students may eat in the cafeteria, at one of the picnic tables in the 
courtyard, or in a hallway. We also use this period to engage students 
in activities of their choice, to promote school spirit, and to 
encourage interactions between students and faculty--all steps that 
have proven to forge positive connections throughout the school. This 
also provides time for intramurals, student performances, tutoring, 
club activities, and even detention for those who get into trouble. We 
have an internet cafe and several computer labs available for students 
who need to use technology they may not have access to at home.
Blended Learning
    In 2012-13, my district decided to implement blended learning for 
all advanced classes at the high school level. We are an International 
Baccalaureate (IB) school so our advanced placement (AP) and IB classes 
were taught under a hybrid model where students receive and participate 
in instruction in both an online and traditional in-class experiences. 
Almost immediately, my teachers began reporting that the blended model 
was providing higher levels of student engagement. When students become 
engaged with the curriculum and do their work, authentic learning takes 
place. The blended learning structure was so compelling and powerful 
that the teachers began selling other teachers on this idea and we 
decided to offer all classes under the blended environment during the 
2013-14 academic year. Now that we are in our third year of using 
blended learning, our students are very accustomed to going to the 
online classroom to view video clips, download presentations and even 
take tests. We have technology that students can check out of the 
library to take home and we have many computer labs available at lunch. 
However, we have found that most students prefer to use their phones to 
access the online classroom. I would love to see anytime internet 
access offered across the country so those who live in poverty can have 
an expectation to internet, just as we enjoy clean drinking water as an 
expectation in our country.
    What blended learning allowed us to do was access the learner who 
is ignored in the traditional classroom; the technological learner. 
While we have learned to address the needs of visual, auditory and 
tactile learners, the technological learner, typically has his needs 
ignored. In the blended environment, this type of student thrives. They 
are active in online discussions and are motivated to learn the 
curriculum at a deeper level. It is not unusual for my students to 
continue online discussions about the content into the weekend or late 
into the evening because they are connected to one another and their 
teacher in a structure that is safe and feels very natural to them. As 
easy as the world has made online shopping, banking and online 
communicating, the teenagers of today want to learn online as well.
                                results
Attendance
    Our school level attendance has increased nearly every year since 
2008 with a low of 91 percent to a high in 2014 to 92.3 percent. The 
increases in attendance have been a direct result of the focus on 
social emotional learning, commitment to making our school a positive 
place and a haven for students and have resulted from the academic 
progress that students have seen that they can make.
School Level Performance on Standardized Assessments
    In Tennessee, we have increased our standards and have added more 
high stakes courses at the high school level. Among our six high stakes 
courses, we have increased the percentage of students scoring 
proficient or advanced each year in five out of six courses. Of all of 
the zoned schools within our district, Hunters Lane has had the highest 
3-year average of gains in students being proficient and advanced. 
These gains have been a direct result of using student performance data 
to guide our instruction. Our teachers of core subjects meet with the 
administration weekly to review student performance data, plan 
interventions, and review student progress and this continual 
assessment has helped to push our students forward.
Post-Secondary Education Rates
    Thirty-eight percent of the high school graduates in Tennessee go 
on to post-secondary education. We are very proud that our post-
secondary education acceptance rates have surpassed 70 percent every 
year for the past 3 years. In May, 75 percent for the class of 2014 was 
accepted into the college of their choice with those students earning 
nearly $4M in scholarships.

    How can we improve the Federal law (No Child Left Behind) to 
encourage more States, districts, and schools to innovate?

    According to a January 16, 2015 article published in the Washington 
Post by Lyndsey Layton\2\ ``Majority of U.S. public school students are 
in poverty'' the majority of pre-K through 12th grade public school 
students have financial circumstances that make them extremely 
vulnerable. This startling statistic means that we have to reconsider 
the demands and expectations of what we want schools to accomplish in 
order to prepare high school graduates to be well-equipped to meet the 
demands of being intelligent, educated contributors to our communities.
    There is an old adage that states, ``What gets measured, gets 
done.'' There is no place where that is more evident than in schools. 
No Child Left Behind brought some improvements to education in the 
sense that we all began tracking our data, working to ensure equity 
between different groups of students, publishing results for families 
and communities to review and an understanding that ``every kid 
counts'' in terms of test scores. Unfortunately, the over reliance on 
test scores has led some schools to be so concerned with testing, that 
what is getting done, is in essence, only what is getting measured. 
This is one of the most destructive unintended consequences of a well-
intentioned public policy in the history of our country. The reality 
is, kids are more than a test score. When parents take children to the 
pediatrician, physicians also track data on the child and report to 
parents that their baby is measuring in a certain percentile for height 
and weight and head circumference. They use this data to evaluate if 
the child is showing signs of an undiagnosed illness or developmental 
problem or to report that the child is developing as expected. 
Regardless of the data the parent receives, the parent loves the child 
anyway. Parents are not concerned with helping a child grow so he can 
measure in the 60th percentile rather than the 30th percentile. The 
parent wants growth for the purpose of the child developing, evolving 
into who the child will become instead of who the child is now. This 
should be the only purpose of testing.
    Unfortunately, we have used testing to blame children, communities, 
teachers and schools and have been quick to condemn schools as failures 
or successes based on a child's performance on 1 day or a series of 
days when we know that child development is a continually moving target 
and testing is merely a ``snapshot'' of a child's progress that should 
be used as part of a bigger picture of the child's development. Rather 
than evaluating schools and student achievement on a test on 1 day or 
week, adopting a more summative, portfolio approach, would give 
students an opportunity to demonstrate what they know, rather than a 
standardized test that only measures what they have not learned yet.
    There is a place for testing and I do not advocate the abolishment 
of standardized assessment; however, it must be part of a comprehensive 
view of a child's development and one part of what makes a teacher and 
school successful. If we truly want schools to be centers of innovation 
where school personnel can develop new answers to problems then we must 
re-focus our emphasis on serving students rather than testing them. 
Until we stop publishing lists of so-called good school or failing 
schools, we will not provide an environment where educators have 
freedom to innovate, to learn from best practice, to approach things 
differently, because they are held captive by the fear of how every 
initiative will impact test scores.
    Innovation and creativity result from safe environments. When 
educators are given an opportunity to think meaningfully about what 
students need, rather than on how to get them to score well on a test, 
we will begin to see an explosion of innovation. In my 21-year career, 
I have worked in two Tennessee districts within the same 50-mile 
radius. I have served children in six different schools including 
schools classified as rural, inner city, suburban, affluent and poor. 
What these communities need is flexibility to do what is in the best 
interest of their youth and as amazing as it sounds, there are 
significant differences in what children need who are literally only 
miles away from one another. No Child Left Behind needs to allow 
communities to decide how to spend funding to close achievement gaps 
and advance student achievement, rather than schools and districts 
trying to fit their square needs into circular funding holes.
    If we want to serve children, particularly children who live in 
poverty who comprise the majority of those in public schools then we 
need to follow the tenets of best practice in child development and 
provide an education that meets the needs of children wherever they 
are. There is research-based, proven programming that should be 
incentivized through No Child Left Behind to help communities advance 
including the following six suggestions:

    (1) Commitment to the Whole Child: The demands of the 21st century 
require a new approach to education, one that recognizes that academic 
achievement is but one element of student learning and development, and 
only a part of any complete system of educational accountability. A 
comprehensive approach to learning recognizes that successful young 
people are knowledgeable, emotionally and physically healthy, 
motivated, civically inspired, engaged in the arts, prepared for work 
and economic self-sufficiency, and ready for the world beyond their own 
borders. A whole child approach to education is one of the best ways to 
prepare students for this challenging future, and to be college-, 
career-, and citizenship-ready. Such an approach seeks to ensure that 
each child, in each school, in each community is healthy, safe, 
engaged, supported, and challenged. It includes access to a challenging 
and engaging curriculum, safe and trusting classrooms and schools, and 
a climate that supports students and their families. A whole child 
approach starts with the earliest learners and continues through high 
school, and promotes the long-term development and success of each 
student.\3\ It is also consistent with assessment by a portfolio 
approach where students are assessed throughout the school year rather 
than on one, or one series of end of course tests.
    (2) Universal, free pre-K: We must develop a way to offer 
incentives to States and districts to provide universal, free pre-
Kindergarten. Some children enter kindergarten without being able to 
identify letters and colors while others are already beginning to read. 
What we know about children who live in poverty is that they are often 
exposed to fewer words, they hear less language and so their vocabulary 
may be limited. Universal, free pre-K would provide children with 
opportunities to learn the structure of school, be exposed to text-rich 
environments, engage in developing the skills to prepare children to be 
literate and begin the complex task of meeting a young child's social, 
emotional needs. Universal pre-K allows children to begin to explore 
their world with other children and to learn ways to communicate, 
share, develop relationships and even solve conflict in a warm, 
friendly setting with teachers who are trained to meet the needs of 
young children. Universal pre-K would help to ensure that every 
kindergartner has the pre-requisite knowledge to be successful in 
school from the first day. Once kids get behind, it becomes very 
difficult for them to ever catch up. As a high school principal, I am 
held accountable for the drop-out rates of my students; however, the 
reality that few want to admit is that some of our children begin the 
process of dropping out long before high school and every drop out 
becomes disengaged long before they become truant.
    (3) Mental health Support Offered in Schools During the School Day: 
Many children have serious mental health needs that often go 
undiagnosed, untreated and unchecked. According to the Centers for 
Disease Control & Prevention: \4\

          ``Based on the National Research Council and Institute of 
        Medicine report (Preventing mental, emotional, and behavioral 
        disorders among young people: progress and possibilities, 2009) 
        that gathered findings from previous studies, it is estimated 
        that 13-20 percent of children living in the United States (up 
        to 1 out of 5 children) experience a mental disorder in a given 
        year and an estimated $247 billion is spent each year on 
        childhood mental disorders. Because of the impact on children, 
        families, and communities, children's mental disorders are an 
        important public health issue in the United States.''

    It is often difficult for families to access providers who 
specialize in childhood psychiatric and psychological treatment and 
transportation and other barriers often delay treatment. To prepare 
children to be successful when they graduate from high school, we must 
treat those who suffer from mental health issues as part of educating 
the whole child.
    (4) Community Schools: Schools are often the central point of a 
community and they house the most important resource a community has 
for sustaining its future; children. The Coalition for Community 
Schools is an alliance of over 200 national, State and local partners 
all committed to uniting schools, families, and communities for young 
people's success.
    The research is clear that many factors impact academic 
achievement, including the effects of poverty; school climate; school 
discipline; and chronic absence. Under The No Child Left Behind Act 
(NCLB), the development of the whole child (including cognitive, 
social, emotional, physical, and civic capacities) has suffered. The 
narrowed curriculum under NCLB caused budget tradeoffs that often 
eliminated non-tested subjects and funding for specialized 
instructional support personnel. Teachers and principals have taken on 
more responsibility and accountability with fewer supports at a time 
when student needs are increasing. Standards were lowered, achievement 
gaps have stayed stagnant, and the U.S. remains mediocre in math and 
reading compared to other developed countries. (Coalition for Community 
School Practices\5\) We need for the community school structure to be 
implemented in districts as a way to make the schools a resource for 
not only schools, but families, as well.
    (5) Investment Professional Development for Educators: Educators 
are being charged ``to do more, with less'' in a social environment 
that in many ways has been openly hostile to them. We must stop blaming 
teachers and schools and recognize that schools are a reflection of the 
communities they live in. Where there is violence in the community, 
those children, through no fault of their own, know that violence, 
experience it, own it, and sometimes emulate it. Educators need 
professional development funding included in every initiative, not as 
an after-thought or a ``if we can afford it'' line item. Those on the 
front lines, who leave their own children every morning to teach other 
people's children need the benefit that advanced professional 
development provides. Good teaching is about integrating new strategies 
with current, effective practice and not merely replacing old with new. 
If we want teachers to be able to serve the kids of the future, with 
all their strengths and their many challenges, then educators must be a 
partner in the selection and implementation of professional development 
initiatives.
    (6) Anytime, Internet Access for All: The demand for internet 
services and WiFi is strong for Americans across the country; however, 
the lack of access to the internet often creates barriers for those who 
live in poverty. Since our communication has become very dependent on 
using online resources, those without access do not have the same 
opportunities as others to communicate with teachers, apply for jobs, 
research, pay bills, and even engage in higher education. If we could 
offer financial incentives to States and communities to encourage them 
to provide low or no cost internet to all families, we would reap the 
benefits of no longer having a digital divide.

    In conclusion, we have a critical opportunity to revise ESEA to 
provide schools with more supports to serve students and less focus on 
testing them. This begins with a commitment to the whole child. To 
immediately stop standardized testing being used to sort and select 
children and blame or demonize schools, and rather include testing, at 
a developmentally appropriate level, as one of many tools used to 
measure student achievement and school performance. By eliminating the 
digital divide by providing anytime internet access for all, 
implementing universal, free pre-K, addressing the mental health needs 
of children with trained professionals during the school day, 
incentivizing the community school model and providing comprehensive, 
meaningful professional development to educators, you will open the 
door to creating conditions that foster innovation while eliminating 
the fear of how every implementation dip will impact the test scores 
for that year. This will not occur without respect being given for the 
professional educator. If school and district personnel are not seen as 
a resource, a partner, as the literal ``straw that stirs the drink'' in 
districts and schools, we will not see the groundswell of innovation 
that is possible. Educators have been maligned, criticized and blamed 
in communities across the country in political circles. This can be 
stopped with a recognition that what teachers contribute cannot be 
measured by a mere test score. Teaching is not factory work. It is 
dynamic and it is individualized and our country's commitment to public 
education is the absolute cornerstone of what has made the United 
States of America great. I would like to thank Senator Alexander, 
Senator Murray and the members of the committee for considering my 
perspective and thank you for the work you do in leading for all 
citizens.
                                Endnotes
    \1\ National Career Academy Coalition. (2014) ``The National 
Standards of Practice.'' Retrieved from https://www.ncacinc.com/nsop.
    \2\ Layton, L. (2014, Jan 16). Majority of U.S. Public School 
Students are in Poverty. The Washington Post. Retrieved from http://
www.washingtonpost.com/local/education/majority-of-us-public-school-
students-are-in-poverty/2015/01/15/df7171d
0-ce9-11e4-a7ee-526210d665b4_story.html.
    \3\ ASCD. (2015). ``The Whole Child Initiative.'' Retrieved from 
http://www.ascd
.org/whole-child.aspx.
    \4\ Centers for Disease Control and Prevention. (2014, May 16) 
``Children's Mental Health--New Report''. Retrieved from http://
www.cdc.gov/Features/Childrens
MentalHealth/.
    \5\ Institute for Educational Leadership. (2015) ``Coalition for 
Community Schools''. Retrieved from http://www.communityschools.org/.

    The Chairman. Thank you, Dr. Kessler.
    Senator Murray.
    Senator Murray. I, too, want to thank the witnesses. I read 
your testimony. It's really excellent. I come from the point of 
view of somebody who's been a preschool teacher, a school board 
member, a State legislator, and a Federal legislator. There's a 
lot of people who have impact on what happens in classrooms, 
and it is oftentimes hard to discern who made the decision 
where. Schools do need to have the ability to make decisions.
    As a Federal voice on this, it's important that we set 
goals as a country to make sure that we are achieving. That's 
why I've always really felt it's important that at the Federal 
level, we do have targeted funding on national goals so that 
schools have the opportunity to do that, whether it's literacy 
or early childhood education or STEM education. These are goals 
that, as a country, we want to make sure that our students have 
access to.
    I wanted to ask our witnesses today, in your experience, 
what are the areas in which targeted supports have really made 
a difference for children?
    Ms. Taylor.

  STATEMENT OF HENRIETTE TAYLOR, MSW, LGSW, COMMUNITY SCHOOL 
 COORDINATOR, THE HISTORIC SAMUEL COLERIDGE-TAYLOR ELEMENTARY 
                     SCHOOL, BALTIMORE, MD

    Ms. Taylor. Good morning, everybody. My name is Henriette 
Taylor, and I just wanted to thank you first for inviting me 
here. I'm a Community School Coordinator, so let me just put it 
out there.
    I'm the five-foot view, right? I'm the person when we have 
all of these policies and procedures that are put in place to 
see how they work.
    The Chairman. Could you move the mike a little closer, 
please?
    Ms. Taylor. Sure. I'm used to speaking to children fifth 
grade and under. My concern is, and my challenge is, right--we 
talk about testing, we talk about assessments, but we talk 
about it just as if they were just little academic creatures. 
They're more than that? I need assessments. I need scores and--
for instance, to talk about health, to talk about mental 
health, to talk about wellness.
    I need for my principal who I work--an amazing--and I'm 
privileged to work with a principal directly who--we talk about 
the needs assessment of our community. I can give you the stats 
of the community, and you have them there. We work in a 
community of extreme poverty, right? Most of my families make 
$15,000 a year and less. We talk about opportunities, right?
    I don't need to fix poor people. Let me just be real blunt. 
I need to give them opportunities. I need to give them--when we 
talk about assessments, when we talk about academics, it's more 
than that.
    If I brought to you, a child that's struggling in class, I 
need to talk about all of the programming, the after-school 
programming, the breakfast, the dinners. We need to talk about 
programming, such as B'more for Healthy Babies, that deals with 
the families. We are from cradle to college and career. It's 
not just a one-stop shop--OK, here you are. You're in class. 
You're going to learn.
    [The prepared statement of Ms. Taylor follows:]
           Prepared Statement of Henriette Taylor, MSW, LGSW
                                summary
    Since 2009, the University of Maryland, Baltimore, through the 
Promise Heights initiative, has been working for and with one community 
in West Baltimore through the implementation of a cradle-to-college-to-
career pipeline of services. These services are delivered through the 
community school model, a strategy to align school and community 
resources for student success, positive enrichment of families, and 
community cohesion. A community school is not just a neighborhood 
school, but also acts as the hub of a community--open before and after 
regular school hours, including nights and weekends--so that the school 
becomes the center of the community where everyone belongs, works 
together, and thrives. Each school creates this environment for itself, 
depending on its own strengths and needs, through the leadership of the 
community school coordinator working closely with the school's 
principal.
    Promise Heights is a 2012 U.S. Department of Education Promise 
Neighborhood grantee and has been the lead agency for the community 
schools in Upton/Druid Heights for the past 5 years. In Baltimore, 
community schools are specifically tasked to work on attendance, school 
climate, and parent engagement. Community school coordinators work 
closely with the administration and teachers at each school to find out 
what students and their families need and want, and then recruit the 
right set of community partners in a very intentional way. The goal of 
facilitating these partnerships is to provide sufficient supports to 
students and to connect them with learning opportunities beyond the 
school day that match their unique interests, so that teachers are able 
to focus on academics. We act as a bridge between a family's needs and 
a student's academic success so that families experience less of the 
stress of poverty and can more effectively participate in their 
student's academic success. These partnerships have produced outcomes 
such as a 40 percent decrease in Medicaid NICU costs for our zip code, 
an increase in enrollment for Early Head Start and Head Start, 20 
percent increase in school readiness scores, significant reductions in 
chronic absenteeism, 100 percent compliance in school immunizations, 
270 students participating in high quality after-school programming, 
and the filing of over 200 tax returns resulting in $377,000 in 
refunds.
    The community school movement is growing as evidenced by reports 
that more superintendents are pursuing this approach as they recognize 
we need to be smarter and do more to give students the full range of 
opportunities and supports they need and deserve. Promise Neighborhoods 
and community schools have a very similar approach in that they address 
the development of the ``whole child'' and they leverage community 
resources for students and families through intentional school-
community partnerships. Therefore, we fully support and recommend the 
ESEA recommendations included in the letter to the Chairman and Ranking 
Member from the Coalition for Community Schools that has been signed by 
45 national organizations. These recommendations if adopted would not 
only strengthen the work we do in Baltimore City, but would provide the 
right incentives and frameworks to expand this innovative approach to 
other schools and districts.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, and members of the 
committee, thank you for inviting me here today to discuss how the 
Elementary and Secondary Education Act (ESEA) can better meet the needs 
of students and families through innovation. My name is Henriette 
Taylor. I am a licensed social worker employed by the University of 
Maryland, Baltimore's School of Social Work (UMB), which is proud to 
claim Senator Mikulski as a most distinguished alumna. We are a U.S. 
Department of Education Promise Neighborhood planning grantee working 
with five public schools in the West Baltimore neighborhood of Upton/
Druid Heights. Within the Promise Heights initiative, I work as a 
community school coordinator at The Historic Samuel Coleridge-Taylor 
Elementary School.
    Upton/Druid Heights is located about a mile and a half from the 
UMB's professional campus and Baltimore's Inner Harbor, yet is one of 
the poorest neighborhoods in the city. According to the 2010 U.S. 
Census, it is currently home to approximately 10,342 residents, 28 
percent of whom are children. There is little racial and economic 
diversity in the community as 93 percent of the population is African 
American and 53 percent of households have an income less than $14,999. 
Nearly 58 percent of children live in poverty, as compared to 28 
percent in Baltimore City, and 10 percent in Maryland overall. As is 
the case of many poverty stricken communities, the educational 
attainment for neighborhood residents is weak, with 49 percent of the 
residents 25 years of age and older having obtained less than a high 
school diploma or equivalency. Nearly 6 out of 10 adults were either 
unemployed or not in the workforce during the last census. Just over 
1,800 students attend the five neighborhood public schools--from pre-k 
through 12th grade--and half are not proficient in reading, almost 70 
percent are not proficient in math, and more than 20 percent are 
chronically absent. At the three elementary schools and the middle 
school, the FARMS rate is over 95 percent. At the high school, it is 
over 80 percent. This is a neighborhood experiencing the stress and 
trauma of extreme poverty.
    Since 2009, the University of Maryland, Baltimore, through the 
Promise Heights initiative, has been working for and with the community 
through the implementation of a cradle-to-college-to-career pipeline of 
services. These services are delivered through the community school 
model, a strategy to align school and community resources for student 
success, positive enrichment of families, and community cohesion. A 
community school is not just a neighborhood school, but also acts as 
the hub of a community--open before and after regular school hours, 
including nights and weekends--so that the school becomes the center of 
the community where everyone belongs, works together, and thrives. Each 
school creates this environment for itself, depending on its own 
strengths and needs, through the leadership of the community school 
coordinator working closely with the school's principal.
    Promise Heights has been the lead agency for the community schools 
in Upton/Druid Heights for the past 5 years and my school has been a 
community school for the last 2 years. The Historic Samuel Coleridge-
Taylor Elementary is a school that has 467 students, from age 3 through 
5th grade. We have 26 partnerships with community organizations that 
provide both supports and enriching learning opportunities for 
students. In Baltimore, community schools are specifically tasked to 
work on attendance, school climate, and parent engagement. In my role 
as a community school coordinator, I work closely with the 
administration and teachers to find out what students and their 
families need and want, and then recruit the right set of community 
partners in a very intentional way. The goal of facilitating these 
partnerships is to provide sufficient supports to students and to 
connect them with learning opportunities beyond the school day that 
match their unique interests, so that teachers are able to focus on 
academics. We act as a bridge between a family's needs and a student's 
academic success so that families experience less of the stress of 
poverty and can more effectively participate in their student's 
academic success.
    These partnerships may be nationally recognized organizations, such 
as Laureate Education and KaBOOM!, whose employees came together last 
summer to help community residents build a 4,000-square foot playground 
at the school, as the neighborhood had nowhere for children to play. If 
you drive by the school tonight at 7 p.m. or on a Sunday or during a 
school holiday, you will see children and their families playing, 
having a picnic, or talking about neighborhood events. Laureate 
employees also built a community room for us so that parents can have a 
place of their own in the school and community groups can have a place 
in the neighborhood to gather, whether for a personal interaction or to 
take a workshop or class. It may be a partner such as the Maryland 
State Department of Education, which provides the school with a Judy 
Center, where families with children from birth to age 5 can attend 
classes on early learning, access developmental assessments, visit the 
school's food bank, or take a GED course, all for free. We partner with 
all six UMB professional schools. Social work students work directly 
under me providing case management to students and families, including 
making home visits around attendance and programming such as Mom's 
support groups. Nursing students assist with asthma education, health 
learning parties for parents of pre-k and kindergarten students, and 
mentor 4th and 5th grade girls. Dental students provide education and 
dental services. Medical students partner with our after-school 
provider to provide education around nutrition and obesity. Pharmacy 
students tutor middle and high school students in math, science, and 
SAT prep. Law students hold clinics several times a year for 
neighborhood residents to address issues such as expungement, landlord/
tenant issues, and small claims. Of course, we also have neighborhood 
partners, such as Union Baptist Church, which has provided funds to 
assist funeral expenses, whose members volunteer in the school, and 
whose senior pastor is co-leader of our Promise Neighborhood Community 
Advisory Board. We also partner with Pearlstone Center to provide 
outdoor education to our students, ranging from farm animal care, 
planting, and nutrition.
    The community school strategy has produced several exciting 
outcomes at our school. For example, in connection with the Judy 
Center, Promise Heights employs another social worker who engages with 
the pre-k and kindergarten students on social emotional learning. Last 
year, our Maryland Model for School Readiness (MMSR) scores increased 
from 58.2 percent to 79.4 percent. This was done through one-on-one 
work with students, families, and teachers, group lessons in the 
classroom, and learning parties with families after school. We also 
focus heavily on attendance with myself, social work interns, a Public 
Ally, and other school staff conducting home visits to families whose 
students are on track to miss 20 or more days of school in 1 year. Last 
school year, we visited over 100 homes, and were able to address 
barriers such as lack of uniforms, homelessness, food scarcity, and 
funding for evictions or electricity bills. We provided families with 
education around bedtime and morning routines, why school every day 
matters even for 4- and 5-year-olds, and how to communicate with the 
school. Inside the school, we celebrated attendance achievements and 
improvements with photographs, bulletin boards, and incentives. All 
these efforts enabled us to greatly improve the attendance at the 
school and decrease the chronic absenteeism rate, and we were 
subsequently given the Mayor's award for the greatest reduction of 
students at-risk for chronic absenteeism.
    This year, with the addition of new immunizations needed for 
kindergarteners and seventh graders, my school and the middle school 
found themselves with 77 students missing those shots and, so, at risk 
of being barred from school. Through my role as community school 
coordinator, I was able to recruit UMB's doctors and nurses to 
volunteer their time to provide those immunizations right in the school 
nurse's office during school hours. Myself and other Promise Heights 
staff went door-to-door to bring parents to the school so they could 
consent, thus keeping those 77 students in school. Holidays can be hard 
for our families. Trick-or-treating is not necessarily safe in our 
neighborhood. A church partnered with us to create an alternative event 
with jewelry making, face painting, dress ups, cotton candy, cupcakes, 
games, photos, and a backpack for every student. For the past 25 years, 
the UMB School of Medicine has provided a full Thanksgiving dinner at 
our middle school which any community resident may attend. At 
Christmas, many of our families find themselves without any resources 
for gifts. Through the leadership of the Promise Heights family 
stability program director, every family who contacted us was able to 
receive clothes, toys, and even furniture.
    I have visited community school initiatives in Cincinnati and New 
York City and have learned from their work. Community schools exist in 
nearly 100 places across the country and in 34 States and can be found 
in urban, suburban, and rural schools. In Baltimore, our community 
schools are supported by an intermediary organization, the Family 
League of Baltimore, which trains and supports community school 
coordinators. Baltimore community schools are supported by a 
combination of funds: Federal funds including title I and 21st Century 
Community Learning Center, and State, district and city funds. Each 
lead agency also provides some funding for their respective schools. 
Community schools in Baltimore have been able to get $4 of programming 
for every $1 spent by the city through the leveraging of partnerships 
and resources provided through the lead agency. The costs associated 
with the community school initiative allow for a more effective use of 
existing funds for public education. Any cuts to the school budget 
(like the $35 million cut proposed by Maryland's Governor) are 
devastating to maintaining the minimum conditions for success as they 
mean larger class size, fewer teachers and support staff, and 
eliminating after-school and summer programs.
    Promise Neighborhoods and community schools have a very similar 
approach in that they address the development of the ``whole child'' 
and they leverage community resources for students and families through 
intentional school-community partnerships. Promise Heights is also 
funded through Federal, State, and city funding, as well as private 
foundations. These include Promise Neighborhoods from the Department of 
Education, early childhood education funding through Administration for 
Children and Families, 21st Century Community Learning Centers through 
the Maryland State Department of Education, family stability funding 
through the United Way of Central Maryland, and several family 
foundations in Baltimore. This funding has allowed us to sustain the 
work we do in Upton/Druid Heights for the last 5 years and has meant 
significant positive change for the neighborhood including:

    <bullet> Implementing an infant mortality reduction program called 
B'more for Healthy Babies, housed at another elementary school, which 
has contributed to a 4 percent decrease in teen pregnancy rates, an 
11.8 percent drop in infant mortality rates, and a 40.1 percent 
decrease in Medicaid NICU costs for the zip code from fiscal year 2010 
to fiscal year 2012.
    <bullet> Creating Parent University to enhance parents' sensitivity 
to their infants and toddlers cues, discourage negativity, lessen 
reliance on spanking, promote reasoning with toddlers, increase the 
number of age-appropriate materials around the house as well as the 
amount of time spent reading and talking to children, and increase the 
number of toddlers enrolled in Early Head Start and Head Start.
    <bullet> Improving MMSR scores at one elementary school from 34 
percent to 96 percent in 3 years, by bringing Early Head Start and Head 
Start into the building to provide students with a curriculum aligned 
to the regular day school program.
    <bullet> Obtaining funding for over 270 students to attend a 
literacy and enrichment based after-school program.
    <bullet> Training over 200 teachers, staff, mental health 
consultants, and residents in trauma-informed behavior management 
skills.
    <bullet> And, providing over 200 families with free income tax 
preparation and collected over $377,000 in Federal and State tax 
refunds.

    The Federal Government has a very important role to play to support 
innovative approaches like community schools, and to ensure that each 
student is getting equal opportunity for an excellent education. From 
my work in a community school, I know that partnerships with community 
organizations are essential to provide students the full range of 
opportunities and supports they need and deserve. Schools cannot do it 
alone: they need strong community partnerships to give students the 
level of education they need for the 21st century workforce.
    That's why I fully support and recommend the ESEA recommendations 
included in the letter to the Chairman and Ranking Member from the 
Coalition for Community Schools that has been signed by 45 national 
organizations. These recommendations if adopted would not only 
strengthen the work we do at the Historic Samuel Coleridge-Taylor and 
in Baltimore City, but would provide the right incentives and 
frameworks to expand this innovative approach to other schools and 
districts.
    There are issues which are particularly relevant to me at the 
school level. As a Community School Coordinator, it is imperative that 
I be able to access student data in a real time setting. In order for 
me to bring in the right partnerships to obtain the best academic and 
social outcomes for students, I must be able to identify and report 
results beyond academic achievement to include indicators for health 
and wellness, discipline, attendance, and family engagement. By 
providing non-traditional training and professional development for 
teachers, principals, specialized instructional support personnel and 
other school-employed staff, they can work more effectively with 
families and community partners during and outside the school day. We 
should ensure that before school, after-school and summer learning is 
not considered an add-on, but is seen as integral to a student's 
success and well-being. While I understand that educational funding is 
dwindling at an alarming rate, it is imperative that our students be 
given the opportunity for learning within the arts, such as music, 
theater, and visual arts. Many of our students lack a safe space for 
physical activity at home and the school is often the place where 
families can feel secure that children are not at risk. Finally, even 
if other school-based staff or partners are addressing a child's social 
emotional learning and well-being, teachers should be trained on how 
deficits in the areas of health, mental health, or family stability can 
and do affect a child's behavior and learning. Therefore, we support 
dedicated and increased funding for Full-Service Community Schools to 
help more schools and communities connect more strongly for student 
success and to grow the best practice of a full-time coordinator to 
manage and sustain these school-community partnerships.
    As a Promise Neighborhood grantee, we also believe that connecting 
community and school to family and student is the only way to gain 
strides for both the individual and the community as a whole. We 
support dedicated and increased funding of that program so that 
grantees can have the opportunity to transition to full implementation 
and new communities can begin the planning process. While I cannot 
guarantee that when students arrive at school each day they will have 
had breakfast or have packed a lunch or have clean clothes or have had 
a good night's sleep, I can guarantee that they are bringing their 
homes, their families, and their neighborhoods into the classroom. If 
we don't ensure that those homes, families, and communities are as 
healthy, productive, and stable as possible, then we know that students 
will not only fail, but will also create chaos for those around them. 
If we want students who achieve and schools that succeed then we must 
have families and communities that function well. Promise Neighborhoods 
and community schools are two successful strategies in creating that 
change.
    Thank you so much for this opportunity to tell you about my work, 
my students, my school, and our community. Please think of them as you 
work to improve and reauthorize the ESEA.

    Senator Murray. Let me refocus the question again. There is 
targeted funding and always has been at the Federal level for 
specific things.
    Mr. Davis, I think you're the recipient of some funds like 
that. I want to know if it's important for our country to have 
some of that targeted funding for districts. If we didn't 
target some specific goals, like early childhood or STEM, would 
that be lost at the local level? Is that an important role for 
the Federal Government?

  STATEMENT OF JOSH DAVIS, VICE PRESIDENT, EXTERNAL AFFAIRS, 
             DELTA HEALTH ALLIANCE, STONEVILLE, MS

    Mr. Davis. I absolutely think so. I represent a Promise 
Neighborhood who's just near the third year of our 5-year 
grant, and our early successes are in early childhood. What 
we're able to see is that those children who are between the 
ages of 0 and 8 have had the longest exposure to our 
programming. They've had multiple opportunities to be involved 
in different experiences, and that's where we see some of our 
strongest outcomes.
    If we look at the model that we know has been proven to be 
successful with the Harlem Children's Zone--sort of setting the 
standard for the Promise Neighborhood's model. We started at 
the foundation, working with children and families 0 to 8, and 
so if you mean targeted with regards to subgroups and student 
populations, it's exactly where we see our strongest outcomes.
    We have the evidence, and we believe that it is important 
to have some targeted funding and targeted supports for 
subgroups of students.
    [The prepared statement of Mr. Davis follows:]
                    Prepared Statement of Josh Davis
    In December 2012, Delta Health Alliance was awarded a 5-year 
Promise Neighborhoods grant by the U.S. Department of Education 
totaling approximately $29 million to significantly improve the 
educational and developmental outcomes of Indianola, Mississippi's most 
distressed children and serve as a catalyst for transforming their 
communities by developing a ``pipeline'' or continuum of academic, 
family, and community resources, from prenatal care through high school 
graduation, creating a path for students to gain meaningful careers and 
earn financial independence.
    The overall mission of the Indianola Promise Community (IPC) is to 
ensure all children are ready for school, that students who need help 
get help quickly, and that young people stay in school through 
graduation and transition to postsecondary education. The IPC employs 
innovative and coordinated approaches with agencies and services 
complementing each other and working together to improve the school 
system, build early childhood and meaningful college & career options, 
and provide family skills training. We follow a disciplined approach 
for implementing each program in the IPC, whereby we establish unique 
program performance measures, collect relevant data, frequently monitor 
and analyze their outcomes, communicate with individuals contributing 
efforts, and make corrective decisions collectively. This iterative 
process has established the foundation for ushering into Indianola a 
new approach to improving academic outcomes for students, which is 
based on a framework of results and accountability.
    After only 2 years of Promise Neighborhoods' implementation 
funding, our most encouraging efforts have resulted in positive 
academic trend data for Indianola's children ages 0-5 because they have 
been exposed to IPC programming longer than other subgroups of children 
in the community. Other early successes are evident throughout our 
continuum of services and have created opportunities for us to 
strengthen the practices of our disciplined, decisionmaking based on 
data. As we forge these practices into the fabric of our community and 
school intervention processes we are addressing the sustainability of 
systems' changes beyond the life of the grant.
    No Child Left Behind's focus on accountability is consistent with 
the IPC effort to review individual-level student data in real time and 
use that information to improve intervention efforts. The congruency 
between this aspect of the law's focus and our methods to create a 
clear picture of what works to move from talk to activities to desired 
outcomes is met by the innovations we have put in place in Indianola, 
MS, with the intent to scale and replicate our initiatives.
                                 ______
                                 
    In December 2012, Delta Health Alliance was awarded a 5-year 
Promise Neighborhoods grant by the U.S. Department of Education, 
authorizing $6 million in the first year and about $23 million in the 
subsequent years. I serve as the day-to-day manager for this project.
    I was asked to respond to two questions:

    <bullet> What is your State, district, or school doing to implement 
innovative approaches to improve academic outcomes for students, 
particularly low-income and at-risk students?
    <bullet> How can we improve the Federal law (No Child Left Behind) 
to encourage more States, districts, and schools to innovate?

    Our promise neighborhood grant is being implemented in Indianola, 
MS, a town of about 10,600 in the Mississippi Delta county of 
Sunflower. The town's population is 80 percent African American and its 
municipal school district is about 98 percent African American with 
nearly every student eligible for free or subsidized school meals. Our 
partners include the Sunflower County Consolidated School District, 
city of Indianola, Delta State University, B.B. King Museum in 
Indianola, Urban Child Institute in Memphis, University of Memphis, and 
the University of Tennessee Health Sciences Center. The cross-State 
collaboration offers opportunities to implement promising practices and 
lessons learned throughout the region.
    Our overall mission is to ensure Indianola children are ready for 
school, that students who need help get help quickly, and that young 
people stay in school through graduation and transition to 
postsecondary education. The Indianola Promise Community (IPC) offers a 
collective approach, with programs and services complementing and 
building on each other in a coordinated fashion.
    Innovation guides our process by using data to rigorously assess 
each of our programs against objectives and goals, making changes--
innovations--in real-time when the data show results are not being 
delivered. Our commitment is to results-based accountability which 
calls for decisions to be rooted in data. For each program, there is 
baseline data (where we are) and target data (where we need to be). At 
the beginning of each program, the data team leads the development of 
performance measures with program staff. After the performance measures 
are developed, a program scorecard is developed, and on a monthly 
basis, IPC data and program staff meet to discuss progress on 
performance measures. The program's scorecard drives this conversation. 
This process allows program-level staff to make decisions about the 
intervention in real-time, as opposed to waiting until a program ends 
to evaluate it. We collect performance data on over 30 programs and 10 
partners, using a universal case management data system. In addition, 
we have 11 family advocates who work with individuals and families at 
most risk. At-risk families are identified using data collected from 
the school district through our case management system.
    From our perspective, innovation is relatively easy once everyone 
agrees that data, not anecdotes, not personalities, not local politics, 
should drive decisions about the effectiveness of programs. Once all of 
our partners adopted that position, and have collaborated with us in 
developing the objective benchmarks and the data to measure those 
benchmarks, we have been able to make the changes we have needed to 
make. That is the key to innovation.
    One of our innovations is using a computer-based study program 
called Classworks to not only help students master skills but also to 
allow us to monitor the achievement level of each student and intervene 
with tutoring when needed. Once all of the May 2014 year-end State test 
(MCT2) results were provided to us, we determined that Classworks usage 
in Indianola was associated with higher MCT2 scores. Specifically, when 
students mastered more Classworks lessons, they were more likely to 
score higher MCT2 scores. Likewise, when students mastered less 
Classworks lessons, students did not perform as well on the MCT2. This 
also means students' MCT2 scores can be estimated long before the end 
of the school year. By calculating a student's Classworks mastery 
score, staff can reasonably predict how well a given student will do on 
the MCT2. This has major programming implications: we can use 
Classworks data to identify which kids need the most help quicker than 
ever before.
    Across all tested grades (3d-8th) in Indianola, proficiency rates 
improved by a relative 8 percent from 2013 to 2014. Third grade 
proficiency rates in both math and English were actually on par with 
the State averages. This is key because a large portion of our 
resources since 2010 has been devoted to the children in the earliest 
years of school and pre-school.
    Additional innovative approaches have produced early outcomes in 
Indianola including:

    <bullet> Kindergarten readiness measures increased 19 percent from 
fall 2013 to fall 2014. We credit this increase to the overall 
alignment of our early childhood programs among all of our participants 
and ensuring that children are enrolled in multiple programs.
    <bullet> Of the 350 students attending our camps during summer 
2014, more than 73 percent demonstrated no summer learning loss in 
reading, whereas nationally low-income students typically lose more 
than 2 months in reading achievement.
    <bullet> Supplemental teacher training by academic coaches across 
all English & Language Arts classrooms is associated with rising 9-week 
achievement scores for high school students in 2013 and 2014.
    <bullet> Since full implementation of key programming and evidence-
based outcomes, the gap between Indianola 3d graders and Mississippi 3d 
graders performing at proficient and advanced levels in reading and 
math on State tests has virtually been closed.

    To answer the second question, we have never found the NCLB law to 
be an impediment to the innovations we have developed in Indianola. As 
long as the provisions of NCLB are tied to analysis of programs based 
on real-time data and objective goals, it can help foster innovation. 
NCLB's focus on accountability is consistent with the IPC effort to 
review individual-level student data in real time and use that 
information to improve intervention efforts. By building a clear and 
truthful picture of what programs are working, and for which groups of 
children, it becomes possible to scale, replicate, and sustain 
successful initiatives. In this way, innovations have the capacity to 
drive real, positive and lasting change.
    One of our clear findings is that it takes multiple programs 
operating over a significant period of time to create desired outcomes. 
It takes time to build community buy-in, to fashion programs to fit the 
particular characteristics of a community, and to overcome the natural 
resistance to upend the status quo. If Congress is willing to fund this 
kind of sustained innovative program, we can deliver outcomes that will 
make you proud.

    Mr. McIntyre. Senator Murray, I think that there's a 
balance to be struck here as well. The vast majority of Federal 
dollars that go to districts and schools are formula grants, 
and I think it's important to have lots of flexibility when it 
comes to those. I really do believe it's important to have some 
clear investments in innovation that spur and incent 
innovation.
    Some of the innovations in our school district that I 
talked about in our testimony, whether it be multiple pathways 
to success or talking about teacher professional development 
and support; personalized learning environment for kids; 
community schools, which Ms. Taylor will talk a lot about; or 
principal preparation--when I think about each and every one of 
those, we've benefited in some way from some Federal funding 
that has been meant to spur innovation and to support 
innovation.
    Whether it's Race to the Top or the Teacher Incentive Fund 
grants or 21st Century Schools, there are lots of different 
particular investments in innovation that have been very 
useful, and we need to continue to invest in innovation in that 
way.
    Senator Murray. Dr. Balfanz.

STATEMENT OF ROBERT BALFANZ, Ph.D., RESEARCH PROFESSOR, CENTER 
 FOR SOCIAL ORGANIZATION OF SCHOOLS, JOHNS HOPKINS UNIVERSITY 
               SCHOOL OF EDUCATION, BALTIMORE MD

    Mr. Balfanz. One area where targeted funding has made a 
huge difference has been with low-graduation rate high schools. 
There's been Federal money going all the way back to the 
comprehensive school reform money, small learning community 
grant money, SIG money, and that, combined with grad rate 
accountability is actually--local innovation, has led to a 
really remarkable achievement, which is, there's been a decline 
in the number of lowest graduation rate high schools from 2,000 
to 1,200, and there's 2 million fewer students attending these 
schools now than a decade ago.
    That would not have happened without that targeted funding 
combined with the Federal grad rate accountability and local 
innovation. It's one area where those three things have come 
together and worked really well together and made a huge 
difference in lots of kids' lives.
    [The prepared statement of Mr. Balfanz follows:]
              Prepared Statement of Robert Balfanz, Ph.D.
                                summary
    Chairman Alexander and Ranking Member Murray and members of the 
HELP committee, thank you for inviting me to testify and participate in 
a roundtable on ``Fixing No Child Left Behind: Innovation to Better 
Meet the Needs of Students.'' I want to begin by commending you for 
focusing on the inter-connection of innovation and accountability. Each 
of these needs the other to better meet the needs of students. The 
applied research and development work which I and my colleagues at the 
Center for Social Organization of Schools, School of Education, Johns 
Hopkins University have been engaged with during the past 20 years to 
keep all students on the path to high school graduation college and 
career ready, in partnership with hundreds of high poverty schools, 
scores of high poverty school districts, and over a dozen States, has 
made it crystal-clear that neither innovation without the guidance of 
accountability nor accountability without the support of innovation 
will get us the student outcomes we need. We have observed the greatest 
progress and gains in student outcomes, particularly among low-income, 
minority and at-risks students, have occurred when the talents and 
insights of those closest to work--the teachers, administrators, and 
student support personnel--have been unlocked to find and/or implement 
innovative solutions that work for their students. We have only seen 
this occur at scale and be sustained, however, when external 
accountability has consistently directed the schools' attention to the 
most significant challenges their students face, nudged them to use 
evidence-based approaches, and provided support for implementation, 
training, and the time and person power to do the work. Thus, getting 
the inter-play between innovation, accountability, and support right 
and finding the most productive balance between Federal, State, and 
local roles in this interplay through the re-authorization of the 
Elementary and Secondary Education Act (ESEA) is crucial to enabling 
all children in the United States to receive the education they need.
    What is the Federal role in strengthening the innovation, 
accountability, and support nexus? The evidence reviewed here, 
including two examples of innovations which have worked to better meet 
student needs and in particular for low-income and at-risk students--
the Diplomas Now model which combines whole school improvements with 
enhanced student supports guided by data and the spread of Early 
Warning Indicator and Intervention Systems at the State level indicates 
that it will be important to keep what has worked, i.e., graduation-
rate accountability and annual testing, as well as a Federal 
stewardship and investment in reforming the lowest performing schools. 
Where there is need for fresh insight is in creating accountability 
systems which push attention and innovative responses to the places, 
educational challenges, and students who need them the most, while 
providing the room and space for people closest to the challenges--the 
teachers, administrators, and student support personnel--to innovate. 
The ability of those closest to the challenge to successfully innovate, 
in turn, needs to be nurtured with wide dissemination of existing 
evidence-based practice, seed capital, and training and support to help 
develop, implement, validate, and spread the innovations.
                                 ______
                                 
    Chairman Alexander and Ranking Member Murray and members of the 
HELP committee, thank you for inviting me to testify and participate in 
a roundtable on ``Fixing No Child Left Behind: Innovation to Better 
Meet the Needs of Students.'' I want to begin by commending you for 
focusing on the inter-connection of innovation and accountability. Each 
of these needs the other to better meet the needs of students. The 
applied research and development work which I and my colleagues at the 
Center for Social Organization of Schools, School of Education, Johns 
Hopkins University have been engaged with during the past 20 years to 
keep all students on the path to high school graduation college and 
career ready, in partnership with hundreds of high poverty schools, 
scores of high poverty school districts, and over a dozen States, has 
made it crystal clear that neither innovation without the guidance of 
accountability nor accountability without the support of innovation 
will get us the student outcomes we need. We have observed the greatest 
progress and gains in student outcomes, particularly among low-income, 
minority and at-risks students, have occurred when the talents and 
insights of those closest to work--the teachers, administrators, and 
student support personnel--have been unlocked to find and/or implement 
innovative solutions that work for their students. We have only seen 
this occur at scale and be sustained, however, when external 
accountability has consistently directed the schools' attention to the 
most significant challenges their students face, nudged them to use 
evidence-based approaches, and provided support for implementation, 
training, and the time and person power to do the work. Thus, getting 
the inter-play between innovation, accountability, and support right 
and finding the most productive balance between Federal, State, and 
local roles in this interplay through the re-authorization of the 
Elementary and Secondary Education Act (ESEA) is crucial to enabling 
all children in the United States to receive the education they need.
    Lets look at some specifics. In 2001, at the very moment NCLB was 
being authorized, the Nation's high school graduation rate hit its 
modern low at 71 percent and for low-income and minority students was 
in the upper 50s and low 60s. In short, at a time when it was already 
clear that there was no work in the economy that would let a high-
school dropout support a family, more than one-quarter of all students, 
and close to half of low-income and minority students, were leaving 
school essentially unable to become successful adults. Yet at this 
time, the imperative for schools, and in particular those with large 
populations of low-income, minority, and at-risk students, to focus on 
raising high-school graduation rates, was not consistently apparent, 
and hence the need to devote their limited time, energy, and innovative 
spirit to this challenge was not on most schools', school districts', 
and States' radar screens. In fact, the available, but as it turned out 
quite inaccurate data, seemed to indicate that, on the whole, 
graduation rates were a bright spot on the student achievement 
landscape.
    A close examination of the evidence and our experience working with 
hundreds of high-poverty middle and high schools, and scores of high-
poverty school districts over the past 14 years, shows that in three 
key ways Federal accountability and support help spur the innovation 
which has led the Nation's graduation rate to rise by 10 percentage 
points from a modern low to an all-time high through the course of NCLB 
and resulted in close to two million more students graduating from high 
school. What were these ways?
    First, Federal accountability to continually raise graduation rates 
provided local and State education leaders who sought to implement 
innovative means to confront the dropout crisis with a crucial tool to 
prompt principals, teachers, and student support personnel to devote 
their most precious assets--their time, energy, thought, and focus--to 
figuring out and implementing what was needed to enable more of their 
students to graduate. In short, Federal accountability to raise 
graduation rates communicated to schools that, among all the competing 
demands they face, it mattered. The States and districts which made the 
biggest gains over the past decade were diverse and ranged from places 
like Tennessee to New York City. They all took different paths based on 
their local circumstances, but what they shared in common was that 
local innovation became paired with a Federal imperative to improve, 
and in so doing created the conditions to bring improvements to a 
meaningful scale.
    Second, the Federal focus on and support for the lowest performing 
schools through mechanisms like school improvement grants and later 
priority schools nudged and enabled school districts to focus their 
innovative efforts on a key drivers of the dropout crisis--the 
relatively small subset of high schools (15 percent) which produced 
half the Nation's dropouts. If the accountability goal had simply been 
to raise school-district graduation rates, short-term gains would have 
been most easily obtained by focusing on stronger schools with capacity 
that had small subsets of students who struggled. By instead saying 
that the high schools with graduation rates below 60 percent and their 
feeder middle schools--or those that accounted for half the dropouts--
needed to be a core focus of improvement efforts, Federal 
accountability directed innovation to where it would have its greatest 
leverage and impact. Moreover, by recognizing that these are the 
schools which face the highest degree of educational challenge because 
they essentially only educate at-risk and high-needs students, and as 
such, typically require an infusion and/or re-allocation of resources 
to enable the development and implementation of evidence-based 
innovations, the Federal Government also helped solve a critical 
dilemma of the Nation's school improvement efforts: who will be the 
steward for the highest need schools and the highest need students who 
attend them? The combination of Federal accountability and support and 
local innovation has led to a remarkable decrease in the number of the 
lowest graduation rate high schools in the Nation over the past 
decade--from around 2,000 to 1,200 and in so doing has been a key 
reason why high school graduation rates have improved so much.
    Third, direct Federal support to spur, grow, validate and spread 
local innovations has been important. Through competitive grants, most 
recently exemplified by the Investing In Innovation program (I3), the 
Federal Government has served as an able-venture capitalist in 
fostering the innovation needed to improve the American education 
system. States and school districts have faced declining budgets over 
the past half-decade and perennially face tight budgets. In this 
environment it is very difficult for them to invest in innovation 
without Federal partnership. Moreover, for innovations to achieve their 
full potential they need to be validated, and who they work for, and 
under what conditions established. Local school districts, typically do 
not have the ability, resources, or patience to do this work. Their 
concern is focused on if it works for them, not if it continues to work 
under other circumstances. Yet if we don't know this, much time and 
effort may be wasted implementing reforms that are not likely to 
succeed in a different environment.
    two examples of innovations to better meet the needs of students
    Now let's look at two examples that tie this all together. The 
first is called Diplomas Now. This is innovation aimed at the most 
challenged middle and high schools which drive the dropout crisis. 
These are schools in which nearly all the students, not just a few, 
need first and foremost a good lesson from a skilled teacher in every 
class, every day but also additional supports to enable them to attend 
school regularly, stay focused in class, and get their schoolwork done. 
These are schools where often a quarter to a half of students are 
chronically absent--missing a month or more of school, where more 
students are suspended in a year than graduate, and where the typical 
student has a D average. Diplomas Now was created to meet this 
challenge head on, by combining evidence-based whole-school improvement 
focused on teaching and learning, with enhanced student supports which 
are guided by an early warning system so that, in a much more efficient 
and effective manner, the right support can be gotten to the right 
student at the right time. Diplomas Now is also an innovative 
partnership between school districts, middle and high school 
principals, teachers, and student support staff, and three experienced 
non-profits with evidence-based approaches: Johns Hopkins University's 
Talent Development Secondary School Improvement model, City Year's 
Whole School, Whole Child student support program and Americorps 
members, and Communities In Schools integrated student support model. 
Talent Development works with the school leaders and school teachers to 
create more effective ways to organize the school day, accelerate the 
learning of students who enter school multiple years below grade level, 
and provide teachers and administrators with the training and support 
they need to lead and drive school improvement. The City Year 
programing and Americorps members help solve the scale problem of 
student need. What do you do when, as is often the case, there are 
hundreds of students in a high-needs secondary school who need 
tutoring, mentoring, role models, and someone to check in how they are 
doing and how their school work is coming every day? The infusion of 10 
to 15 corps members, each nagging and nurturing 15 or so students 
through the school day, enables schools to provide these supports at 
the scale needed. Communities In Schools enables schools not to be 
overwhelmed by the intensity of student need. In high poverty 
environments, it is beyond astounding the circumstances some students 
must overcome just to get to school every day. The impacts of 
homelessness, food insecurity, exposure to violence, and/or the absence 
of stable adult support can be immense. Schools are often ill-equipped 
to respond to them, and, as a result, can respond in manners which 
ultimately consume a lot of adult time and attention and make matters 
worse. In the Diplomas Now model, Communities In Schools directly case-
manages the highest needs students but also increases the school's 
capacity to handle them by developing a web of community supports 
tailored to the specific needs of students in the school. All of these 
efforts are glued together in weekly Early Warning Indicator and 
Intervention meetings organized initially by a Talent Development 
school transformation facilitator in which a team of teachers who share 
a common set of students, the City Year Americorps members who work 
with them, the Communities In School site coordinator, and school 
administrators and student support staff, continually monitor students 
to see who needs additional supports, pool adult knowledge to design 
the most impactful intervention, look for patterns to guide 
preventative efforts, and examine and fine-tune the effectiveness of 
on-going whole school, small group, and individual interventions.
    Diplomas Now shows how impactful innovations are developed, 
validated, and scaled when the private and public sectors work hand in 
hand. Diplomas Now was launched and provided ongoing support by a 
number of private funders, most notably, the PepsiCo Foundation. 
However, it is has been scaled to 10 of the largest city school 
districts and is being validated by undergoing the largest randomized 
field trial of a secondary school innovation in our Nation's history as 
the result of a Federal Investing in Innovation (I3) grant. Its local 
implementation in a number of schools has then been further supported 
by school improvement grant (SIG) funds. Most importantly, it's 
working. On average, across over 40 high-needs middle and high schools, 
over half of the students who have signaled they are falling off the 
path to graduation by poor attendance, behavior, or course performance 
have been put back on track. Just as significantly, in nearly every one 
of the major city school districts where the model has been 
implemented, some of the most iconic low performing schools in the 
district are breaking away from similar schools and becoming flagships 
for school improvement in their districts. In short, Diplomas Now is an 
example of an innovation which is leading to significant improvements 
in student outcomes in some of the most challenged schools and school 
districts in the Nation.
    A second example comes from the States. Over the past decade we 
have worked with or learned from many States, including Tennessee and 
Washington State, as they sought to implement and scale a powerful new 
innovation: Early Warning Indicator and Intervention Systems to Keep 
Students on Track to High School Graduation College and Career Ready. 
The core idea of an early warning system is that students signal early 
and often that they are or are not on the path to high school 
graduation, college and career ready. Research conducted at CSOS and by 
the Chicago Consortium for School Research, among others, has shown 
that in high-poverty environments it is often possible to identify 
between 30 to 50 percent of the students who will drop out, absent 
effective interventions as early as the 6th grade, and 75 percent or 
more by the end of 9th grade. It is also possible to see who is on 
track to success in college by the end of 9th grade as well. These on- 
and off-track signals can then be used to closely monitor students' 
progress and enable intervention at the first moment students show 
signs of falling off-track, rather than after they have failed so many 
courses or missed so much school that they need to repeat a grade or 
even dropout and then need to be re-connected. What makes early warning 
systems a truly powerful intervention is when they are used to tap the 
insights and innovative intervention ideas of the adults who know 
students best, i.e., their teachers, administrators and student support 
personnel, and when these adults organize the school into a multi-
tiered intervention system with schoolwide prevention activities (to 
enable students to come every day, stay out of trouble, and get their 
work done), targeted small-group interventions for students who need 
more support, and, finally, case-managed and professionally provided 
supports for the highest needs students. The final power is provided 
when the interventions are regularly evaluated for their effectiveness 
and when the adult early warning systems team uses the data to identify 
the most strategic level of intervention, which is often not the 
individual, but the classroom, grade, school, or even district.
    One place where the power of local innovation and Federal 
accountability came together with powerful results was with early 
warning systems in Alabama. Alabama was an early innovator and early 
adopter of early warning systems and became one of the first States to 
develop a statewide early warning indicator system called the Alabama 
Graduation Tracker and make it available to all school districts. 
Alabama invested in dropout prevention training and dissemination of 
evidence-based practices. Efforts to raise the State's graduation rate 
were also promoted and endorsed by the Governor, State legislature, 
business community, and chief State school officers. All these efforts 
had impact, but it was not until Federal accountability in the form of 
the U.S. Department of Education 2008 graduation rate regulations, 
which led to all States adopting substantial graduation rate targets 
and annual improvement goals as part of their accountability systems, 
that every high school principal in the State received the signal that 
raising high school graduation rates mattered. It was then that the 
State-led innovations combined with the nudge of Federal accountability 
to result in Alabama having one of the largest recent gains in 
graduation rates, moving it from behind to ahead of the national 
graduation rate.
    using esea re-authorization to strengthen the powerful nexus of 
                 innovation, accountability and support
    It is an exciting time to be re-authorizing ESEA. We know so much 
more today than we did in 2001 about what works, for whom, under what 
circumstances, and how best to address the needs of low-income, 
minority, and at-risk students. If we are able to follow the evidence 
and push through our frustrations with what did not work with NCLB, we 
will be able to craft an ESEA that unleashes the innovative spirits of 
our Nation's educators at the local and State level, while keeping the 
focus on the students, schools, and districts most in need of 
improvement and support. More innovation is clearly needed. Substantial 
progress has been made in improving the outcomes of low-income and at-
risk students; over a million more are graduating and millions fewer 
are found in the lowest levels of achievement. Many more are succeeding 
on advanced placement tests and graduating prepared to succeed in 
college. Innovation and improvement have not visited all schools nor 
reached all students during the past 14 years. Half of the African 
American students who continue to fall off track to high school 
graduation do so in about 600 unreformed high schools, concentrated in 
15 States. In the least effective of these schools, a third or more of 
students are still retained in 9th grade, suspended, and/or identified 
for special education services, and the percent scoring proficient on 
achievement test can be in the single digits. Similarly, while most 
States have shown progress in raising graduation rates, a few are going 
in the wrong direction. Moreover, in the knowledge economy of the 21st 
century, the bar will continually rise on what our students need to 
know and be able to do. Hence all our schools will need to become 
institutions of continuous improvement. The exciting news is that 
recent advances in evidence-based practices and the learning sciences 
indicate that we have barely begun to scratch the surface of what is 
possible in terms of teaching and learning. This means the ability of 
our students and teachers to improve is no impediment to the Nation's 
ability to achieve the outcomes it needs.
    What is the Federal role in strengthening the innovation, 
accountability, and support nexus? The evidence reviewed here and our 
experience working with hundreds of schools over the past 20 years 
indicates that it will be important to keep what has worked, i.e., 
graduation-rate accountability and annual testing, as well as a Federal 
stewardship and investment in reforming the lowest performing schools. 
Where there is need for fresh insight is in creating accountability 
systems which push attention and innovative responses to the places, 
educational challenges, and students who need them the most, while 
providing the room and space for people closest to the challenges--the 
teachers, administrators, and student support personnel--to innovate. 
The ability of those closest to the challenge to successfully innovate, 
in turn, needs to be nurtured with wide dissemination of existing 
evidence-based practice, seed capital, and training and support to help 
develop, implement, validate, and spread the innovations.
    This can be achieved in part by improving, maintaining, and even 
expanding the existing Investment in Innovation (I3) program. Federal 
efforts need to go beyond this. The tiered evidence approach to 
funding, which provides graduated funding levels to enable both 
development of new innovations and the validation of existing 
innovations, and as well as the scaling of proven evidence-based 
strategies and programs needs to be built into most competitive grants. 
At the very least, a nudge needs to be built into the competitive 
process so that applicants gain an advantage by implementing evidence-
based innovations.
    However, to really unshackle the American genius for innovation and 
help usher in an era of sustained educational improvement, the Federal 
Government needs to get serious about supporting an innovation and 
evidence agenda in both how title I funding gets spent at the school 
level and how it invests in developing the evidence base for Federal 
education programs. Some percentage of title I funds should be directed 
toward the development and implementation of evidence-based practices 
at the school and district levels. The Federal Government, in turn, 
could greatly expand the range and type of evidence-based practices 
schools could use with their title I money on to support by allocating 
one penny of every Federal dollar spent on education toward an 
evaluation system of Federal education programs to establish what 
works, for who, and under what circumstances. Taken together, all these 
actions would create a powerful continuous improvement ecosystem in 
which innovation, accountability, and support catalyze each other to 
provide all students with the learning environments and opportunities 
they need to become successful adults, productive workers, and engaged 
citizens.

    Senator Murray. Thank you very much.
    The Chairman. Thank you, Senator Murray. Let me go to 
Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman. I also want to 
welcome all of our witnesses today.
    I want to go off of the line that Senator Murray has 
pursued, which is funding, and just say I've got a slightly 
different take, because targeted funding means no flexibility. 
It says, ``You need this. Here's some funds to do it.''
    We're asked to write Federal legislation that encompasses 
everybody in the country. One of the proposals that the 
Alexander draft clearly states is an opportunity to plus-up 
title II by $500 million, to fund title IV at $1.6 billion, and 
to take 67 programs that are currently in those and collapse 
them into one pot of money, and to say to you, as 
superintendents, principals, educators, whatever you need in 
your particular school, your district, your State, we empower 
you to have the flexibility to do it.
    If it's innovation, you can devote all the money to 
innovation if you want. Between title II and title IV, you can 
move them back and forth, so you're not limited.
    Today, the way we've got it, if in North Carolina--and we 
do a pretty good job in North Carolina--if for some reason 
there's Federal money for a program we don't need, we lose out. 
A system is compelled to try to create that program to get that 
Federal money. Dedicated funding is fine, as long as it comes 
with flexibility, which is you decide how to best use it.
    We go a step further and we decrease the burden of proof on 
your part, which is not dissimilar to the application that 
Senator Alexander has shown up there. I'm only worried about 
three words: innovation, creativity, and outcome. Most of you 
would probably agree that I probably said it in the reverse. We 
ought to be most concerned with outcome, and the other things 
contribute to a successful outcome for as many as possible.
    I'd ask you to only--if you'd like to comment, comment 
specifically about the collapsing of 67 programs into two pots 
of money that are fungible and you have the flexibility to use 
that as long as it's used to educate children.
    Ms. Kessler. Well, Senator----
    The Chairman. Let me make one suggestion. One way to bring 
a little order to the responses would be if you want to say 
something, why don't you put your name up like that.
    Dr. Kessler, we'll start with you and then we'll keep 
going.
    Ms. Kessler. Senator Burr, I completely agree with what 
you're saying, and part of the reason why it's so important is 
because we don't want practitioners in the field to be trying 
to fit square needs into round funding holes, so to speak.
    I have spent my entire 21-year career in two Tennessee 
school districts in middle Tennessee, with a 50-mile radius, so 
they're very close to one another. Within just that 50 miles, 
I've worked in a rural school, inner city schools, suburban 
schools, both high socioeconomic levels and with many families 
who live in poverty. Each of the individual communities have 
very different needs based on the children that they serve.
    I would so like to see that there is flexibility, so that 
way, the communities closest to children can serve their needs, 
even though the people next door may have different needs.
    The Chairman. Ms. Duffy.
    Ms. Duffy. Competitive government grants have a huge role 
to play in funding innovation. Democracy Prep has benefited 
from the Federal CSP grant and, hopefully, others in the near 
future, that have allowed us to grow at a rapid pace to educate 
more kids on the path to college. Making them competitive 
allows a way for you to focus on outcomes and innovation so you 
can propose a way to get to the outcome that everyone agrees is 
the right outcome for kids. We've been able to do that.
    I do think that as all of our schools qualify for title I 
funding that makes our program possible at the school-based 
level, I do think that there's a way to do both. Flexibility is 
incredibly important when you're talking about funding 
innovation.
    The Chairman. Dr. Balfanz.
    Mr. Balfanz. I'm wondering if somewhere between 67 and two 
is the sweet spot. To get from innovation to outcomes, there 
needs to be just a--especially when we're spending Federal 
money--be a little Federal direction, not on what you do, not 
how you do it, but the problems you work on. For the Nation, we 
have to graduate all our kids from our high schools, ready for 
some sort of postsecondary schooling or training, or the Nation 
is just not going to succeed.
    We're not doing right by those families, because if you 
can't--if you don't have that, you won't be able to support a 
family. If our public education system doesn't graduate you 
into a position to support a family, we've failed.
    To do that, we have to worry about what it takes to get 
kids to graduate college and be career ready. We have to worry 
about achievement gaps, and we have to worry about the lowest 
performing schools, because they may or may not rise to the 
level of attention at any given point in time with all the 
local variables being weighed by people under a lot of demands 
to meet a lot of constituencies.
    The Chairman. Senator Bennet, I can tell, is ready. If I 
could just say it seems so sensible that a little Federal 
suggestion or nudge might be helpful. A Federal suggestion or 
nudge often ends up in this. This is your title I application, 
and this is your waiver from that. It just seems to be human 
nature, in my view.
    Senator Bennet and then we'll go to Mr. Davis.
    Senator Bennet. Let Mr. Davis go first.
    The Chairman. Mr. Davis.
    Mr. Davis. Thank you. I come from a little different 
standpoint, because I don't represent a school district. We are 
a nonprofit organization, and I think that the Promise 
Neighborhoods model addresses exactly what you're talking 
about, innovation, outcomes, and flexibility. It was absolutely 
necessary that the Department of Education sort of hand down 
the guidelines of--these are the 10 goals that we want you to 
address that impact outcomes within the school setting as well 
as those family and community outcomes, because we know our 
students do not solely learn inside the school.
    The results-based framework that has been provided to us 
and technical assistance that has helped us acquire so that we 
drive the alignment between the programs that we select back 
toward those goals--that's--and the iterative process that we 
follow in making sure that the performance measures for each of 
these programs ensure that there's some growth and trajectory 
toward meeting the goals that you want to is where that 
structure is absolutely necessary, because there have been 
well-intentioned people in the Mississippi Delta for a very, 
very long time who were doing the best they could with the 
resources they had and thought they were doing great jobs, but 
the outcomes were not there.
    The flexibility that has come into play with this program 
and with ourselves in the Mississippi Delta is that we've been 
able to choose those programs that are based in evidence or 
promising practices and select those that are culturally 
competent to our geographical region and our culture and 
select--where is our community ready to actually embrace and 
implement a program across all of our partners.
    The other strong component of this is a universal case 
management system. We use a universal data base system that's 
shared across all 10 of our partners, and it captures data on 
all 30 of our programs. Without those resources and without 
that sort of structure being mandated, suggested but mandated, 
I don't know if we'd be able to talk about our entire 
population, which is the goal of the Promise Neighborhoods. 
It's not just to impact a small segment of your community, but 
the entire population, and that's what we're able to do, is 
talk about our entire population because of the families and 
the high percentage of students who are enrolled in our 
pipeline and the outcomes that are being met through those.
    The Chairman. I've got Senator Franken, but we'll let 
Senator Bennet make a comment, and then I'll see if--Senator 
Burr, do you have any followup on any of these questions or 
answers or responses to your question?
    Senator Burr. Let me just say all of this is helpful, and, 
Dr. Balfanz, maybe there is a number somewhere in between. What 
I question is whether we're the ones to determine what those 
programs are. Is it four? Is it six? Is it eight?
    What Ms. Taylor needs is something totally different. Dr. 
Kessler hit on the key that within a 50-mile radius, every 
school you go to, the need is a little bit different, and 
somebody is cheated if they weren't included in the number that 
we chose or the service that was offered.
    Many of the things that were talked about are outside of 
the funding for title II and title IV competitive grants. We're 
talking about a real specific 67 programs that the only way 
that you get money is if you offer the programs, whether you 
need it or not. I would tell you that that's not necessarily a 
fiscally sound thing to do, to say create the program so that 
you get the money because every superintendent or principal is 
pushed to.
    All of this is very helpful to us.
    The Chairman. Senator Bennet had a comment and Senator 
Mikulski as well. Then we'll go to Senator Franken.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. This is a very, 
very helpful conversation.
    One of the things I worry about in the grant department 
here is the rural school districts who simply don't have the 
capacity to fill out forms like that. We shouldn't be asking 
urban school districts to fill out forms like that. If you're a 
rural school district, it's even harder. To the extent that we 
actually end up holding onto some of these programs, we need to 
figure out what it is we're going to do for rural districts to 
make sure they have some access to this kind of money.
    I will say to Senator Burr's point that I am unaware of a 
connection between title II and student achievement in this 
country. It's not visible to me if we haven't done a good job 
with title II money, we haven't spent it well, and that's not 
to say we shouldn't have flexibility. I'm all for having 
flexibility, and I'm all for reducing the programs.
    I guess the question I would ask the panel is of the 
programs that we have, which are the ones that the evidence 
shows have actually made a difference? We heard Mr. Davis talk 
about Promise Neighborhoods. I'm interested in people's 
thoughts on I3 grants and other kinds of grants and which of 
the grants and the programs have actually made a difference, 
because that number is somewhere below 67, and it's somewhere 
above zero.
    You're the practitioner, so in the end, maybe we're the 
ones that decide which programs are there, but tell us which 
ones we should keep--tell us which ones we should keep is my 
long-winded question.
    The Chairman. Ms. Duffy, do you want to--and then Senator 
Mikulski has a comment.
    Ms. Duffy. I3 and CSP, anything that is, again, competitive 
in nature that allows people to make a proposal about what 
they're going to do to hit a specific goal, whether it be 
growing the number of schools or investing in innovation, is 
the right vehicle. I would agree--please reduce the amount of 
paperwork, particularly for the consolidated application. 
Having filed them, everyone should probably--getting it down to 
10 pages would be ideal, but unlikely.
    Anything that is short and allows a school district or an 
operator like Democracy Prep to propose a manner to get to an 
outcome that we all agree is important would be the things that 
I would want to see increased funding for.
    The Chairman. Maybe what we should do is say that every 
State's application for title I should be submitted by the 
State's U.S. Senator, and we'd have to fill this out, and then 
every State's application for a waiver should be submitted by 
the other U.S. Senator, and they'd have to fill this out.
    Senator Mikulski and then--Senator Franken has been very 
patient. Let me go to Senator Mikulski and get Mr. Bradford's 
comment and go to Senator Franken.

                     Statement of Senator Mikulski

    Senator Mikulski. First of all, Mr. Chairman, thank you 
very much for the wisdom of including two Marylanders today to 
comment, Ms. Henriette Taylor, a sister social worker working 
in Baltimore's very hard neighborhood, and, of course, Dr. 
Balfanz from the great Johns Hopkins Center for Social 
Organization of Schools. We thank them for coming.
    I want to get to my question, but I'd like to ask Ms. 
Taylor a question, because in reading her testimony--and it 
goes to all those papers there. You said let's have a Senator 
submit them. Well, I would venture to say that the application 
would be one inch thick, and the speech accompanying it would 
be another 320,000. I don't know if that'll be a good idea.
    [Laughter.]
    Ms. Taylor, when I read your testimony, I read about 26 
partnerships and all of these partnerships--I know the 
neighborhood very well that you're working in. It's very much 
where they film that show, The Wire, and one of the most 
poignant things was the children of The Wire.
    My question to you is: With all of these partnerships, who 
funds all of this work? In other words, you're a community 
school coordinator. To do 26 partnerships--and I have an idea 
as another social worker here what that takes--that's a full-
time job just to do the partnerships. Is that the way we want 
to go?
    I have a reverse idea--not that we don't need you--but that 
we really look at something called the so-called wraparound 
services, which sounded like they're a luxury service--the 
school social worker, the school nurse. Should we then begin to 
think that they're integrated services and become a mandatory 
part of title I? You can opt out of having one, but you 
wouldn't have to forage and do grants, and 26 partnerships and 
so on, to have the basic services. What do you think? Do you 
need a school nurse?
    Ms. Taylor. Desperately.
    Senator Mikulski. Do you need a school social worker?
    Ms. Taylor. Desperately.
    Senator Mikulski. Do we need you?
    Ms. Taylor. Desperately.
    [Laughter.]
    From my, once again, five-foot view, title I--well, let me 
back up--how my position is paid. It is paid through, from what 
I understand--and that is not my role in my partnership--but it 
is paid through 21st Century Grant. It is paid through also 
partnerships with the Family League.
    If, from what I understand--if we had flexibility in 
funding, my principal could say, ``Listen, for our school, we 
need this model. We need this Promise Heights partnership. We 
need this community school model,'' and pay for it that way. In 
that services, from my five-foot view--for instance, for every 
dollar that I understand is contributed by the State and 
Federal funding, I bring $4 in in partnerships.
    When we say partnerships, we are talking about, yes, the 
University of School Social Work, who--I have interns who I 
oversee, who are doing mental health----
    Senator Mikulski. But you're not going to have that 
everywhere.
    Ms. Taylor. No.
    Senator Mikulski. My question is that it goes to--that we 
need to think about a core set of programs that are available--
--
    Ms. Taylor. Yes.
    Senator Mikulski [continuing]. Through flexibility, because 
you've got several grants. You've got the Promise Neighborhood.
    Ms. Taylor. Yes.
    Senator Mikulski. I've yet to see where Promise 
Neighborhoods deliver on the promise, other than Harlem Park, 
and I'm being a little harsh here. It's this grant, that grant, 
to then get more grants. Isn't that our responsibility anyway? 
Do you see where----
    The Chairman. If I may, you're on a--the Promise 
Neighborhood grant is outside title I, so it's a specific grant 
that you competed for and got, if I understand right.
    Ms. Taylor. Yes.
    The Chairman. There's a lot of money in title I, and there 
are a lot of other programs. Let me ask you this question. 
There is a proposal that would say you could take all your 
title I money, which is $14.5 billion--well, let me ask how 
many children in your school, Ms. Taylor, are below the poverty 
level, would you say? What percent of the kids, more or less?
    Ms. Taylor. My neighborhood is below the poverty level, so 
every child----
    The Chairman. Every child?
    Ms. Taylor [continuing]. Four-hundred and sixty-five 
students.
    The Chairman. OK. What if you could take your title I 
money, which would average, then, $1,300--that would be the 
amount of the Federal dollars for every low-income child, 
someone below the poverty level--and each one of those children 
that came to your school had pinned to them $1,300 which you 
could decide how to spend in that school for that child?
    Or, even more, what if you took 80 or 90 of the Federal 
programs and consolidated them? That would permit you to give a 
$2,100 scholarship--I'm just talking public schools now, just 
public schools--and let each child that comes to your school 
have $2,100 attached to them that you and that school could 
decide how to spend. That would be your Federal support for 
that school. How would that work?
    Ms. Taylor. Giving some thought, once again, this is--I use 
the term--it's a muddy area, right? If you're telling or asking 
me how I would spend those funds, that's not my purview. My 
purview is to follow the direction of my principal, to follow 
the needs assessments of what's going on in that community. I 
couldn't give you an answer right now.
    The Chairman. Would you trust your principal to spend that 
money wisely for those children?
    Senator Mikulski. Yes.
    Ms. Taylor. Absolutely. We work in partnership, absolutely. 
What I provide him is to do the needs assessment, because also 
providing for programming that isn't needed in that school or 
that community, if I can be blunt, is a waste of money. What 
I'm trying to do is being very specific.
    Let's just use the example of a daycare in my neighborhood. 
My neighborhood may have great afterschool care. Maybe in a 
different district, that's not what they need. Maybe they need 
a wellness clinic. Working in this partnership with my 
principal, with the Family League, clearly, and in my 
situation, Promise Heights--I could speak to it like that. 
Telling me, ``OK. Here's X amount of dollars. What would you do 
with it?''--I can't honestly give you a straight answer.
    The Chairman. Well, I appreciate the response.
    Let me go to Mr. Bradford, Dr. Kessler, and the patient 
Senator Franken and then Senator Murphy. Well, let's go--Mr. 
Bradford, Dr. Kessler, then Senator Franken.
    Mr. Bradford. I would just like to add to the framework 
piece and the Senator's 12-inch tall stack of title I and 
Federal NCLB applications there. Remember, this also--like in 
Louisiana, we have 70 school districts, and each school 
district is also filling out title I paperwork.
    I'm going to put my teacher hat on from years back when I 
was at an inner city title I school for 7 years. I remember 
there was a day and time where I went to the principal's office 
and I was seeking to get a set of class magazines, like 
Newsweek, Time, U.S. News. It was election season, and I was 
teaching civics.
    I remember the principal and the title I director coming 
back and referencing that, no, the money is in supplies and 
it's for printer cartridges. I said, ``No, I don't need printer 
cartridges. I need magazines.'' I was told, ``No, you can get 
toner or printer cartridges,'' and I said, ``No, it's civics. I 
am engaging the students.'' It's a level of complexity even 
deeper than the State level. For our locals, it's a level of 
complexity.
    To Ms. Duffy's point, we would just further emphasize that, 
also, we are in full support of competitive grants to scale the 
innovations in the States that are working, and perhaps with 
the funding, also, some flexibility around the timing of the 
funding, whereby we can distribute those funds to the school 
districts in alignment with our State dollars that flow to the 
school district so they could have one coherent plan.
    The Chairman. Thank you, Mr. Bradford.
    I see several things up here, but I'm going to go to Dr. 
Kessler and then to Senator Franken. There'll be time for 
everyone.
    Ms. Kessler. Senator Mikulski's point about wraparound 
services is essential, because there are estimates that 20 
percent of the children who are in our public schools, K-12, 
suffer from a mental illness. It is very difficult to access 
providers who are psychiatric providers for children or 
psychological providers for children, and school social 
workers, school nurses, school counselors--all of those key 
people are in short supply.
    As a principal who would be able to make some funding 
decisions, I would love to be able to bring more mental health 
professionals into my school to help work with my students.
    There's also the other part about title II that I want to 
bring up, which is--professional development is something that 
is a key part of title II. As teachers are growing and evolving 
over their careers, we have got to provide them with up-to-
date, valuable professional development, so that way, they can 
meaningfully integrate all of the innovation and changes that 
they're able to implement.
    We can't do professional development as an afterthought or 
a line item if there's enough money, because teachers are the 
ones who are there with our children every single day. If 
you're looking for--how do we encourage innovation, 
professional development is how we make teachers evolve from 
who they are to who they will be.
    The Chairman. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Did you get the toner, or did you get the 
magazines? That's my question.
    Mr. Bradford. After a lengthy process, we got some 
magazines.
    Senator Franken. That's how I'm going to use my time here.
    [Laughter.]
    Boy, there's nothing more important than our kids' 
education. There really isn't. This conversation is both 
exhilarating and frustrating, because anything anyone says 
sparks about a million things in each of our minds. My 
suggestion is just get the script together, go to Camp David, 
like the Begin-Sadat thing, and hammer out something over 
several weeks. We just have to ask the president for Camp 
David.
    I'm just going to focus on Ms. Kessler for a second, 
because you said so many great things. One, I can't agree with 
you more on mental health, and I have a mental health in 
schools thing that we got some--about $55 million for. In 
Minnesota, I've seen mental health in schools--really important 
having a mental health provider in the schools--so important.
    You talk about universal pre-K--love that. Here's one thing 
you said in your testimony, which I love. There is an old adage 
that states what gets measured gets done. It reminds me of 
something called McNamara's Fallacy, and, basically--McNamara 
is after Robert McNamara, and this is sort of a summary of it. 
The first step is to measure whatever can easily be measured. 
Because we're talking about these tests and just the whole--No 
Child Left Behind is about testing and assessment and 
accountability.
    The second step is to disregard what can't be easily 
measured. We're measuring--we have these tests that aren't 
measuring really a lot of the stuff we need to measure, which 
is critical thinking, creativity, working with others.
    The third step is to presume that what can't be measured 
easily really isn't important. My question is--and this is a 
different question than what we've been asking--how should we 
do assessments? You're saying we should keep the annual tests. 
I agree with that. I believe we should measure growth. I 
actually am for--what I've seen in Minnesota is three tests 
during the year so you can measure each kid's growth, but make 
them low-stakes tests, in a way.
    Ms. Kessler. Right.
    Senator Franken. OK. You talk about portfolios, and I think 
that people get nervous about portfolios because portfolios are 
not as objective as a score. What should we be measuring? Can 
we create assessments--can we create tests that measure more of 
what we want to measure, that aren't measuring discreet little 
skills that get drilled and killed in the kids--the teachers 
have this incentive to bore kids to death, and not only that, 
but bore themselves to death, so that teachers aren't engaged 
and kids aren't engaged.
    Can we design tests, can we design accountability measures 
that reward the kinds of teaching and the kinds of curriculum 
that excite kids and make kids excited to learn?
    Ms. Kessler. Senator Franken, you have several really good 
points in what you just said. The problem is we have so much 
riding on these tests that don't necessarily measure even what 
we value, but they do measure something, and to be honest, a 
standardized test measures what you don't know. It doesn't 
measure what you do know.
    And because we have those, and there's so much riding on 
it, it actually can interfere with innovation, because everyone 
is so concerned about the implementation dip that happens when 
you start a new initiative--well, how will that impact this 
year's scores, because what we want to do with these scores is 
use them for judgments about children, about teachers, about 
schools, when, really, they're merely a snapshot of how that 
child performed on 1 day.
    Senator Franken. Yet you say that you want to keep the 
yearly tests.
    Ms. Kessler. I do, as a part of how we evaluate progress, 
in general. Just like when you take a child to the 
pediatrician, and they tell you, ``Well, here's where they rank 
on their height and their weight and their head circumference 
as a 6-month-old''--the parent loves the child anyway, and the 
parent doesn't go home and say, ``You're only in the 38th 
percentile for your head circumference. We're really hoping we 
get to 60th percentile by the 9-month visit.''
    Senator Franken. I want my kid to be in the 99th percentile 
in head circumference.
    [Laughter.]
    Ms. Kessler. The parent wants growth for the purpose of 
growth, not so they can say--you never hear a parent saying, 
``Look at my wonderful baby. He's in the 85th percentile for 
head circumference.'' They love them for loving them, and 
that's what we need to do more of in schools.
    When you talk about ways for teachers to not bore kids, 
that's one of the reasons innovation is so important. One of 
the things that we do at Hunters Lane High School is we're 
addressing not just visual and auditory and tactile learners, 
but the technological learner, using a blended learning model 
where every child, every class is taught on a hybrid approach 
of both in-class and online, because kids want to communicate 
online, they want to do online shopping and online banking, and 
they want to be able to learn online.
    There's a risk to principals and to teachers for doing any 
of that kind of innovation, and the risk is if there are 
consequences when the scores come out, then maybe we should 
just sit with kids and do drill and kill, and nobody's really 
learning anything, and that's where they get disengaged. 
Children drop out of school intellectually way before they drop 
out physically.
    The Chairman. Dr. Kessler, let me give someone else a 
chance to respond to Senator Franken's line of questioning--who 
else?
    Dr. McIntyre.
    Mr. McIntyre. I'm glad to. I also wanted to jump in on the 
community schools conversation. Very briefly, it's really 
important that we have flexibility. I also think it's important 
that we have real local investment in programming like that, 
and that that buy-in is incredibly important.
    When we think about the Federal investment overall, it's--
Federal spending is something like 8 percent or 9 percent of 
overall spending on education. What you want to do is, ideally, 
leverage that spending for a longer and wider impact that you 
might have beyond just the dollars that you put in place. 
Personally, some of the competitive grant programs on a limited 
basis have been helpful in doing that.
    I think Senator Franken is correct in terms of we need 
better assessments that really do measure what we are hoping 
our students are learning--critical thinking and problem 
solving and great writing and things of that nature. We're sort 
of moving in that direction. We need tests and assessments that 
are better aligned to the standards that we are seeking for our 
students to achieve.
    We need to better utilize the results of those assessments 
in a multiple measures approach, as Dr. Kessler has suggested. 
I also think that there's an opportunity here for certainly 
keeping the Federal requirement for annual assessments, but 
maybe finding some opportunities for innovation. There are some 
interesting ideas out there, and I'm not sure I'm completely 
sold on all of them yet.
    In some successful States, some high capacity districts, 
maybe we should try some different things, some of the 
innovative ideas around assessment or accountability that may 
be the type of earned autonomy that is the spirit of innovation 
that we're talking about.
    The Chairman. These are very helpful comments, really 
helpful comments. I want to reemphasize the word, succinctness, 
as we go through, and before--Senator Casey, if you have a 
comment that you want to make, I'm going to go to Senator 
Murphy in just a minute, but----
    Senator Casey. Maybe we'll finish this thought. I was going 
to introduce something new.
    The Chairman. OK. Well, let me go to Dr. Balfanz, and then 
Ms. Duffy, and Senator Murphy is next among the Senators.
    Mr. Balfanz. Just a quick thought on the testing, 
succinctly said. We might make progress if we think about what 
we should do to know if schools are on track and doing the 
right thing and which schools might need more help and what is 
right by kids, and understand we could do both, but they might 
not happen at the same time.
    The grades that really tell us if a school is doing the 
right thing are the end grades of each grade level, fifth 
grade, eighth grade, eleventh grade. Has this school got this 
kid ready to succeed at the next level? That's the key 
question. If you're not ready to succeed at the next level, the 
kid is going to be in trouble. They're going to struggle.
    The key is for a kid, developmentally--will I succeed as an 
adult--are first grade, third grade, sixth grade, and ninth 
grade. First grade, do I transition to school? Do I get the 
fundamentals of reading? Third grade, do I have my basics 
instead? Sixth grade, can I make the transition through 
adolescence and come to school and believe schooling is for me 
internally, not something I just do to endure? Ninth grade is 
when kids, if they don't make it through, they fall off track 
to graduate.
    We need to have lots of data and lots of information in 
those years, but not using it for hard accountability but for 
things saying, like, if a lot of your kids are struggling, you 
should really do something about it. That's a flag, whereas 
maybe the fifth grade, eighth grade, eleventh grader--saying 
for us to know if you're doing your job, your kid should show 
us on a very complex test--because we're only doing it three 
times.
    We can have a richer test, a more varied test. The reason 
we don't have those more varied tests is because we've got to 
do it every year. States had more challenging, interesting, 
demanding tests before NCLB because they didn't do them every 
year. When they had to do them every year and turn the results 
around really quickly, they had to go to simple tests.
    Senator Franken. What I heard in Minnesota from teachers, 
superintendents, principals was we like testing three times a 
year so we can see each kid's--so they're computer adaptive 
tests so they get the results right away so that teachers can 
use the results to inform their teaching--
    Mr. Balfanz. Absolutely.
    Senator Franken [continuing]. Which is the same as a 
teacher just giving a lot of quizzes.
    Ms. Duffy. That's right, absolutely, Senator Franken.
    The Chairman. Well, we had testimony at the last hearing 
that in Florida, for example, there are only 17 Federal tests 
required. In Florida, there were between 8 and 200 additional 
tests required by State and local agencies. Senator Baldwin 
made the point of trying to put the spotlight on those tests.
    Ms. Duffy.
    Ms. Duffy. Yes. Growth matters most. Democracy Prep has 
been able to take some hits on absolute proficiency in honor of 
growth, because that's who we want to educate. If we just look 
at an absolute proficiency once a year, we're not actually 
going to be able to meet the needs of our kids, because we 
won't know until June what they didn't know in January, and 
that doesn't make any sense.
    We actually use more assessments than are mandated because 
we actually do want to see where kids are at various points in 
the year. What that allows you to do is actually use a variety 
of different assessments. We use the NWEA's MAP assessment, we 
use the State assessments, we use teacher designed assessments, 
externally created assessments, and they give us a better 
picture of where our kids are and what our teachers need to do.
    Senator Franken. But are low stakes.
    Ms. Duffy. I would argue that they're not entirely low 
stakes. They're tied to promotion and retention decisions for 
students, and they're tied to salary decisions for teachers in 
the aggregate. We always focus on growth, not absolute 
proficiency, and I think that that's the key indicator.
    Senator Franken. Thank you.
    The Chairman. Thank you, Senator Franken.
    Senator Murphy, and then we want to get pretty quickly to 
Senator Casey.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much. This is really a 
fantastic discussion. Most educators in my State of Connecticut 
would love this concept of flexibility, the idea that 
Washington should just send a chunk of money down to the States 
and let them decide what to do with it, and the natural 
extrapolation of that would sort of put us back where we were 
before NCLB.
    We need to remember what was happening before NCLB was put 
into effect. The reality was that the act is named what it's 
named because there was a whole cohort of kids, millions of 
them, who were being left behind, who, because of the natural 
political pressures that play out in State capitols, weren't 
getting the attention that they deserved.
    This is all about a midpoint and figuring out where we've 
gone way too far in terms of prescriptive funding, but also 
admitting that there are a lot of things that play out in 
States that aren't so good for kids who are in low performing 
school districts. I guess that's where I would love this 
discussion to go for just a minute.
    My question is this: One of the things that I'm concerned 
about in the draft that we're working with today is that it 
essentially removes the idea that States should make sure to 
target the 5 percent or 10 percent or 15 percent of lowest 
performing schools and direct their efforts at trying to make 
those schools better. We sort of trust that States are going to 
do that on their own. My worry is that a lot of States weren't 
doing that beforehand, and we know that because the results 
have gotten a lot better for those schools, a lot less dropout 
factories.
    What about the concept of preserving in a new ESEA draft--
and maybe I'll ask it to Dr. Balfanz, because you talked a 
little bit about this in your testimony--preserving the idea 
that States should still have a focus on those lowest 
performing schools, maybe not a mandate that a specific amount 
of innovation funds get spent on those schools, but there 
should at least be some expectation that there's going to be a 
strategy to think about innovation in those school districts in 
a way that's different than how you think about school 
districts where, frankly, parents might be crawling around 
State capitols asking for the dollars to go to them.
    What about that idea?
    Mr. Balfanz. Absolutely. I've been working on this problem 
for 20 years, and, as I said, there was lots of local 
innovation. Lots of people cared, lots of Governors and mayors 
and people did really profound work. It was sort of the 
coalition of the willing, and that was sporadic over time and 
place. It was only really when we merit--the graduation rate 
accountability became real--and one great example is we worked 
with the State of Alabama a lot.
    Everyone was--they did innovative stuff, doing this--early 
adopters of early warning systems. They had State PD and 
training. It wasn't until Federal accountability came along and 
said that every high school has to improve their graduation 
rate and, particularly, if you're below 60 percent, we're going 
to do something about it that that signaled to every single 
principal in the State that grad rates were something that 
mattered.
    They had that infrastructure in place, but the 
accountability and the focus led to an incredible sense of 
progress. They've now made some of the biggest gains of any 
State over the past 4 or 5 years, because they had the local 
innovation, but it was married with Federal accountability, 
which directed them to a set of kids, a set of problems, and a 
set of schools that, absent that targeting, would not have 
happened at that scale and at that level.
    Senator Murphy. I think there was a natural political 
dynamic that played out, in which these kids just didn't get 
represented. They didn't get the focus that they needed. For 
all of the warts of the law, that is one of the successes, that 
there was some targeted investment in these kids. As we talk 
about this conversation around how we spend innovation dollars, 
I just hope that we structure this in a way that makes sure 
that those school districts still get the lion's share of the 
funds.
    Mr. Balfanz. There's one group, actually, that's going to 
really be in trouble if we don't do that, which are the inner-
ring suburbs that have had a big gain in concentrated poverty, 
because they don't have the local infrastructure in place for 
student services. They don't have nonprofits, and they don't 
have any tax base. They're all decaying industrial outer-ring 
suburbs where people have tried to get out of the inner city to 
go there for a better life and are just overwhelming them with 
an unmet need and no capacity absent some support and direction 
to get better.
    The Chairman. Senator Casey, I'd like to get a comment on 
that point, if I may, from Senator Bennet and Dr. Kessler, and 
then maybe--do you have time for that?
    Senator Casey. Yes.
    The Chairman. Thank you.
    Senator Bennet and Dr. Kessler
    Senator Bennet. I would just say it's a very important 
observation, Senator Murphy, and also say it's not just about 
low performing school districts. It's also the case that NCLB 
has allowed us to look into high performing schools that have 
subpopulations of students that were being left behind, and 
we've got to make sure in our disaggregation of the data that 
we don't lose that. I think you're right, geographically, but 
it's also important to look into schools that are not serving 
folks well.
    The Chairman. Dr. Kessler, and then we'll go to Senator 
Casey.
    Ms. Kessler. We do agree, Senator Murphy, that it has been 
helpful for No Child Left Behind to be able to report the data, 
to have everyone comparing the same exact thing with groups. 
However, I do challenge you and all of us to stop using 
terminology like low performing schools. Schools are buildings. 
They house children, and there are no low performing children. 
There are children who have greater needs than other children 
for a wide variety of reasons, most compelling because they 
live in poverty.
    Every child counts. Before we say--I wouldn't say a child 
is a low performing child any more than I would say that 
someone is a low performing politician.
    [Laughter.]
    The Chairman. Well, we have some of those.
    [Laughter.]
    Ms. Kessler. I'm just saying we have to realize all 
children are our children, and what we do to children, they do 
to society. We do not, as a society, want to walk around 
categorizing the schools where children attend as low 
performing, because what we're actually doing is pointing the 
finger at the children whose needs we are not meeting.
    Senator Murphy. Regardless of the terminology, we've got to 
figure out some way to have accountability. There has to be 
some labeling.
    Senator Murray. How would you make sure that we are really 
looking at the greatest need students for a Federal goal of 
making sure that every child has access to education?
    Ms. Kessler. No. 1, growth, absolutely, instead of 
comparing children who live in poverty to children who do not 
live in poverty when we know there's differences. Using the 
tests merely as one level--part of the community schools model 
is also trying to meet the needs of children's social and 
emotional needs--the whole idea of educating the whole child 
and looking at that from a wide variety of lenses and not 
simply through the testing lens.
    What's happened is, just like Senator Franken said, because 
you can test something and you can do it easily and you can get 
the data back, it makes people think, ``Well, that's worth 
measuring.'' There's so much that's going on in American 
schools that's wonderful, and we're not capturing any of that, 
and that's how kids are being saved.
    Teen pregnancy, dropouts--those are the kids who didn't get 
saved. We have no data on the millions of kids who are saved 
every day in American public schools.
    Mr. McIntyre. I would suggest that if we have rigorous 
standards in all 50 States, if we have good information about 
how students are progressing toward those standards, if we have 
clear accountability systems that are aligned to those 
standards in all 50 States, it's going to highlight where we 
are being successful and where the challenges are. I think in 
that context, then we can give broad flexibility around 
educational strategies and solutions to States and local 
districts, but make sure that we're shining a light on how all 
kids are progressing.
    The Chairman. I want to go to Ms. Taylor and then to the 
patient Senator Casey.
    Ms. Taylor. Just to followup with Dr. Kessler, I often hear 
about testing, testing, testing. We're testing the children 
against--children who have and the children who have not, and I 
absolutely think Dr. Kessler--we use the words, low-income, 
low-achieving, right? These aren't how our children are 
defined.
    One thing I want to talk about is that we have these 
community school models, these Promise Neighborhood models, who 
address some of those issues, who talk about these wraparound 
services, who--if we had testing to talk about social-emotional 
needs, we could then--people like myself--we have little Taylor 
in class who maybe, academically, isn't doing so well.
    A community school model talks about a community school 
coordinator working together with the principal, with the 
teacher, seeing, well, maybe it's because there has been a 
change in the family dynamic. Maybe mom has had a surgery. That 
way, this community school model, the community school 
coordinator can come in and assist with that so that we're 
meeting the needs of those children, not just academically, but 
socially and emotionally.
    The Chairman. Thank you, Ms. Taylor.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. That couldn't have been a better segway--
thank you, Mr. Chairman--because I was going to direct my 
question to you, Ms. Taylor. In the interest of--we have 
limited time, and we're charged to be succinct. In the interest 
of commendation in connection with your work, I noted on page 4 
of your testimony--I know a lot of you didn't get a chance to--
it's not the setting to go through all the testimony.
    You're talking about significant positive changes in 
implementing infant mortality reduction programs----
    Ms. Taylor. Yes.
    Senator Casey [continuing]. Increasing the number of 
toddlers enrolled in early Head Start and Head Start, improving 
test scores at one elementary school from 34 percent to 96 
percent in 3 years by bringing in Head Start and early Head 
Start, all of that under the broad umbrella of developing the 
whole child and getting results.
    I was struck by what you said, though, on page 5 of your 
testimony when you talked about other indicators, and you said 
in that second full paragraph, and I'm quoting here,

          ``I must be able to identify and report results 
        beyond academic achievement to indicators for health 
        and wellness, discipline, attendance, and family 
        engagement.''

    Just on those four--more of a narrow question--what would 
you hope that we would do in this reauthorization that would 
get at or support what you presented there in terms of those 
other indicators, in terms of how you measure them, and how you 
support growth in those indicators?
    Ms. Taylor. If you could clarify, what you're asking is how 
would we go about measuring the attendance, the health and the 
wellness?
    Senator Casey. In other words, if you say that these 
indicators are important, how do you think we can help when 
we're working on reauthorizing this bill or this law to help 
you do that?
    Ms. Taylor. Well, it's to talk about those services, right? 
Attendance, health and wellness--those are barriers, and so to 
talk about addressing the barriers of those things. We know 
that--for instance, attendance--that attendance from 
kindergarten--so we have a kindergarten student, little Taylor, 
who is having trouble with attendance. That affects third grade 
reading scores, and we know third grade reading scores can--
there's a direct correlation with high school dropout.
    If we have services, wraparound services, programming, we 
talk about attendance then from a family dynamic, because we 
know kindergarteners and Pre-Ks--they're not bringing 
themselves to school. It's a family issue.
    Models like the models I work with and community school 
models and community school coordinators--we then go in, and we 
help families. Maybe it's a bedtime routine, or something so 
simple as mom has had twins and now she has a new baby. How do 
we get a bedtime routine? Talking about services that provide 
more than just the school being an academic place, that the 
school is the hub of the community.
    To talk about health--using the example of immunizations, 
this year, kindergarten, seventh grade in Baltimore City, we 
had new immunizations. We had 77 students in my community who 
weren't immunized. What does that mean for wraparound services?
    As a community school coordinator, I was able to call my 
partners, the school of medicine, get doctors and nurses to 
come in, and then to provide those immunizations at the 
school--had my school of social workers go knocking on mom and 
dad's door--``Hey, you know what? Little Taylor needs her 
shots. Can you come in so we can have consent?'' Those children 
were allowed to continue to go to class, because without those 
immunizations, they wouldn't have been allowed in. So we talk 
about these wraparound services.
    How do you measure wraparound services? One of my 
challenges is we need to talk about real time data, so that's 
my term. It's not a fancy term. I need to be able to access the 
school's data so that when I know those immunizations are due, 
and if by September 26th they're not in, and those children 
haven't been immunized, then I'm going to be able to go the 
week before and not the week later or that day, scrambling.
    When we talk about the wellness, we're talking about 
social-emotional wellness. Those wraparound services don't just 
happen for the children in my school. They happen for the 
families. If mom, unfortunately, had a moment and is 
incarcerated, and little Taylor has to go move in with grandma, 
but grandma is in a different district, how do I make that 
transition work? Once again, wraparound services.
    With the partnerships like Judy Center, with the 
partnerships, for instance, like KaBOOM! and Laureate, that 
gave us playgrounds, those services, then, is how we can really 
focus on that such critical piece, not just the academics.
    Senator Casey. I'd just make one more point, because I know 
we have to move on. The points in your testimony that you make 
about early learning are critical. They're part of what we're 
trying to do here as well. It's been a new venture for some 
people. I believe that if kids learn more now, they're going to 
earn more later, and that's not just a rhyme. It happens to be 
true.
    I'm grateful that you're showing how this works on the 
ground. We've just got to figure out ways to support what 
you're doing.
    Senator Mikulski. We need wraparound services.
    The Chairman. Thanks, Senator Casey.
    Why don't we go for a quick comment to Mr. Davis and Dr. 
Balfanz, and then let's go to Senator Whitehouse. We have about 
20 or 25 minutes, and I'd like to conclude by giving all the 
witnesses a minute to summarize and say what they have wanted 
to say but haven't had a chance to say, and then Senator Murray 
and I will finish. We'll conclude before noon.
    Mr. Davis and Dr. Balfanz.
    Mr. Davis. Sure, and this might use my minute right now. 
This is the perfect segway, because I was additionally going to 
respond to Senator Murphy and Dr. Kessler and the question by 
Senator Casey and then the followup by Ms. Taylor. I couldn't 
concur with her more.
    You spoke about innovation and what could be done for those 
schools that some would term low performing, others would term 
as students in need. In a rural community, similar to the urban 
communities Dr. Balfanz is talking about, a lot of times, we 
don't have the resources in place in our school system. The 
personnel is not there.
    If you gave the money directly to the schools and allowed 
them or expected them to make the changes, we can't do it by 
ourselves in a small community. We have under 11,000 people in 
our community. It takes this collaborative approach, which is 
embedded in the Promise Neighborhood model. It sounds like it's 
very similar to community schools with Ms. Taylor. It takes 
this collective body of faith-based organizations, local 
government, the school district, nonprofits, the healthcare 
community to actually come together as a community to make some 
real changes, because standing alone, the district cannot do it 
by themselves.
    To answer your question about what should you do in terms 
of reauthorization of the bill, you should take into account 
communities that look like ours, that look like Baltimore's, 
where those resources in the school district alone are not 
going to make the difference, and it does take a collective 
approach.
    I came to talk about data today and outcomes. That is the 
entire framework of the Promise Neighborhoods community. 
Everything that we do is data-driven.
    You talked about real time. We use one universal case 
management system, as I talked about, which is a directive 
that's shared across all partners, and we're able to make the 
same sorts of referrals out, where a healthcare provider that 
knows that a child has not had their followup visit can reach 
back out to someone on our staff, so that our family advocate 
goes to that home and makes sure that that child has that 
visit. By the time they get to kindergarten, they are prepared 
and in a healthy enough balance.
    That's my response to your question, and I think there's a 
resemblance between the urban sort of challenge as well as the 
rural challenge.
    The Chairman. Dr. Balfanz.
    Mr. Balfanz. Yes. I just have a very quick comment to say 
what also might be done in the reauthorization to help with 
these wraparound supports and meeting the nonacademic needs of 
students. One thing for title I schools would be to say that to 
nudge them to collect data just for themselves, not to share, 
not for accountability, but to say you need to know the health 
and wellness needs of your students.
    Above all, you need to know what their chronic absenteeism 
rates are. We don't measure chronic absenteeism, just missing a 
month or more of school. In our high-needs neighborhoods, in 
kindergartens, 20 percent, 30 percent, 40 percent of the kids 
are missing a month or more of school. In the high-needs high 
schools, half the kids are missing a month or more of school.
    We all get that if you miss a month or more of school, how 
can you succeed in that school year. We don't measure that, 
because all we're asked to measure is average daily 
attendance--how many kids in the building on a given day. It's 
one of those crazy places where our numbers fail us.
    You can have a 90 percent ADA. You think that's pretty 
good. I'm in the 90s--hard wire--90 is an A, right? A 90 
percent ADA, and a fifth year kid could be missing a month or 
more of school, and we don't know it because we don't measure 
it. Those kids that are missing a month or more of school are 
the kids that need those services. Until we know exactly what 
it is at each school, we don't know how many services we need.
    The Chairman. Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman. Thank you for 
hosting this. I'll start by acknowledging what Senator Murphy 
said, which is that this whole exercise began with the 
recognition that there were kids who simply weren't being 
heard, particularly in State legislatures. Their voices weren't 
coming through the politics, and they were, in fact, getting 
left behind.
    Solving that has created a second set of problems. That's 
life. You move forward to your next set of problems. The set of 
problems that I see and hear about a lot in Rhode Island is how 
inefficient the testing burden is. My last meeting with 
educators--testing gone mad was one phrase, 42 days of testing 
in 1 year, and January is hell month in schools because of 
testing. Those are the kinds of feedback phrases I was getting.
    I don't think we've done a very efficient job of picking 
out of the testing problem when we're testing kids, when we're 
testing the testing of kids to make sure it's legit, when we're 
testing schools, when we're testing populations through 
disaggregation, and when we're testing States. I would urge 
anyone who is concerned about this and wants to be in touch 
with me offline to let me know of any ideas they have either to 
better use existing testing or to take questions and embed them 
in classroom testing so you don't have the discrepancy between 
a test that the kids know counts for them versus one that they 
know only counts for the school.
    We've got to do a lot better. The testing burden not only 
has the problem of taking away class days and shutting down 
computer bandwidth on the days of the testing for all classes 
and putting that burden on the school, but then it has the 
secondary effect of everybody tracks toward passing the 
oxymoronically named English language arts literacy part test 
or the mathematics part test.
    As Dr. Kessler pointed out, there are kids who you don't 
reach if you go right at them with ``Here's your English 
language arts literacy curriculum, and here's your mathematics 
curriculum.'' Some of them you get to because they've got a 
gift for music. Some of them you get to because they've got a 
gift for drawing. Some of them you get to because they've got a 
gift for building things or working in a lab. When all that 
gets stripped out so that people can focus entirely on the 
other things, that combination has created a huge sacrifice on 
the part of those kids that we need to address.
    I don't want to take more time on this. We've done a lot of 
talking. I wanted to invite any comments and recommendations 
that people have, because this is a big part of our task in 
this bill.
    The second thing that I'd say, particularly with respect to 
what Dr. Balfanz was saying about kids who simply don't show up 
for 30 days in a year--in Rhode Island, we were seeing that 
starting to take off in middle school. I don't know of any way 
that a kid who has gone 30 or 60 days truant in middle school 
or has become pregnant in middle school or has joined a gang in 
middle school or has ceased development in reading in middle 
when they get to high school is going to succeed.
    I hope that one of the things we can look at in this bill 
is the Success in the Middle Act, which we've had for this 
committee and has passed it once already, to push back to the 
feeder schools and try to get those kids before they get lost 
to truancy and some of those other threats, because for some 
kids, unfortunately, getting to them in high school is just too 
late.
    The Chairman. May I ask as you respond to Senator White-
house's first question, why is there all the concern about 
over-testing when the Federal Government only requires 17 
tests? The superintendent of Denver was in here a couple of 
weeks ago, and he said that if you have one test in reading and 
one test in math for a third grader, it shouldn't take more 
than 4 hours. Yet we have this explosion of resistance to over-
testing.
    Where is that coming from? Is it coming from the setting up 
of the what is success, what is failure, and what are the 
consequences, or is it coming from the tests?
    Anyone who would like to respond to Senator Whitehouse, 
including Senators?
    Mr. Balfanz. Where a lot of those tests exploded on the 
ground was people's nervousness about the accountability, 
because if I'm going to be accountable at the end of the year 
for all my kids and all my subgroups meeting these targets, 
which are getting bigger every year, how do we know we're on 
track unless we do lots of testing in front of that with the 
benchmarks to let us know if we're making progress. If I don't 
do any testing in between, it feels like a crap shoot at the 
end of the year if we're going to make it or not.
    The Chairman. You're saying that the concern about testing 
comes from the requirements about here's what a definition of 
success is, here's what a definition of failure is, and here's 
what the consequences of that are.
    Mr. Balfanz. People feeling that in many cases they are 
being asked to make a miracle happen and, therefore, to make 
sure they had a chance, they want to do lots of testing before 
that.
    Senator Whitehouse. A lot of lead-in testing, a lot of 
preparatory testing, a lot of training testing to get people 
ready for the big one that might take the school down if they 
got it wrong.
    Mr. Balfanz. Right.
    Senator Franken. Teaching to take a test.
    Mr. McIntyre. It's important for us to acknowledge that 
there's a Federal requirement, there are often State 
requirements, there are local district requirements, and 
there's sometimes school or classroom assessments that are 
happening. A lot of the concern or pushback on over-testing 
comes from not just a single--any one of those single 
requirements, but from the combination of those.
    We have a responsibility at the local level, at the State 
level, to really take a hard look at that and to make sure that 
we aren't over-testing. There is a real value to assessment in 
the broad sense in the teaching and learning cycle. We teach 
children a particular concept or a skill, and then we check to 
see if they understood, and if they got it, and if our teaching 
is effective.
    We do need to be careful and look very closely at whether 
the combination of all those requirements is having a 
detrimental effect at the local level and the State level.
    The Chairman. Senator Murray.
    Senator Murray. Can I ask this question a little 
differently? We have spent a lot of time on this testing 
question because it's kind of like the icon of No Child Left 
Behind. Yet No Child Left Behind is about a lot of other 
things, as Senator Murphy talked about, making sure that we 
don't leave kids behind, truly, that we do teach to all kids. 
We've heard a lot about all the social services and different 
circumstances that get us there.
    We've heard a lot of people say it's important to keep the 
annual testing so we have that knowledge, but without the high-
stakes consequences that if you don't reach some mandate that 
you can't reach, your school is a failure. How do we keep in 
Federal law that focus on making sure we have the knowledge, 
whether it's teachers or parents or us as a country, that we're 
reaching really important goals without some kind of 
consequence? What is that key there that keeps us from fighting 
this?
    Ms. Kessler. Well, I agree with what you're saying. I don't 
think the consequence is what should be motivating the actions 
of teachers and schools and districts. One of the things that 
we do in metropolitan Nashville is we have what's called the 
Academic Performance Framework, which takes into account a 
school's test scores, a school's growth. There are several 
factors, including survey data from students and from parents 
and from teachers, so that way, it provides a more holistic 
approach.
    Part of the reason why there's so much resistance across 
the country and discussion about this over-reliance on tests is 
because in many communities in different States, the tests are 
being used as a weapon, and they're being used as a weapon 
against schools, against teachers, against principals and 
districts, even if it's only in social circles. Even 
organizations--realtors will try to sell you a home based on, 
oh, this school because of this versus this school.
    None of that was intended in No Child Left Behind. You can 
have the testing without the sanctions, because the testing is 
the benchmark we need to help measure student growth as one 
way. We don't need sanctions and lists of failing schools or 
successful schools. We don't need weapons against the educators 
who are working so hard to get kids to be proficient.
    The Chairman. Senator Murray, do you have anything more?
    Senator Murray. It's the battle we're fighting here, which 
is the original bill put in the testing and accountability 
because a lot of kids were being left behind, and nobody here 
wants to go back to that. We want the knowledge, but what's the 
key to make sure that we are using the knowledge that we get in 
a way that makes sure we're helping our students and not 
leaving a lot of kids behind.
    Senator Franken. Didn't Dr. Balfanz basically say--I'm 
sorry.
    The Chairman. No, go ahead, Senator.
    Senator Franken. Didn't you basically say that all this 
talk is well and good, but the fact of the matter is that when 
that accountability came into place, that's when this action 
happened? Isn't that what you sort of said?
    Mr. Balfanz. Well, but on the other hand, the flip side of 
it is the accountability has led to really massive progress 
among kids who were ignored in the past. The number of low-
income and minority kids graduating is way up. The number of 
low-income and minority kids scoring at the lowest levels of 
achievement is way down. The number of kids, minority and low-
income, getting an AP test is up.
    So that's the balance. It actually had significant impacts 
for the kids it was intended to, and it had significant 
unintended consequences for a lot of other folks. It's getting 
that balance right, and that's what I was trying to--the idea 
that we need to keep that accountability, but maybe it's not 
the every year, every group, which was just the unending 
pressure that just wore people down, but saying if the key 
accountability years are like fifth grade, eighth grade, 
eleventh grade, but we still keep collecting the data all the 
other years for all its good purposes.
    Senator Murray. We don't get so----
    Mr. Balfanz. Maybe even expand more collecting data, so 
some this stuff about chronic absenteeism and health and 
wellness. It's all used much more formatively to help kids and 
help schools. Instead of saying you're in trouble, it's just 
saying which schools need extra help. That's legitimate to say 
you've been identified as in need of extra help, because 
probably the needs of your kids outweigh the capacities you 
were given. Everyone's got to know that and rally around it.
    The Chairman. Well, Dr. Balfanz, who, then, is going to 
say--assuming you give the tests, collect the data, publish it, 
disaggregate it, everybody knows it, who, then, is going to 
say, ``This is success. This is failure. This is the 
consequence for this school and this teacher.'' That's all in 
this. That's the Federal definition.
    Mr. Balfanz. With some gentle guidelines and not that level 
regulation, it could be left to the States to do largely with 
their State university systems, because the end goal for the 
kids who graduate from a public education system in a State--
are they prepared to succeed in their State's university 
education system. That's democracy. Go to a public school. 
You're ready for a public university.
    The States can use that to figure out--that's where we need 
our kids to be to succeed in our public universities. What do 
they need to do at the end of high school, at the end of middle 
school to be ready for that, and even at elementary school? 
That gives the States the thing to say what it is, but just 
some Federal nudging and guidelines along the way to make sure 
that all kids are in that.
    The Chairman. As I said earlier, this is what you give 
Federal----
    Mr. Balfanz. Ten pages, not a thousand.
    Mr. McIntyre. Senator, we expect our teachers to----
    The Chairman. Let me go to Ms. Duffy.
    Mr. McIntyre. Oh, I'm sorry.
    Ms. Duffy. A couple of things in this, and I'm sorry that 
we're getting to this so late as I get more and more animated. 
I agree with so many of the points made. In New York City, the 
DOE has a performance--or had a performance metric that looked 
at growth, absolute proficiency, school environment through 
surveys and other data that really captured a whole picture of 
how a school was doing.
    Ultimately, there's another metric that is even more 
compelling out of New York City, and it's the aspirational 
performance measurement, and it looks at exactly what you're 
saying, Dr. Balfanz. It looks at your scores on regents tests 
and predicts how you will do in the SUNY and CUNY schools 
across the State and the city and says, ``Will you require 
remediation when you get to college when you have graduated a 
New York City public school?''
    If you, indeed, require remediation, then we have to be 
able to say and be willing to say that that school is not 
successful with that kid yet. It doesn't mean that it's a 
binary proficiency or not proficiency, but it does mean that we 
have to measure outcomes, because without those outcomes, we 
know what happens to our kids. They are not successful in 
college, and then they're not successful in life.
    We have to be prepared to say, ``This is not meeting 
expectations. This is, in fact, failing our kids.'' Not that 
our kids are failing, but our adults are failing our kids. 
Looking at a sophisticated data metric that doesn't just honor 
proficiency but looks at growth, looks at attendance, looks at 
the softer data that actually represents a school community 
will do so much good for our schools and our kids.
    The Chairman. I'm going to ask Senator Murray if she has 
any--would you like to wait until the end?
    Senator Murray. I'll wait until the end.
    The Chairman. Why don't we ask each of the witnesses if you 
had one more word you'd like for us to remember as we go away 
from here today--and I'll invite you after you've heard this, 
or after you go home and say, ``I wish I had said X, Y, or Z,'' 
to write it down and send it to us, and we'll read it. This has 
been very helpful to me, and I imagine to every one of the 
Senators.
    If you had one more word to say to the Senators that are 
around the table today--and I'd like to ask you to especially 
think about--if we have the tests, if we have annual tests, and 
if they're disaggregated, and so we know all that, then who 
decides what is success, what is failure, and what you do about 
it? Do you do that here? Do you do it in Nashville? Do you do 
it at the school level? That's the thing we don't have a 
consensus about yet. Why don't we just go around the table?
    Ms. Kessler. Well, it's my belief that innovation results 
not only in having vision for the future, but feeling some 
level of safety in the present. If the purpose of school is to 
educate our youth, then we have to stop using one test on 1 day 
to sort and select kids or to burn teachers or schools or 
districts, because all of those people who are involved in the 
education of children have good intentions. They leave their 
own children every day to take care of the children of the 
American people.
    We've really got to work on making sure that we recognize 
their contribution and that we continue to work with teachers 
and not use social pressure to blame them.
    The Chairman. Dr. McIntyre.
    Mr. McIntyre. Thank you, Senator. It's important that the 
Federal Government ensure that each and every one of our 50 
States has rigorous expectations and standards, not that they 
dictate what those are, but every State has those. Once we do 
that, if we continue to have a requirement for annual 
assessments that we have--data and information about how our 
kids are doing--and then making sure also that States have 
reasonable accountability systems that aren't necessarily 
punitive, but developmental, that are reasonably tied to those 
standards and reasonably tied to the State objectives.
    That's probably the structure that we would like to see 
happen so that we could allow for the kind of flexibility that 
we want to see in our schools, in our districts, and in our 
States. That will enable the kind of innovation that we want to 
see and that we see across the country in terms of great things 
happening in schools and in classrooms across the country, and 
want to make sure that that innovation is there to support 
great teaching and great learning for our students.
    The Chairman. Dr. Balfanz.
    Mr. Balfanz. Well, first, I want to say that I think it's 
actually a very exciting time to be reauthorizing ESEA, not so 
much for the stuff going on around it, but the sheer fact that 
we know so much more now than we did 15 years ago, and that can 
really help us create a much more impactful ESEA that really 
spurs the innovation spirits of our teachers and 
administrators, but also focuses them to the biggest challenges 
and highest needs.
    My biggest learning in this thing is that we know there's 
this subset of middle and high schools that fundamentally are 
over-matched for the challenges they face, and they need to 
combine evidence-based, whole school improvements in teaching 
and learning with evidence-based enhanced student support. 
First, they have to have a good lesson every day, and that's 
really hard to do in that environment. If the kids aren't 
there, if they can't focus, if they can't do the work, like so 
much of that effort has dissipated--it's both/together. It's 
not either/or.
    My magic wand would say what we would do is we would go 
right to where the money is, go to title I, and say that some 
portion of that, in exchange for a lot of this freedom from 
regulation, to pare that way down, you're going to get a lot 
more freedom to solve the problem as you know best, because you 
know it best. Some portion of that money has got to be used to 
support evidence-based strategies for teaching and learning and 
evidence-based strategies for student supports.
    The bound is the evidence base. Within that, you can pick 
anything that works for you, but you can't pick anything you 
think works with a portion of that money, because there's a lot 
of wisdom and a lot of knowledge that's been built, and we need 
to fast forward into the knowledge frontier and not have you 
reinvent the wheel by just being innovative.
    The Chairman. Thank you, Dr. Balfanz.
    Ms. Taylor.
    Ms. Taylor. From my lens, with the innovative approaches 
like Promise Neighborhoods and the community school approach, 
allowing those wraparound services to support the child's well-
being, mental health, nutrition, and so forth--so that the 
educators can then do their jobs, which is educate. Right now, 
we're asking them to do a Herculean task. Providing those 
supports, providing those models that offer those wraparound 
services so that when little Taylor gets into her third grade 
math class, her teacher can then teach math.
    The Chairman. Mr. Davis.
    Mr. Davis. Well, again, our position as a nonprofit--I 
don't think we are in a position to say who defines the success 
or how many assessments. The truth is we're going to work 
within the confines of when the assessment is taken. We're 
going to collect the data, and we're going to make decisions 
that are based on the data.
    What I do want to say is in those communities that are 
rural--in their settings that look like ours, and they're 
small--it has to be a collective approach. It has to be a 
framework that is based on outcomes, that is based on evidence-
based practices, and very strong leadership in these 
communities in order to drive their populations toward real 
goals and real changes that are embraced by the whole 
community.
    Whatever the assessment is, we're just committed to 
collecting that data and making decisions based on that data so 
that we're driving toward our trajectory of growth.
    The Chairman. Thank you, Mr. Davis.
    Ms. Duffy.
    Ms. Duffy. Thank you for this roundtable. It's been an 
honor and a privilege. The students who have benefited most 
from Democracy Prep are the same ones who benefited most from 
the ESEA and its original iteration. Any future iteration has 
to be mindful of ensuring that we don't leave our students that 
are in urban centers, in rural districts, that are right now 
projected to have single digit rates of graduation--we don't 
leave those kids behind because we're afraid to push forward 
for accountability and data.
    The Chairman. Mr. Bradford.
    Mr. Bradford. I'd like to thank you for the opportunity to 
be here today, Senator. As a parent of three children in the 
public school system and an educator, I'd like to say that we 
should preserve the annual assessments and the accountability. 
The measurement is what's going to allow us to know whether or 
not our innovative programs are working. We need to stay 
committed to the results. We need to stay committed to 
supporting and helping our students with needs, especially 
those that are in disadvantaged situations.
    I wouldn't categorize the assessments as weapons. Rather, 
I'd categorize them as a tool that's driving innovation for 
school choice, course access, and transparency for parents and 
students so that they're going to get the education that they 
deserve.
    Thank you.
    The Chairman. Senator Franken, Senator Whitehouse, do you 
have any last words before we go to Senator Murray?
    Senator Whitehouse. Only one of appreciation for the 
helpful way in which this roundtable has enabled us to have 
this conversation, and I look forward to continuing to work 
with the committee going forward.
    The Chairman. Senator Franken.
    Senator Franken. I just like what the doctor said, that 
this is a good time to reauthorize this because we know so 
much, and so much more than we did 13 or 14 years ago, and that 
we should really be cognizant of what we have learned as we do 
this.
    Thank you all, and it's a privilege to be here. Thank you.
    The Chairman. Senator Murray.
    Senator Murray. Well, this has been a really excellent 
conversation, and we focused a lot on the testing. There isn't 
anybody who wants to have that pile of paper in front of them. 
I do think that this has really highlighted one of the 
important factors we can't forget, that if we just say forget 
it, all has been bad under No Child Left Behind, we could end 
up at a place where those kids who are the most disadvantaged, 
who have the toughest time at home or--and all the wraparound 
services that you're talking about that they need, or whether 
they came to school, or what happened at home last night--will 
get lost once again. We do not want to go back to that.
    The balance and how we get there and how we define real 
American goals, those goals that every child--no matter who 
they are or where they come from or how they learn or what 
happens at home at night--has the opportunity that's so 
important to that American ideal. It's something that we all 
have to continue to strive for, and in redoing No Child Left 
Behind, we have to keep that goal in mind and how we achieve 
that. This conversation has been very, very important.
    Mr. Chairman, you will note that our Democratic members are 
very interested in getting this right, and we want to work in a 
bipartisan way. We want to really incorporate those really 
important goals and do it in a way that we can have a good 
conversation after this reauthorization runs out 10 years from 
now that doesn't take us back to 30 years ago.
    The Chairman. Thanks, Senator Murray. I think we all want 
that. You've said it very well, and I appreciate the way that 
you and your staff have worked so that we can move along on 
this.
    Our job as Senators is to try to narrow the issues and see 
if we can develop a consensus about what to do. It's good to 
make a speech, and we've been doing that for 6 years now on the 
subject, and I think we've narrowed the issues, and we need to 
come to a conclusion about it.
    For me, the biggest area where we need to get a consensus 
is on the question of accountability. If we were to have the 
Federal tests, if we were to just aggregate the results and 
publish them, if we take an idea like Senator Baldwin's and put 
the spotlight on all the extra tests that State and local 
governments may be requiring, then the question remains who 
decides what to do about the tests. What is success, what is 
failure, and what do you do about that success or failure?
    My very strong bias is you can't do that from here. It has 
to be done in the community where the children are. While there 
are a great many good things that have come out of No Child 
Left Behind, one thing that hasn't worked very well is the 
Federal definition of what succeeds, what fails, and what the 
consequence is. It sounds to me like that may be the source of 
a lot of the problems. We have a ways to go before we finish 
it.
    Let me invite all of the witnesses to submit additional 
information if they would like.
    Senators, if you'd like to submit additional information 
and questions to our witnesses for the record, please do that.
    Next Tuesday, at 10 o'clock, our committee will hold a 
hearing on the Reemergence of Vaccine Preventable Diseases: 
Exploring the Public Health Successes and Challenges. In other 
words, what do we do about the measles outbreak, and what does 
that mean for us in terms of public health, public schools, and 
our community?
    Thank you for being here today. Thank you, Senator Murray.
    The committee will stand adjourned.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL

     Response to Questions of Senator Hatch and Senator Murkowski 
              by James M. McIntyre, Jr., B.A., M.S., Ph.D.
                             senator hatch
    Question 1. Today I am introducing the ``21st Century Classroom 
Innovation Act of 2015'' with my colleagues Senator Rubio and 
Representative Rodgers. This bill would amend title II to allow States 
to use a portion of their funds to award grants to local education 
agencies that have applied to use the funds for blended learning 
projects. For districts that do not have the technological 
infrastructure, these funds could be used as a one-time investment in 
the necessary tools. This is an extremely exciting and promising model 
for ensuring we catch all of our children in the classroom, and I am 
glad we have witnesses here who have real experience with this in their 
schools. I am especially interested in how blended learning models may 
be used to provide real-time feedback to teachers on students' 
understanding of subject matter.
    Dr. McIntyre, I believe the ability to harness technology in a 
classroom can lead to great changes, but as we have seen, it is only as 
beneficial as it is understood. That is why my bill allows funds for 
blended learning implementation to be used for ongoing professional 
development for teachers and training them in new programs and 
software. How important are professional development strategies 
specifically to support blended learning, and which approaches have 
teachers in high-performing blended learning schools found most 
valuable?
    Answer 1. Senator Hatch, you have really hit the nail on the head 
here. I would contend that pervasive instructional technology (such as 
is available in a blended learning or ``1:1'' environment) can be 
incredibly beneficial and even transformational academically, because 
it allows our teachers to provide even more creative, innovative, 
engaging and effective instruction. Ironically, such technology 
implementations are not really about the technology at all . . . they 
are about what our teachers and what our students can do with the 
technology! These types of electronic learning devices (computers or 
tablets in the classroom) are, at their best, a powerful teaching tool 
and a powerful learning tool. Therefore, it has been our experience in 
the Knox County Schools that professional development and support is 
absolutely critical to the success of any instructional technology 
implementation. It is particularly important to have professional 
development experiences that are facilitated by educators themselves 
who are experts in technology, pedagogy and content knowledge. 
Therefore, I would enthusiastically support the concept that you have 
outlined for your bill.
                           senator murkowski
    Question 1. What if Congress gives States free rein to innovate, 
but the innovations do not work? Should Congress ask States or school 
districts to show progress toward meeting the goals of the innovation 
within a certain specified timeframe?
    Answer 1. Senator Murkowski, I believe there must be both rigorous 
academic standards and expectations in each State, and an 
accountability system that is reasonably related to achieving those 
standards. When schools or districts do not meet their expectations, 
the specific interventions or consequences should be defined in the 
individual States' accountability systems. I believe the Federal role 
should be to ensure high standards in each State (but not dictate what 
those standards should be), to ensure an accountability system is 
adopted by each State that is appropriately aligned to achieving the 
State's standards (but not dictate what that accountability system 
should look like) and to provide some assurance that the States are 
actually implementing the accountability system that they adopted.

    Question 2. Please provide one or more examples of a requirement in 
ESEA or a rule promulgated by the U.S. Department of Education that has 
made it impossible for you to implement an innovative action that you 
believe would be helpful to the children you serve. How would you 
propose that the committee change or eliminate that requirement?
    Answer 2. Senator, My written testimony to the committee contains 
two examples: (1) a challenge we had because two partner agencies could 
not use 21st century grant dollars to serve kids in the same physical 
location, and (2) a lamentable bureaucratic focus on compliance 
monitoring rather than supporting innovation and educational success. 
The proposed solution to both is simply to provide greater flexibility 
to States and districts to spend Federal funds in ways that best 
support the education of their children. At a minimum, this kind of 
flexibility should be offered to States and districts with a 
demonstrated record of effective use of funds and academic success.
       Response to Questions of Senator Murkowski by Katie Duffy
    Question 1. What if Congress gives States free rein to innovate, 
but the innovations do not work? Should Congress ask States or school 
districts to show progress toward meeting the goals of the innovation 
within a certain specified timeframe?
    Answer 1. Congress should absolutely mandate that States, school 
districts and charter operators demonstrate progress toward meeting 
goals within a certain timeframe in exchange for the funding to be 
innovative. In the proposal, much like in the competitive grants 
process, like Charter Schools Program, it should be clear that part of 
any successful proposal would be interim metrics that demonstrate 
progress toward goals.

    Question 2. Please provide one or more examples of a requirement in 
ESEA or a rule promulgated by the U.S. Department of Education that has 
made it impossible for you to implement an innovative action that you 
believe would be helpful to the children you serve. How would you 
propose that the committee change or eliminate that requirement?
    Answer 2. Democracy Prep has not found that any of the rules or 
requirements promulgated by the U.S. Department of Education made it 
impossible to implement innovative action, but there are several that 
have hindered innovation. In addition to the Consolidated Application 
for title funding being unnecessarily onerous, there are also several 
specific rules, requirements and/or definitions that challenge 
innovative implementation.

    Supplement not supplant

    The requirement that all funds supplement but do not supplant 
existing funding is unnecessary; giving operators the freedom to manage 
their budgets in a way that best serves their students is essential. 
Insert example!

    Title III Threshold for Disbursement

    Charter Schools are defined as LEAs for the purposes of title 
funding, and as such, student populations can be as small as 50-100 
students in certain years. This is problematic because there is a 
$10,000 threshold for disbursement of title III funding and in the 
event that a district or LEA does not meet the threshold, they are 
unable to avail themselves of any funding to support English Language 
Learners. Elimination of this threshold would allow small districts and 
charter schools to better educate ELL students.
       Response to Questions of Senator Murkowski by Ken Bradford
    Question 1. What if Congress gives States free rein to innovate, 
but the innovations do not work? Should Congress ask States or school 
districts to show progress toward meeting the goals of the innovation 
within a certain specified timeframe?
    Answer 1. States should deliver on student achievement, and Federal 
funds awarded should in part be predicated on demonstrated student 
outcomes. To that end, States should also articulate long-term 
performance objectives and annual benchmarks along the way. States that 
cannot achieve the performance goals entailed in their plans should 
receive fewer funds. The Federal guidelines should both call for State 
accountability systems that commit to results, especially among 
historically disadvantaged students, and allow States to innovate on 
measures themselves. In Louisiana, our accountability system is 
evolving to include not just grade level proficiency and graduation 
rates, but also real-world college and career attainment measures such 
as Advanced Placement results, dual enrollment credit, and post-
secondary employment attainment. Louisiana's system is also evolving 
toward greater incorporation of individual student progress as a way of 
measuring school and district performance.

    Question 2. Please provide one or more examples of a requirement in 
ESEA or a rule promulgated by the U.S. Department of Education that has 
made it impossible for you to implement an innovative action that you 
believe would be helpful to the children you serve. How would you 
propose that the committee change or eliminate that requirement?
    Answer 2. There is currently a fragmented Federal structure that 
gives each title and grant program its own bureaucracy that gets 
replicated in every State agency and district school office in the 
country. This fragmentation is one of the greatest barriers to 
progress. There needs to be continued work that provides a coherent 
plan for schools and clear direction for States. States need to be able 
to focus on achieving large statewide goals versus singular 
programmatic goals in silos of work. In Louisiana, we have condensed 26 
Federal grants into one common application for dollars from school 
districts. Focusing on large statewide goals with spending flexibility 
allow States and districts to spend on critical services central to 
their plans for change.
     Response to Questions of Senator Hatch and Senator Murkowski 
                            by Susan Kessler
                             senator hatch
    Question. Today I am introducing the ``21st Century Classroom 
Innovation Act of 2015'' with my colleagues Senator Rubio and 
Representative Rodgers. This bill would amend title II to allow States 
to use a portion of their funds to award grants to local education 
agencies that have applied to use the funds for blended learning 
projects. For districts that do not have the technological 
infrastructure, these funds could be used as a one-time investment in 
the necessary tools. This is an extremely exciting and promising model 
for ensuring we catch all of our children in the classroom, and I am 
glad we have witnesses here who have real experience with this in their 
schools. I am especially interested in how blended learning models may 
be used to provide real-time feedback to teachers on students' 
understanding of subject matter.
    Dr. Kessler, teachers are not often able to utilize what they learn 
about individual students from the traditional testing system to inform 
real-time adjustments in their classrooms. Do you have any information 
on how teachers are utilizing what they learn about student achievement 
as a result of the blended learning model? Have you seen this lead to 
more personalized learning in the classroom?
    Answer. Blended learning is an effective tool for teachers to make 
real-time adjustments with certain assessments. Multiple choice type 
tests provide a quick way for teachers to assess; however, assessments 
that require short answer or essays will still take the time for 
teachers to read, review and grade. Blended learning has led to more 
personalized learning because it allows teachers to communicate to the 
class and to specific students in a way that seems more permanent 
because it is in writing. The benefit of blended learning is that 
students still get the face to face interaction with their instructor 
as well as the online component.
                           senator murkowski
    Question 1. What if Congress gives States free rein to innovate, 
but the innovations do not work? Should Congress ask States or school 
districts to show progress toward meeting the goals of the innovation 
within a certain specified timeframe?
    Answer 1. Innovation for the sake of innovation is unlikely to be 
helpful. I could suggest we change school hours to 12am-7am which would 
be innovative; however, we know brain research on circadian rhythms of 
the human body would indicate that young growing bodies are designed to 
be asleep during those hours and despite its innovative schedule, it 
could be a harmful innovation. Goals are important as long as they are 
realistic and allow for adequate time to attain them. Anytime we try 
something new there is an implementation dip where sometimes, progress 
takes a step backward as teachers and students learn new ways to do 
things. It is important that there is time to ``stay the course'' so 
that schools can get through that implementation dip and make progress 
toward their goals.
    Genuine improvement efforts will take 3-5 years to become habits. 
Allowing adequate time for schools to innovate and develop effective 
systems to support that innovation is of prime importance.

    Question 2. Please provide one or more examples of a requirement in 
ESEA or a rule promulgated by the U.S. Department of Education that has 
made it impossible for you to implement an innovative action that you 
believe would be helpful to the children you serve. How you would 
propose that the committee change or eliminate that requirement?
    Answer 2. I do not have an example that would meet the criteria 
described above.
    Response to Questions of Senator Murkowski by Henriette Taylor, 
                               MSW, LGSW
    Question 1. What if Congress gives States free rein to innovate, 
but the innovations do not work? Should Congress ask States or school 
districts to show progress toward meeting the goals of the innovation 
within a certain specified timeframe?
    Answer 1. If the ultimate goal is academic improvement, then 
innovations should be modeled and evaluated in tiers--short, 
intermediate, and long-term outcomes--with academic improvement being a 
long-term outcome. In our experience in low-income schools, 
particularly, you have to address basic needs, school/community 
cohesion, and parent engagement around their child's education first. 
Academic improvement cannot happen just by improving teacher skills, or 
curriculum, or classroom management. Students need to have basic needs 
met and families need to understand why education is relevant in their 
lives before academic gains will be seen. In our schools, it took a 
year for families to see us as a resource, trust us, and then use our 
services. That will show up in their children's performance, but it 
will take time. Perhaps there are other outcomes--such as improved 
attendance, reduction in negative behavior, number of resources 
provided to families--which are early and intermediate indicators of 
academic success. Stability comes first.
    Congress can also look to best practices, particularly around 
community schools, as to a set of outcomes with realistic timeframes 
which could be used to guide districts in expected results. In 
addition, it makes sense to shape a tiered evaluation which is specific 
to different types of districts. High-income is different from rural is 
different from urban is different on low-income. Districts cannot be 
expected to perform at the same levels with different populations.

    Question 2. Please provide one or more examples of a requirement in 
ESEA or a rule promulgated by the U.S. Department of Education that has 
made it impossible for you to implement an innovative action that you 
believe would be helpful to the children you serve. How would you 
propose that the committee change or eliminate that requirement?
    Answer 2. If there are items which can be paid for by title I or 
ESEA funds, then that list either needs to be broad categories or so 
exhaustive as to cover various innovations being done by different 
districts. For example, if a district can use title I or ESEA funds to 
pay for a community school coordinator (CSC), then that needs to be 
made clearer. Is a CSC the same as partner development? Is a CSC the 
same as wrap-around services? These are questions on which districts 
need guidance.
        Response to Questions of Senator Murkowski by Josh Davis
    Question 1. What if Congress gives States free rein to innovate, 
but the innovations do not work? Should Congress ask States or school 
districts to show progress toward meeting the goals of the innovation 
within a certain specified timeframe?
    Answer 1. There is no question but that programs based on 
``innovation'' should be time limited and that States should be 
required to show objective results within a specified period of time. 
If outcomes are not met, the program should be shut down. That being 
said, it is important to define what we mean by ``innovate.''
    For us in the Delta, it has meant developing processes to ensure 
each partner is held accountable for their contributions to achieving 
our shared targets and overall goals, along with placing a heavy 
emphasis on improving the quality and frequency of individual student 
interventions. In order to arrive at the point where all partners 
understood their individual contributions, committed to participating, 
and were willing to make programmatic shifts, we needed strong guidance 
to develop formal accountability processes, funding to support efforts 
and technology, and most importantly, an appropriate amount of time to 
usher into our community a transformative approach to conducting 
business in a whole new manner.
    The Promise Neighborhood model is based on the idea that we are 
collecting and reviewing as much meaningful information as we can on 
student achievement as frequently as possible and modifying our 
programmatic efforts in response to what that data is showing us. In 
other words, we are keenly interested in student achievement, not in 
sustaining programs. It follows, then, that the programs we implement 
are strategies for improvement. They are chosen based on the strongest 
evidence of their success, need to be implemented carefully, and are 
evaluated in terms of their effectiveness in helping children and youth 
succeed. If children are not meeting developmental benchmarks and 
students are not meeting academic achievement benchmarks, then the 
strategies need to be modified or replaced. Keeping a careful record of 
both--what works as well as what does not work--to improve student 
achievement helps to build a fund of knowledge about effective 
interventions.

    Question 2. Please provide one or more examples of a requirement in 
ESEA or a rule promulgated by the U.S. Department of Education that has 
made it impossible for you to implement an innovative action that you 
believe would be helpful to the children you serve. How you would 
propose that the committee change or eliminate that requirement?
    Answer 2. Since the implementation of our Promise Neighborhoods 
grant in January 2013, we have not encountered a circumstance when the 
U.S. Department of Education was unwilling to consider our requests to 
modify our proposed course of action and grant us permission to make 
changes during the project implementation in order to incorporate 
innovative approaches we believed would help us better serve 
Indianola's children.
    For example, the Department considered our request to purchase 
enough laptops for students in the school district to gain access to a 
web-based tool, which we utilize to assess student growth on a bi-
weekly basis and make decisions regarding the need to assists students. 
After explaining the necessity of our need to frequently assess student 
achievement and how this technology would allow us to do so without 
interrupting classroom instruction, they granted us permission to use 
funds for this expenditure. Moreover, the Department allowed us to make 
the transition from implementing a project designed to improve student 
behavior to another evidence-based project with the same outcome but 
with more cultural appropriateness regarding our community's 
demographics and norms.
    We have yet to encounter an ESEA provision or a DOE rule that have 
prevented us from fully implementing the promise neighborhood grant.
   Response to Questions of Senator Murkowski by Robert Balfanz, Ph.D
    Question 1. What if Congress gives States free rein to innovate, 
but the innovations do not work? Should Congress ask States or school 
districts to show progress toward meeting the goals of the innovation 
within a certain specified timeframe?
    Answer 1. Yes innovation and accountability need each other. 
Accountability both helps direct innovation to where it's most needed 
and also tells us if the innovation worked. It would be important for 
States or school districts to report on the impact of the innovation--
to either show that it worked or if it did not, how they intend to 
modify it based on what they have learned. If after a cycle of 
attempting the innovation, seeing it did not initially work, then 
modifying it and trying again and still not getting positive results, 
then it would be reasonable and prudent for Federal funding of the 
innovation to cease.

    Question 2. Please provide one or more examples of a requirement in 
ESEA or a rule promulgated by the U.S. Department of Education that has 
made it impossible for you to implement an innovative action that you 
believe would be helpful to the children you serve. How you would 
propose that the committee change or eliminate that requirement?
    Answer 2. In our work, working with over 60 schools across 12 
school districts, our ability to innovate has not been limited by 
Federal laws or regulations.

    [Whereupon, at 11:59 a.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
